                                                                                                          SIGAR
SIGAR
SPECIAL INSPECTOR GENERAL                                                                                                        Special Inspector General for   JULY 30




                                 SIGAR | QUARTERLY REPORT TO THE UNITED STATES CONGRESS | JULY 30, 2011
FOR AFGHANISTAN RECONSTRUCTION
                                                                                                                                 Afghanistan Reconstruction       2011
400 Army Navy Drive
Arlington, VA 22202-4704




                                 3                                                                        QUARTERLY REPORT TO THE UNITED STATES CONGRESS
Cover Captions (clockwise from left):
Skilled Afghan workers help complete a micro-
hydropower plant in the village of Daste Riwat, har-
nessing the power of the Panjshir River. The facility
is one of 150 power plants that the U.S. Army Corps
of Engineers is building in 7 provinces, using CERP
funds. The last unit is scheduled to be completed
in Parwan province this quarter. (ISAF photo,
MSgt Michael O’Connor)
An Afghan child receives care from a U.S. medic
during a Village Medical Operations Program clinic
in Uruzgan province on May 28. U.S. Special Opera-
tions Forces collaborated with a coalition Female
Treatment Team, Afghan commandos, and local
physicians to provide medical services and build
partnerships. (U.S. Army photo, SSgt Kaily Brown)
Afghan road workers upgrade the main route
through the Panjshir River Valley on May 21.
Supported by U.S. funds, the project will help the
GIRoA achieve its goal of improving transportation
corridors that link Afghan communities with internal
and external markets. (ISAF photo,
MSgt Michael O’Connor)

ANA trainees learn squad attack skills during
basic training at the Regional Military Training
Center on May 10 in Kandahar. This quarter, more
than 26,000 ANA personnel graduated from train-
ing programs funded by the Afghanistan Security
Forces Fund—an increase of more than 4,400              Afghan women plant seeds in pots at a nursery in Zabul province on May 8. This quarter,
since last quarter. (U.S. Air Force photo,                 USAID distributed thousands of packages of seeds and fertilizer to Afghan farmers
TSgt Adrienne Brammer)                                          to help increase agricultural output. (ISAF photo, SSgt Brian Ferguson)
SIGAR                                      Special Inspector General for
                                           Afghanistan Reconstruction
                                                                                     JULY 30
                                                                                      2011




The National Defense Authorization Act for FY 2008 (P.L. 110-181)
established the Special Inspector General for Afghanistan
Reconstruction (SIGAR).

SIGAR’s oversight mission, as defined by the legislation, is to provide for the indepen-
dent and objective
• conduct and supervision of audits and investigations relating to the programs and
   operations funded with amounts appropriated or otherwise made available for the
   reconstruction of Afghanistan.
• leadership and coordination of, and recommendations on, policies designed to pro-
   mote economy, efficiency, and effectiveness in the administration of the programs
   and operations, and to prevent and detect waste, fraud, and abuse in such programs
   and operations.
• means of keeping the Secretary of State and the Secretary of Defense fully and
   currently informed about problems and deficiencies relating to the administration of
   such programs and operation and the necessity for and progress on corrective action.
Afghanistan reconstruction includes any major contract, grant, agreement, or other
funding mechanism entered into by any department or agency of the U.S. government
that involves the use of amounts appropriated or otherwise made available for the
reconstruction of Afghanistan.

Source: P.L. 110-181, “National Defense Authorization Act for FY 2008,” 1/28/2008.
      SIGAR RESULTS TO DATE
      AUDITS
     • 45 reports published by the audit directorate; 14 ongoing audits
     • 136 recommendations, 64 in the first six months of 2011
     • Up to $58.5 million identified in contractor refunds not returned to the U.S. government
JULY 30
     • Forensic audits of $39 billion in reconstruction funds managed by DoD, DoS, and USAID
 2011
      INVESTIGATIONS
       • 89 ongoing investigations, 52 involving procurement and contract fraud
       • 5 convictions, including one of a U.S. military reserve officer for soliciting more than $1 million in bribes to
         influence the award of reconstruction contracts
       • Support for the arrest of 2 Afghan citizens on charges of bribery
       • 32 referrals for suspension and debarment
       • 637 Hotline complaints received; 269 referred for investigative action by SIGAR and other agencies




                                                      JOWZJAN                      KUNDUZ              BADAKHSHAN
                                                                    BALKH                    TAKHAR


                                                                      SAMANGAN
                                          FARYAB                                     BAGHLAN
                                                      SAR-E PUL                          PANJSHIR
                                BADGHIS                                                       NURISTAN
                                                                              PARWAN   KAPISA      KUNAR
                                                                    BAMYAN                 LAGHMAN
                                                                                    KABUL
                  HERAT                                                    WARDAK
                                                                                             NANGARHAR
                                          GHOR                                    LOGAR
                                                       DAYKUNDI
                                                                                             PAKTIYA
                                                                          GHAZNI                 KHOWST

                                                    URUZGAN
                    FARAH
                                                                                   PAKTIKA
                                                                  ZABUL




                   NIMROZ                                                                                     Current SIGAR offices
                               HELMAND
                                                 KANDAHAR                                                     Provinces where SIGAR has conducted
                                                                                                              audit and investigation work
                                           SPECIAL INSPECTOR GENERAL             FOR

                                           AFGHANISTAN RECONSTRUCTION


July 30, 2011
   I am pleased to submit SIGAR’s quarterly report to the Congress on the U.S. reconstruction effort in Afghanistan in
compliance with the statutory requirements of Section 1229 of P.L. 110-181. This report documents SIGAR’s activities and
updates the status of reconstruction programs since our April 30, 2011 report.
   The Congress has provided nearly $72.7 billion to rebuild Afghanistan since 2002. Earlier this year, SIGAR adjusted its
audit and investigations plans and implemented a much more aggressive strategy to provide comprehensive oversight
of these funds. As a result, this quarter SIGAR can report a number of accomplishments, including potential savings and
several arrests:
• identified up to $58.5 million in contractor refunds not returned to the U.S. government
• identified $1.6 million in expired, unused funds that have now been returned to the U.S. Treasury
• supported five arrests, including a U.S. military reserve officer charged with soliciting more than $1 million in
    bribes for reconstruction contracts
• referred six individuals and contractors for suspension and debarment
   During this reporting period, SIGAR issued five audits and one congressionally mandated report. The audits reflect
SIGAR’s determination to conduct a balanced mix of contract and program audits to detect waste, fraud, and abuse, and
to promote economy, efficiency, and effectiveness in the administration of programs and operations. SIGAR’s review of
the contract between the U.S. Army Corps of Engineers and a company to provide workers’ compensation insurance
identified up to $58.5 million in refunds that were not returned to the U.S. government. In another audit, SIGAR found
that insufficient controls over U.S. funds in Afghanistan are hampering U.S. efforts to develop the Afghan financial
sector. SIGAR also found that the Afghan government has not cooperated consistently with the United States, thereby
undermining U.S. efforts to develop the sector. SIGAR’s audit of the Afghanistan Reconstruction Trust Fund (ARTF)—the
principal vehicle through which the United States and other international donors provide direct assistance to the Afghan
government—identified challenges that need to be addressed to effectively oversee these funds.
   This quarter, SIGAR investigators opened 29 cases, supported investigations that resulted in the arrest of 3 U.S. citizens
and 2 Afghan citizens, and referred 6 individuals or companies for suspension and debarment. In one case, a U.S. military
reserve officer pled guilty to receiving more than $400,000 and attempting to solicit more than $1 million in bribes for
influencing the award of reconstruction contracts. SIGAR’s continuing support of Afghan law enforcement agencies led
to the arrest of two Afghan citizens—one charged with offering bribes and the other with soliciting bribes. SIGAR’s work
with Afghan law enforcement officials is particularly important because of the large number of reconstruction contracts
the United States is awarding to Afghan companies. Finally, SIGAR is expanding its effort to build cases for the suspension
and debarment of contractors who have been involved in fraud or who have performed poorly in executing contracts.
   SIGAR remains committed to conducting the oversight necessary to identify fraud, develop cases against individuals
and companies engaged in criminal activity, earn returns for the taxpayer, and offer recommendations to improve the
effectiveness of the U.S. reconstruction effort.


  Very respectfully,




  Herbert Richardson
  Acting Special Inspector General for Afghanistan Reconstruction



                                    400 ARMY NAVY DRIVE   ARLINGTON, VIRGINIA 22202
                                    EXECUTIVE SUMMARY




SIGAR ACTIVITIES Q3, FY 2011
This quarter, SIGAR completed five audits that assessed reconstruction contracts and programs to
improve governance, development, and security in Afghanistan. SIGAR also submitted a mandated
review of contractor oversight to Congress and announced four new audits. SIGAR opened 29 new
investigations, bringing the number of ongoing cases to 89.

SIGAR accomplishments this quarter included the            • Weaknesses in the USACE Defense Base Act
following:                                                   Insurance Program Led to as Much as $58.5 Million
• identified up to $58.5 million in contractor refunds       in Refunds Not Returned to the U.S. Government
    not returned to the U.S. government                      and Other Problems
• identified $1.6 million in expired, unused funds that
    have now been returned to the U.S. Treasury            SPECIAL REPORT TO CONGRESS
• supported the arrest of a U.S. military reserve offi-    This quarter, SIGAR submitted to the Congress a report
    cer charged with soliciting more than $1 million in    on the oversight of contractors and plans for reducing
    bribes for reconstruction contracts                    the reliance of the United States on private security con-
• assisted Afghan authorities with the arrest of           tractors (PSCs) in Afghanistan as required by Section
    Afghan citizens charged with soliciting and offering   1219 of the National Defense Authorization Act for
    bribes to win reconstruction contracts                 FY 2011. The review found that from October 2008
                                                           through March 2011, the inspectors general of the
COMPLETED AUDITS                                           Department of Defense, the Department of State, and
The five audits SIGAR issued this quarter identified a     the U.S. Agency for International Development; the U.S.
number of contract and program management issues           Government Accountability Office; and SIGAR issued
and made 21 recommendations to recover funds,              65 reports that made 297 recommendations to improve
increase accountability, improve program management,       contracting. SIGAR also found that although U.S.
and achieve better interagency cooperation:                implementing agencies continue to rely heavily on PSCs
 • USAID’s Kabul Community Development Program             to provide for site, convoy, and personnel security in
   Largely Met the Agreement’s Terms, but Progress         Afghanistan, these agencies are not systematically track-
   Toward Long-Term Goals Needs To Be Better               ing deaths of Afghan civilians caused by PSCs.
   Tracked
 • U.S. Agencies Have Provided Training and Support        NEW AUDITS
   to Afghanistan’s Major Crimes Task Force, but           This quarter, SIGAR initiated four new audits:
   Funding and Reimbursement Issues Need To Be             • USAID’s Contracts in Support of the Afghanistan
   Addressed                                                  Stabilization Initiative
 • Limited Interagency Coordination and Insufficient       • USAID’s Cooperative Agreement in Support of an
   Controls over U.S. Funds in Afghanistan Hamper             Agriculture Program
   U.S. Efforts To Develop the Afghan Financial Sector     • Reliability of Funding and Contract Data Maintained
   and Safeguard U.S. Cash                                    by the U.S. Central Command Joint Theater Support
 • The World Bank and the Afghan Government                   Contracting Command (C-JTSCC) on Prime Vendors
   Have Established Mechanisms To Monitor and                 for Major Reconstruction Contracts in Afghanistan
   Account for Funds Contributed to the Afghanistan        • U.S. Army Corps of Engineers Operations and
   Reconstruction Trust Fund, but Some Limitations            Maintenance Contracts with ITT Corporation for
   and Challenges Should Be Addressed                         Afghan National Security Forces Facilities



                                      iv
                                     EXECUTIVE SUMMARY




INVESTIGATIONS                                                 U.S. law enforcement agencies and the ASIU that has
During this reporting period, SIGAR opened 29 cases            led to the arrest of an Afghan citizen.
and supported investigations that resulted in the arrests          In June 2011, a joint operation between SIGAR,
of five people, including a U.S. military reserve offi-        the ICCTF, the Afghan National Police Criminal
cer who pled guilty to soliciting more than $1 million         Investigative Division, and Afghan prosecutors culmi-
in bribes for reconstruction contracts and two U.S.            nated in the arrest of an Afghan contractor who had
citizens charged with conspiracy to traffic in heroin.         offered $400,000 in bribes to a USACE contract special-
SIGAR continues to support Afghan law enforcement              ist at Kandahar Air Field.
officials in their investigations of Afghan citizens alleged
to have been involved in fraud and corruption related          Suspension and Debarment Program
to reconstruction contracts. SIGAR views this work as          This quarter, SIGAR made 6 referrals for suspension and
particularly important because of the large number of          debarment of individuals and contractors, bringing the
contracts the United States is awarding to Afghan com-         total referrals since 2009 to 32. SIGAR is conducting an
panies. This quarter, SIGAR’s efforts contributed to the       aggressive effort to improve contractor accountability
arrest of two Afghan citizens.                                 through its suspension and debarment program. SIGAR
                                                               views suspension and debarment as an important
U.S. Military Officer Pleads Guilty to Bribery                 adjunct to its investigative and audit responsibilities,
In June 2011, a U.S. military reserve officer pled guilty in   especially when non-U.S. nationals are concerned.
a federal district court to bribery related to reconstruc-     SIGAR is focused on (1) identifying contractors alleged
tion contracts and conspiracy to distribute heroin. The        to have been involved in fraud or to have performed
officer admitted to having received more than $400,000         questionably on contracts, (2) making recommenda-
in bribe money and expecting an additional $1 million          tions for suspension and debarment, and (3) developing
from contractors in Afghanistan for having agreed to           a comprehensive training program for investigators and
influence the award of reconstruction contracts valued         auditors to facilitate the collection of evidence neces-
at approximately $23 million. This joint investigation,        sary to support suspension and debarment actions.
which included partner agencies in the International
Contract Corruption Task Force (ICCTF), the Drug
Enforcement Administration, and the Department of
Homeland Security, also led to the arrest of two other
individuals for conspiracy to traffic in narcotics.

SIGAR Supports Investigations Leading to Arrests
of Two Afghans
In May 2011, a joint operation between members of the
Afghan Shafafiyat (Transparency) Investigative Unit
(ASIU), the ICCTF, and SIGAR resulted in the arrest of
an Afghan citizen for soliciting a $150,000 bribe from
a contractor who provides support for the U.S. Army
Corps of Engineers (USACE) at the Kabul International          SIGAR auditors meet with officials from the Ministry of
                                                               Defense and CSTC-A in Kabul on May 19 to discuss the pro-
Airport. This was the first joint investigation between
                                                               cess that the ANA uses to account for tens of thousands of
                                                               vehicles provided by the U.S. government. (SIGAR photo)




                                                                                 v
TABLE OF CONTENTS




     SECTION 1
     SIGAR OVERSIGHT
      3   Audits
     19   Investigations
     24   SIGAR Budget
     25   SIGAR Staff




     SECTION 2
     AFGHANISTAN OVERVIEW
     29   Security Transition Begins
     30   New Civilian and Military Leadership
     31   FY 2012 National Defense Authorization Act (NDAA)
     32   Senate Report on U.S. Foreign Assistance to Afghanistan
     34   Secretary of State Testifies Before the Congress
     34   Senate Subcommittee Holds Hearings on Reconstruction
          Contracts
     35   DoS Provides Certifications Needed To Obligate
          Reconstruction Funds
     35   Looking Forward



     SECTION 3
     RECONSTRUCTION UPDATE
     39   Overview
     43   Status of Funds
     55   Security
     75   Governance
     97   Economic and Social Development
TABLE OF CONTENTS




   SECTION 4
   OTHER AGENCY OVERSIGHT
   113   Completed Oversight Activities
   118   Ongoing Oversight Activities
   131   Investigations
   131   Inspections




   APPENDICES & ENDNOTES
   134 Appendix A: Cross-Reference of Report
                   to Statutory Requirements
   138 Appendix B: U.S. Government Appropriated Funds
   140 Appendix C: SIGAR Audits
   142 Appendix D: SIGAR Investigations and Hotline
   143 Appendix E: Abbreviations and Acronyms
   146 Endnotes
                 Conducting Oversight
                 SIGAR auditors visit ANA Headquarters in Kabul this quarter
                 to continue an audit. SIGAR is focusing on the ability of
                 CSTC-A and the ANSF to account for and maintain the tens of
                 thousands of vehicles that the United States has provided.
                 (SIGAR photo)




viii   SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
1   SIGAR
    OVERSIGHT




        1
           SIGAR OVERSIGHT




“It is essential that we use all available
  tools to ensure that U.S. dollars are
protected from fraud and diversion to
 the insurgency. We must also ensure
 that the Afghan government is a full
   partner in efforts to set a fledgling
   financial sector on sound footing.”
                         —Herbert Richardson,
               Acting Special Inspector General
                for Afghanistan Reconstruction




           Source: SIGAR, news release, “SIGAR Audit Reveals Risks to U.S. Aid Dollars, Development of Sound Afghan Financial Sector,” 7/20/2011.




                2                          SPECIAL INSPECTOR GENERAL                 I   AFGHANISTAN RECONSTRUCTION
                                           SIGAR OVERSIGHT




                                                                                      COMPLETED AUDITS
                                                                                      •   Audit 11-11: USAID’s Kabul Community
                                                                                          Development Program (Governance/
                                                                                          Economic Development)
                                                                                      •   Audit 11-12: Support to the MCTF (Rule
SIGAR OVERSIGHT                                                                           of Law/Corruption)
                                                                                      •   Audit 11-13: Developing the Financial
                                                                                          Sector (Financial Sector)
The U.S. Congress established SIGAR to provide independent and objective              •   Audit 11-14: Oversight of the ARTF (Direct
oversight of U.S. funds appropriated or otherwise made available for the recon-           Assistance/Multi-Donor Trust Fund)
struction of Afghanistan. In accordance with its legislative mandate, SIGAR           •   Audit 11-15: DBA Insurance Program
                                                                                          (Security/Contract)
conducts audits and investigations to provide recommendations on policies
to (1) promote economy, efficiency, and effectiveness in the administration of        •   Audit 11-1SP: Analyzing Recommenda-
                                                                                          tions on Contracting (Special Report to
programs and operations using reconstruction funds, and (2) prevent and detect            Congress under NDAA)
waste, fraud, and abuse in these programs and operations. SIGAR’s enabling
legislation also requires it to keep the Secretary of State and the Secretary of      NEW AUDITS
Defense fully informed about problems relating to the administration of recon-        •   USAID Contracts in Support of
                                                                                          Afghanistan Stabilization Initiative
struction programs and to submit a report on SIGAR’s oversight work and on the
                                                                                      •   USAID Cooperative Agreement in Sup-
status of the U.S. reconstruction effort to the U.S. Congress no later than 30 days       port of an Agriculture Program
after the end of each fiscal quarter.                                                 •   Reliability of Data on Prime
   This section describes SIGAR’s activities since April 30, 2011. Sections 2 and 3       Reconstruction Vendors
provide an update on U.S. programs to rebuild Afghanistan. SIGAR highlights this      •   USACE O&M Contracts for ANSF
quarter included the following:                                                           Facilities
 • published five audits and submitted one congressionally mandated report            ONGOING AUDITS
 • identified up to $58.5 million in contractor refunds not returned to the U.S.      •   USAID Contracts for LGCD Projects
    government                                                                        •   Construction at Kabul Military Training
 • identified $1.6 million in expired, unused funds that have now been returned           Center
                                                                                      •   Construction at the Afghan National
    to the U.S. Treasury
                                                                                          Security University
 • announced four new audits                                                          •   Private Security Support Services (I)
 • opened 29 investigations and closed 15                                             •   Private Security Support Services (II)
 • supported the arrest of a U.S. military reserve officer charged with soliciting    •   Accountability of ANSF Vehicles
    more than $1 million in bribes for reconstruction contracts                       •   Agriculture Sector Development
 • assisted Afghan authorities with the arrest of Afghan citizens charged with        •   U.S. Civilian Uplift Costs in Afghanistan
                                                                                      •   USAID Financial Audit Coverage of
    soliciting and offering bribes to win reconstruction contracts                        Incurred Costs
 • referred six individuals and contractors for suspension and debarment              •   Implementation of the Afghan
                                                                                          First Initiative
AUDITS                                                                                FORENSIC AUDITS
During this reporting period, SIGAR issued five audit reports that examined           •   DoD Transaction Data Related to
reconstruction contracts and programs related to governance, anti-corruption,             Reconstruction
development, and security. These audits identified a number of contract and           •   USAID Transaction Data Related to
program management issues and made 21 recommendations to recover funds,                   Reconstruction
                                                                                      •   DoS Transaction Data Related to
increase accountability, improve program management, and achieve better inter-            Reconstruction
agency cooperation. In addition, SIGAR completed and submitted to Congress a



             REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2011        3
                                                 SIGAR OVERSIGHT




                                                 review of contractor oversight mandated by the National Defense Authorization
                                                 Act for Fiscal Year 2011 (NDAA, P.L. 111-383). SIGAR also began work on 4 new
                                                 audits, bringing the total number of ongoing audits to 14. In addition, SIGAR is
                                                 conducting three forensic reviews of major reconstruction funds.

                                                 Completed Audit Reports
                                                 The five audits SIGAR published this quarter included assessments of a U.S.
COMPLETED AUDITS                                 Agency for International Development (USAID) cooperative agreement, inter-
• Audit 11-11: USAID’s Kabul Community           agency efforts to strengthen Afghanistan’s financial sector and safeguard U.S.
    Development Program Largely Met the          cash flowing through the Afghan economy, the capacity of the Afghan govern-
    Agreement’s Terms, but Progress Toward       ment to monitor and account for international donor funds, U.S. assistance to
    Long-Term Goals Needs To Be Better           build the capabilities of Afghanistan’s Major Crimes Task Force, and the U.S.
    Tracked
                                                 Army Corps of Engineers (USACE) Defense Base Act Insurance Program.
•   Audit 11-12: U.S. Agencies Have Provid-
    ed Training and Support to Afghanistan’s
    Major Crimes Task Force, but Funding         Audit 11-11: Governance and Economic Development
    and Reimbursement Issues Need To Be          USAID’s Kabul Community Development Program Largely Met the Agreement’s Terms, but
    Addressed                                    Progress Toward Long-Term Goals Needs To Be Better Tracked
•   Audit 11-13: Limited Interagency Coordi-     In March 2009, USAID awarded a one-year, $25 million cooperative agreement
    nation and Insufficient Controls over U.S.   to CARE International, on a non-competitive basis, to establish the Community
    Funds in Afghanistan Hamper U.S. Efforts     Development Program-Kabul (CDP-K). The CDP-K provides cash-for-work
    To Develop the Afghan Financial Sector
                                                 to 50,000 Afghan citizens in the Kabul area. In March 2010, USAID extended
    and Safeguard U.S. Cash
                                                 the cooperative agreement for 18 months. Under this second phase, USAID
•   Audit 11-14: The World Bank and the
    Afghan Government Have Established           increased funding to a total of $60 million and expanded program goals to benefit
    Mechanisms To Monitor and Account for        78,000 Afghans and fund long-term projects to improve the living and working
    Funds Contributed to the Afghanistan         conditions of target communities.
    Reconstruction Trust Fund, but Some
    Limitations and Challenges Should Be         OBJECTIVES
    Addressed
                                                 SIGAR conducted this audit because job creation is an important element of the
•   Audit 11-15: Weaknesses in the USACE
                                                 U.S. reconstruction strategy in Afghanistan and because cash-for-work projects
    Defense Base Act Insurance Program
    Led to as Much as $58.5 Million in           involve inherent risks of fraud, waste, and abuse. This audit had three objectives:
    Refunds Not Returned to the U.S. Gov-         • Evaluate the processes and procedures USAID followed to award this coop-
    ernment and Other Problems                      erative agreement.
•   Audit 11-1SP: Analysis of Recommenda-         • Determine whether the program was being implemented within the cost,
    tions Concerning Contracting in Afghani-        schedule, and outcome terms of the agreement.
    stan, as Mandated by Section 1219             • Assess the implementation of internal controls over cash disbursements.
    of the Fiscal Year 2011 NDAA (Special
    Report to Congress)
                                                 FINDINGS
                                                 1. USAID followed established procedures in deciding to award a cooperative
                                                    agreement on a non-competitive basis to CARE International to implement
                                                    the CDP-K. USAID also provided additional oversight for the program to miti-
                                                    gate the risks of fraud, waste, and abuse that are inherent in cash-for-work
                                                    projects. In addition, USAID adhered to the requirements to document the
                                                    award and expansion of the program.




                                                    4               SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                          SIGAR OVERSIGHT




2. CARE International largely complied with the terms under phase one of the
   cooperative agreement and appears to be on track to meet the schedule,
   cost, and outcomes established for phase two. However, CARE International
   failed to complete certain required studies, such as the impact of the pro-
   gram on local food prices, which could have helped to guide program
   implementation and measure the program’s impact on the beneficiaries.
   Moreover, USAID failed to formally incorporate some program goals into
   phase two of the agreement, such as developing projects with long-term
   economic impact. Consequently, there has been no reporting on whether the
   program is achieving longer-term goals.
3. CARE International has implemented numerous checks and balances to
   prevent inappropriate cash disbursements. Nevertheless, A.F. Ferguson, an
   independent company hired to monitor and evaluate CARE’s internal con-
   trols, found that CARE needs to improve these controls to address limited
   irregularities.

RECOMMENDATIONS
To ensure that the CDP-K’s broader objectives are achieved and appropriate
oversight of funds is provided, SIGAR recommended that the USAID Mission
Director require that:
1. USAID and CARE International program staff document the specific nature
   and definition of CDP-K’s expanded project goals for this and any potential
   follow-on awards.
2. CARE International address to what degree these goals were met when it
   submits its close-out report to USAID later this year, along with any lessons
   learned with regard to why, if applicable, certain long-term goals were not
   met.
3. USAID and CARE determine to what degree, if any, CARE International
   should reimburse USAID for the costs associated with required studies that
   were not completed.
4. USAID and CARE reconcile remaining internal control issues identified by
   A.F. Ferguson as soon as possible.

AGENCY COMMENTS
USAID concurred with all four of SIGAR’s recommendations. USAID noted that
it would work with CARE International program staff to document the expanded
project goals under phase two of the cooperative agreement and ensure that
related lessons learned and recommendations for further activities are included
in CARE’s project close-out report. USAID stated that it will determine to what
degree, if any, CARE should reimburse USAID for the costs associated with
required studies that were not completed. USAID also said it will work closely
with CARE to review CARE’s cash disbursement process and promptly rectify
any remaining internal control issues.




            REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2011        5
SIGAR OVERSIGHT




Audit 11-12: Rule of Law/Corruption
U.S. Agencies Have Provided Training and Support to Afghanistan’s Major Crimes Task Force,
but Funding and Reimbursement Issues Need To Be Addressed
In 2009, the Afghan government established the Major Crimes Task Force
(MCTF) as the principal agency responsible for investigating and processing
major cases of corruption, kidnapping, and organized crime cases. Because
corruption and organized crime undermine the legitimacy of the Afghan govern-
ment, pose significant obstacles to investment and economic growth, and fuel
the insurgency, several U.S. government agencies are involved in providing sup-
port to strengthen the MCTF.

OBJECTIVES
SIGAR conducted this audit as part of its continuing effort to assess U.S. efforts
to build the capacity of Afghan institutions to detect and deter corruption. This
audit had two objectives:
• Determine the nature and extent of U.S. assistance for the MCTF.
• Evaluate whether U.S. assistance was provided in accordance with appli-
   cable laws and regulations.

FINDINGS
1. The U.S. government provided at least $15.3 million to assist the MCTF
   through FY 2010. These funds supported the training and mentoring of
   MCTF investigators as well as the refurbishment and maintenance of MCTF
   facilities. U.S. officials expect to provide an additional $24 million to assist
   the MCTF in FY 2011. The Department of Defense (DoD) has provided the
   majority of U.S. assistance funding for the MCTF. DoD manages this assis-
   tance through the Combined Security Transition Command - Afghanistan
   (CSTC-A). The Department of State’s (DoS) Bureau of International
   Narcotics and Law Enforcement Affairs (INL), the Federal Bureau of
   Investigation (FBI), and the Drug Enforcement Administration have also
   provided assistance to the MCTF.
2. DoD, through interagency agreements, provides funding to the FBI and INL
   to support the MCTF. In order to obligate DoD funds, the FBI and INL signed
   memoranda of understanding with the Defense Security Cooperation Agency
   (DSCA). SIGAR identified three accountability issues related to U.S. support
   for the MCTF. First, the DSCA and the FBI had not de-obligated $1.6 million
   in unused funds that expired as of September 2010. During the audit, the
   agencies returned the $1.6 million to the U.S. Treasury. Second, INL has not
   provided the required quarterly financial reporting on its use of DoD funds,
   including $6.2 million in MCTF funds for operations and maintenance. Third,
   CSTC-A and INL do not yet have a system to charge and collect reimburse-
   ments from international partners receiving services at MCTF facilities.




   6                 SPECIAL INSPECTOR GENERAL     I   AFGHANISTAN RECONSTRUCTION
                                              SIGAR OVERSIGHT




RECOMMENDATIONS
SIGAR made two recommendations to improve accountability and ensure that
the U.S. government is appropriately reimbursed for some of its costs relating to
support of the MCTF.
   To improve accountability over U.S. assistance to the MCTF, SIGAR recom-
mended that the Assistant Secretary of State for International Narcotics and Law
Enforcement Affairs take the following action:
1. Provide an accounting of the $6.2 million already transferred to INL to
   cover operations and maintenance costs for the MCTF Camp Falcon facil-
   ity, as required by the memorandum of agreement between the Office of the
   Secretary of Defense and INL.
   To ensure that the U.S. government is reimbursed, as appropriate, for some
of the costs of assistance to the MCTF, SIGAR recommended that the Assistant
Secretary of State for International Narcotics and Law Enforcement Affairs, in
consultation with the Commanding General of CSTC-A, take the following action:
2. Develop and implement a system to bill, collect, and appropriately use such
    funds received from non-U.S. international personnel receiving services at
    the MCTF Camp Falcon facilities.

AGENCY COMMENTS
A draft of this report included a recommendation that the FBI de-obligate its
unused MCTF funds. Because the FBI subsequently did so, SIGAR deleted the
recommendation. In their comments, the U.S. Embassy and INL said that INL
had implemented the first recommendation by submitting an accounting of the
expenditures covering operations and maintenance costs. However, in reviewing
the documentation, SIGAR determined that INL did not present information on
the goods and services provided with the $6.2 million or indicate how the funds
were allocated, as required by the memorandum of agreement. The U.S. Embassy
and INL’s comments also supported the second recommendation, indicating
that CSTC-A and INL had taken some actions to address it. In addition, CSTC-A
concurred with this recommendation and indicated that DoS has taken over full
responsibility for Camp Falcon operations and maintenance.

Audit 11-13: Financial Sector
Limited Interagency Coordination and Insufficient Controls over U.S. Funds in Afghanistan
Hamper U.S. Efforts To Develop the Afghan Financial Sector and Safeguard U.S. Cash
Since 2002, Congress has appropriated more than $70 billion to rebuild
Afghanistan’s security, governance, and economic sectors. Some of these funds
have been converted to cash and flow through the Afghan economy. To ensure
that the Afghan financial sector can absorb these funds and to develop the
Afghan government’s capacity to sustain a viable market economy, U.S. agencies
have implemented programs to (1) increase the capacity of Afghanistan’s cen-
tral bank—Da Afghanistan Bank (DAB)—to regulate financial institutions in the
country and (2) strengthen U.S. and Afghan law enforcement monitoring of and
controls over the flow of U.S. aid through the Afghan economy.



              REPORT TO THE UNITED STATES CONGRESS    I   JULY 30, 2011             7
SIGAR OVERSIGHT




OBJECTIVES
The near collapse of Kabul Bank in September 2010 caused continued uncer-
tainty about the health of Afghanistan’s remaining banks. Questions about
the export of large amounts of cash through the Kabul International Airport
prompted SIGAR to conduct an audit of the U.S. effort to develop the financial
sector and account for U.S. funds flowing through the Afghan economy. The
audit had two objectives:
• Evaluate U.S. efforts to improve the capacity of the Afghan government to
   regulate the financial sector, which includes DAB, 17 commercial banks, and
   hawalas (informal financial organizations).
• Assess the controls that U.S. agencies use to track U.S. funds as they flow
   through the Afghan economy.

FINDINGS
Although U.S. assistance has helped the Afghan government improve its ability to
regulate its financial sector, two challenges limit the effectiveness of the U.S. effort:
• U.S. agencies have not fully coordinated the implementation of their financial
   sector development programs.
• Afghan ministries have not cooperated consistently with the United States,
   thereby delaying U.S. programs or preventing them from succeeding.
   Although U.S. agencies have taken steps to strengthen their oversight of U.S.
funds flowing through the Afghan economy, the U.S. government still has limited
visibility over where this money goes, leaving these funds vulnerable to fraud or
diversion to insurgents.

RECOMMENDATIONS
SIGAR made four recommendations to improve interagency coordination on
financial sector development programs and to strengthen oversight over the flow
of U.S. funds through the Afghan economy.
    To help leverage available resources and expertise and avoid duplication
of agency efforts on financial sector issues, SIGAR recommended that the
U.S. Ambassador to Afghanistan instruct the members of the Financial Sector
Working Group to:
 1. Develop an interagency strategy to coordinate efforts to work with Afghan
    banks to increase their electronic funds transfer (EFT) internal processes,
    and transaction accountability capabilities.
   To strengthen oversight over the flow of U.S. funds through the Afghan
economy and to support overall U.S. reconstruction goals in Afghanistan, SIGAR
recommended that the Secretary of State and the Secretary of Defense instruct
their contracting and financial authorities to:
2. Institute steps to record the serial numbers of cash disbursed to contrac-
    tors and provide these data to U.S. law enforcement officials (including the
    Afghan Threat Finance Cell), as well as FinTRACA or another appropriate
    Afghan source.



   8                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                            SIGAR OVERSIGHT




3.   Develop a plan to ensure that Afghan banks that provide payments to recipi-
     ents of U.S. EFT payments record the serial numbers of cash paid to these
     recipients by using bulk currency counters and that these data are reported
     to U.S. law enforcement officials (including the Afghan Threat Finance
     Cell), as well as FinTRACA or another appropriate Afghan source.
4.   Insert a standard clause into U.S. contracts, grants, and cooperative agreements
     with entities operating in Afghanistan requiring that these contractors pay
     their subcontractors through either an EFT-capable bank or a licensed hawala,
     where possible. Alternatively, if a determination is made that such a clause
     would not be feasible under existing regulations, submit a formal proposal to
     Congress with legislative language allowing the inclusion of such a clause.

AGENCY COMMENTS
A draft of this report included a recommendation that the U.S. Ambassador to
Afghanistan instruct members of the Embassy’s Financial Sector Working Group
to include the Department of Homeland Security (DHS) in their planning meetings
and ensure that all U.S. agencies that support the development of the financial
sector be included in Financial Sector Working Group discussions. Because DHS
was subsequently added to the group, SIGAR deleted the recommendation. In its
response to the draft report, the U.S. Embassy Kabul generally agreed with the
recommendations, but cited some difficulties implementing them. For example, in
response to SIGAR’s recommendation that U.S. agencies develop an interagency
strategy to coordinate efforts to work with Afghan banks to increase their EFT
internal processes and transaction accountability capabilities, the Embassy noted
that accomplishing this task will require consensus among and action by Afghan
ministries, the U.S. government, and other donors implementing reconstruction
and development projects in Afghanistan. The Embassy concurred with the last
recommendation, stating that it will add a clause to its contracts requiring imple-
menting partners to make payments only through EFTs or licensed hawalas. DoD
chose not to comment.

Audit 11-14: Direct Assistance/Multi-Donor Trust Fund
The World Bank and the Afghan Government Have Established Mechanisms To Monitor and
Account for Funds Contributed to the Afghanistan Reconstruction Trust Fund, but Some
Limitations and Challenges Should Be Addressed
In 2010, the United States and other donors pledged to provide 50% of their
development assistance through the Afghan national budget within two years.
The Afghanistan Reconstruction Trust Fund (ARTF), which is administered by the
World Bank, is the principal vehicle through which donors are currently providing
direct assistance to the Afghan government. Since 2002, 32 international donors
have contributed nearly $4.3 billion to the ARTF, which supports the Afghan
government’s non-security operating costs and development projects. The United
States, the largest single contributor, has provided $972 million to the fund.




              REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2011         9
SIGAR OVERSIGHT




OBJECTIVES
SIGAR conducted this audit because the United States has invested nearly
$1 billion in the ARTF over the last nine years. In addition, the current empha-
sis on direct assistance makes it important to understand how the World Bank
monitors and accounts for ARTF funds, and to know whether the Afghan govern-
ment can account for funds it receives through the ARTF. The audit had two
objectives:
• Assess the extent to which the World Bank and the Afghan government have
    established and implemented mechanisms to independently monitor and
    account for donor contributions to the ARTF.
• Assess the extent to which the Afghan government has developed the capac-
    ity to monitor and account for ARTF funds.

FINDINGS
1. The World Bank and the Afghan government have established three means to
   independently monitor and account for ARTF funds; however, these mecha-
   nisms have some limitations. The oversight instruments consist of the World
   Bank’s standard procedures for overseeing World Bank–funded projects, an
   independent monitoring agent to track the Afghan government’s non-security-
   related operating expenses financed by the ARTF under the Recurrent Cost
   Window, and mandatory audits by the Afghan Control and Audit Office.
   Oversight is not as robust as it could be because monitoring of non-security
   operating costs is limited to financial reviews and audits. Moreover, limited
   independent validation of ARTF spending is conducted outside of Kabul, and
   the World Bank does not disseminate reports on the results and outcomes of
   ARTF-funded development projects to all ARTF donors.
2. The Afghan ministries have generally increased their ability to manage and
   account for government finances, including ARTF funds. Nevertheless, the
   Afghan government faces challenges developing and maintaining the civil
   service expertise needed to manage and account for ARTF funds. As a result
   of the capacity constraints, the Afghan government continues to rely on
   Afghan contractors and international firms, which are paid using a portion of
   ARTF funds.

RECOMMENDATIONS
SIGAR made three recommendations to improve oversight of ARTF funds and
ensure that ministries build the capacity to account for funding.
   To strengthen and enhance oversight of ARTF funds, SIGAR recommended
that the U.S. Ambassador to Afghanistan, in coordination with other ARTF
donors, urge the World Bank to:
1. Include explicit language in the new Recurrent Cost Window monitoring
   agent’s contract and terms of reference to require the agent to make neces-
   sary arrangements to conduct site visits in both Kabul and the provinces, on
   a sample basis, to verify the eligibility of the Afghan government’s operating
   expenditures.



  10               SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                           SIGAR OVERSIGHT




2. Enhance reporting to all donors on development project results and out-
   comes by regularly including this information in its quarterly reports to
   donors or by systematically distributing supervision mission reports to all
   ARTF donors.
   To ensure that Afghan ministries further develop and sustain the staff exper-
tise needed to manage and account for development funding, including ARTF
funds, SIGAR recommended that the U.S. Ambassador to Afghanistan, in coordi-
nation with the World Bank and other donors:
3. Assist the Afghan government with capacity-building efforts, such as
    developing plans to completely transition to Afghan civil service staff and
    completing pay and grade reform, which would enhance the Afghan govern-
    ment’s ability to attract and retain qualified staff.

AGENCY COMMENTS
The U.S. Embassy Kabul noted steps that the World Bank is taking to respond to
the first two recommendations and described several ongoing efforts to address
the third recommendation to enhance the Afghan government’s capacity to man-
age and account for development funding.
   In its response, the World Bank discussed steps it is taking to respond to the
three recommendations. For example, the World Bank indicated that it plans to
ensure that explicit language is included in the new Recurrent Cost Window moni-
toring agent’s contract and terms of reference to require provincial site visits.

Audit 11-15: Security/Contract Audit
Weaknesses in the USACE Defense Base Act Insurance Program Led to as Much as
$58.5 Million in Refunds Not Returned to the U.S. Government and Other Problems
The U.S. Defense Base Act (DBA) requires federal government prime contrac-
tors and subcontractors to provide workers’ compensation insurance for their
employees who work overseas. Congress enacted the DBA to ensure that
individuals working abroad for the U.S. government would have workers’ com-
pensation insurance, if they are injured or killed on the job. Since 2008, the U.S.
Army Corps of Engineers (USACE) and the U.S. Central Command Joint Theater
Supporting Contract Command (C-JTSCC) have contracted with Continental
Insurance Company (CNA) to serve as their only DBA provider. Since then, CNA
has collected about $225 million in premiums.

OBJECTIVES
Because contractors are reimbursed for their DBA costs, the program makes it
easier for smaller contractors to afford the costs associated with federal con-
tracting. DBA insurance is particularly important in Afghanistan, because of the
hostile working environment and the limited size and resources of many subcon-
tractors, particularly Afghan companies. This audit had three objectives:
• Determine the extent to which DBA premium rates were set at appropriate
   levels.




             REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2011        11
SIGAR OVERSIGHT




• Assess USACE’s and the C-JTSCC’s internal controls for ensuring that prime
  contractors and subcontractors obtain insurance in compliance with the DBA.
• Evaluate the process for billing and reimbursing contractors for DBA costs.

FINDINGS
1. SIGAR found that USACE agreed to higher premium rates than stipulated
   under the terms of the contract and did not exercise strong oversight of
   CNA’s performance under the contract. For example, it did not hold CNA
   responsible for fulfilling all of the reporting requirements in the contract.
   SIGAR determined that such oversight was needed because CNA’s data were
   not always complete, accurate, or current. For example, CNA reported cases
   as losses, even after it had been informed that it would be reimbursed by the
   Department of Labor for cases under the War Hazards Compensation Act
   (WHCA).
2. The internal controls employed by USACE and C-JTSCC failed to ensure that
   prime contractors and subcontractors purchased and maintained the correct
   amount of insurance.
3. SIGAR identified problems with CNA’s current process for billing and reim-
   bursing contractors for DBA costs. First, CNA commingles funds from
   multiple sources, which violates U.S. funding restrictions, including the
   Purpose Statute and, possibly, the Anti-Deficiency Act. Second, USACE and
   the C-JTSCC contracting officers have limited visibility over DBA costs. As a
   result, some contractors have purchased less insurance than they agreed to
   under the terms of their contracts. In addition, SIGAR determined that CNA
   has given $58.5 million in refunds to contractors for DBA insurance since
   2005, at least some of which is due back to the U.S. government.

RECOMMENDATIONS
SIGAR made eight recommendations—four to the Acting Commanding General
of USACE to strengthen the DBA insurance contract and four to the Acting
Commanding General of USACE and the Commander of the C-JTSCC to
strengthen the DBA insurance program and take steps to recover any refunds
that may be due to the U.S. government. SIGAR recommended that the Acting
Commanding General of USACE:
1. Modify the current contract with CNA to require that an invoice be provided
   for each contract showing the final amount paid for DBA insurance for
   that contract. This action should address the problem associated with the
   Purpose Statute violation SIGAR identified.
2. Determine whether the Purpose Statute violation that SIGAR identified also
   constitutes an Anti-Deficiency Act violation and, if so, follow the report-
   ing requirements set forth in the Act and in guidance from the Office of
   Management and Budget.
3. Modify the current contract with CNA to clarify and make explicit the
   requirement that incurred losses exclude claims identified for reimbursement
   under the WHCA. Specifically, the contract should stipulate who identifies



  12               SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                          SIGAR OVERSIGHT




   the claims for reimbursement, when they are to be removed from the loss
   report, how much time CNA has to remove them, and how cases with claim-
   ants outside the United States should be handled.
4. Modify the current contract with CNA to require an independent actuary
   review of reserve adequacy particular to the claims covered under the con-
   tract with USACE and to submit the review to USACE on an annual basis.
   To strengthen the DBA insurance program and take steps to recover any
refunds that may be due to the U.S. government, SIGAR recommended that the
Acting Commanding General, USACE, and the Commander, C-JTSCC:
5. Issue guidance to contracting officers to strengthen their oversight of DBA
   insurance. This guidance should remind contracting officers of the impor-
   tance of adjusting the DBA CLIN when contract modifications significantly
   affect the amount of labor needed to perform the contract. The guidance
   should also require contracting officers to receive the final invoice from the
   insurance carrier for each contract before reimbursing the contractor.
6. Take steps to remind subcontractors of the requirement to and importance
   of purchasing DBA insurance. These steps could include issuing a memo on
   DBA insurance policies and procedures to prime contractors, to be shared
   with all subcontractors.
7. Determine how much of the $58.5 million in refunded money is recoverable
   by USACE and the C-JTSCC.
8. Take immediate action to recover the funds that USACE and the C-JTSCC
   determined to be recoverable.

AGENCY COMMENTS
In commenting on a draft of the report, USACE and the C-JTSCC concurred with
SIGAR’s recommendations and noted measures that they will take to implement
them.

Audit 11-1SP: Special Report to Congress
Analysis of Recommendations Concerning Contracting in Afghanistan, as Mandated by
Section 1219 of the Fiscal Year 2011 NDAA
This quarter, SIGAR submitted to Congress a report on the oversight of contrac-
tors and plans for reducing the reliance of the United States on private security
contractors (PSCs) in Afghanistan, as required by Section 1219 of the National
Defense Authorization Act (NDAA) for FY 2011. In accordance with discussions
with congressional staff, SIGAR agreed to (1) analyze the recommendations
made to DoD, DoS, and USAID regarding contracting in Afghanistan from FY 2008
through March 2011, and (2) assess the current situation regarding the use of
PSCs in Afghanistan, including the extent to which PSCs have been responsible
for Afghan civilian deaths.
   From October 2008 through March 2011, the inspectors general of DoD, DoS,
and USAID; the U.S. Government Accountability Office (GAO); and SIGAR issued
65 reports with 297 recommendations to improve contracting in Afghanistan.




             REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2011       13
                                               SIGAR OVERSIGHT




                                               SIGAR’s analysis identified 14 contracting themes. Of the 297 recommendations,
                                               177 (about 60%) fell into five broad categories:
                                               • issues related to non-compliance, questioned costs, and the need for further
                                                  audit work
                                               • contract oversight
                                               • post-award contract actions
                                               • quality and quantity of the U.S. government workforce
                                               • project schedule and performance metrics
                                                  U.S. implementing agencies continue to rely heavily on PSCs to provide for
                                               site, convoy, and personnel security in Afghanistan. Concerns about PSCs recently
                                               culminated in the Afghan government developing a strategy to transfer many
                                               of the security functions to a newly formed state-run body, the Afghan Public
                                               Protection Force (APPF). The strategy, which went into effect on March 22, 2011,
                                               is designed to allow PSCs to continue providing security services to contrac-
                                               tors implementing reconstruction projects for one year and to the International
                                               Security Assistance Force (ISAF) for two years as the APPF develops the capac-
                                               ity to assume responsibility for these services.
                                                  SIGAR found that data on Afghan deaths caused by PSCs has not been system-
                                               atically tracked and may not be complete. For example, although USAID tracks
                                               the deaths of implementing partner personnel and their security details, it does
                                               not report on civilian deaths caused by PSCs. Officials of U.S. Forces - Afghanistan
                                               (USFOR-A) have not reported any Afghan civilians killed by DoD-contracted
                                               PSCs since August 2009. DoS reported four Afghan civilian deaths as a result of
                                               traffic accidents involving PSCs.

                                               Status of SIGAR Recommendations
                                               In the first six months of 2011, SIGAR made 64 recommendations to improve
                                               contract oversight and promote economy, efficiency, and effectiveness in the
                                               administration of programs and operations using reconstruction funds. This
NEW AUDITS                                     nearly doubles the number of recommendations made since SIGAR was estab-
                                               lished in 2008. Of the 136 recommendations SIGAR has made, U.S. government
• USAID’s Contracts in Support of the          agencies have already implemented 54.
    Afghanistan Stabilization Initiative
•   USAID’s Cooperative Agreement in
    Support of an Agriculture Program          New Audits Announced This Quarter
•   Reliability of Funding and Contract Data   During this reporting period SIGAR initiated four new audits—one of a USAID
    Maintained by the U.S. Central Com-        development contract, one of a USAID cooperative agreement, one to examine
    mand Joint Theater Support Contracting     the reliability of funding and contract data maintained by the C-JTSCC, and one
    Command (C-JTSCC) on Prime Vendors         of the USACE contract for the operations and maintenance of Afghan National
    for Major Reconstruction Contracts in
    Afghanistan                                Security Forces (ANSF) facilities.
•   U.S Army Corps of Engineers Operations
    and Maintenance Contracts with ITT         USAID’s Contracts in Support of the Afghanistan
    Corporation for Afghan National Security   Stabilization Initiative
    Forces Facilities                          In July 2009, USAID’s Office of Transition Initiatives awarded two three-year
                                               contracts, with a combined value of more than $300 million to support the U.S.



                                                 14                SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                           SIGAR OVERSIGHT




government’s Afghanistan Stabilization Initiative (ASI) in the southern and
eastern regions of Afghanistan. In close cooperation with ISAF, the ASI seeks
to improve the economic and social environment in Afghanistan though small
community-enhancement projects.

USAID’s Cooperative Agreement in Support of an
Agriculture Program
In September 2008, USAID entered into a cooperative agreement with International
Relief and Development to support the Afghanistan Vouchers for Increased
Production in Agriculture (AVIPA) Plus program. USAID extended this program
until June 2011, for a total cost of $450 million. Key components include seed
and fertilizer distribution, cash-for-work projects to stimulate local economies,
small grant programs to provide farming equipment, and training and capacity-
development programs.

Reliability of Funding and Contract Data Maintained by the U.S.
Central Command Joint Theater Support Contracting Command
(C-JTSCC) on Prime Vendors for Major Reconstruction Contracts
in Afghanistan
This audit will follow up on the SIGAR audit, “DoD, State, and USAID Obligated
Over $17.7 Billion to About 7,000 Contractors and Other Entities for Afghan
Reconstruction During Fiscal Years 2007–2009,” which identified the contractors
and implementing partners associated with reconstruction work in Afghanistan.
In comments on the report, the C-JTSCC stated that it was undertaking several
initiatives to improve the quality of contract data that it maintains and reduce the
number of data errors. Subsequently, SIGAR received additional information call-
ing into question the reliability of the C-JTSCC’s data. Specifically, the C-JTSCC
may have reported obligations that differed significantly from total contract
values. In June, the Senate Committee on Homeland Security and Governmental
Affairs, Subcommittee on Contracting Oversight cited specific concerns about
the accuracy and reliability of the C-JTSCC data provided to SIGAR. This audit
will determine the cause of the discrepancies, the measures that the C-JTSCC
has taken to address the discrepancies, and the additional steps, if any, that the
C-JTSCC needs to take to ensure the accuracy and reliability of its contract data.

U.S. Army Corps of Engineers Operations and Maintenance
Contracts with ITT Corporation for Afghan National Security
Forces Facilities
In July 2010, USACE awarded two firm-fixed-price contracts, valued at a total of
$800 million, to ITT Systems Corporation to provide operations and maintenance
for ANSF facilities. These contracts cover Afghan army and police facilities in
northern and southern Afghanistan. The contracts consist of one base year plus
four optional years. According to the program manager, these contracts may
cover more than 660 sites. These contracts also require that the contractor train




             REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2011         15
                                           SIGAR OVERSIGHT




                                           Afghan workers in all aspects of operations and maintenance. Currently, the DoD
                                           Office of Inspector General is conducting a separate audit on the training aspect
                                           of the contracts.

                                           Ongoing Audits: Contract
                                           SIGAR has five ongoing audits of contracts. They address contracts to improve
ONGOING AUDITS                             governance in Afghanistan, build infrastructure for the Afghan National Security
Contract                                   Forces (ANSF), and provide security for the U.S.-funded reconstruction effort.
• USAID Contracts for Local Governance
  and Community Development Projects       USAID Contracts for Local Governance and Community
• Construction at the Kabul Military       Development Projects
  Training Center                          SIGAR is examining the performance, costs, and outcomes of USAID’s contracts
• Construction at the Afghan National      in support of its Local Governance and Community Development projects.
  Security University
• Private Security Support Services (I)    Construction at the Kabul Military Training Center
• Private Security Support Services (II)   SIGAR is assessing construction contracts for the Kabul Military Training Center
                                           infrastructure projects. From FY 2007 through FY 2010, the Air Force Center for
Reconstruction Programs and Operations     Engineering and the Environment (AFCEE) obligated approximately $161 million
                                           for five task orders under three indefinite-delivery/indefinite-quantity contracts at
• Accountability of ANSF Vehicles
                                           the Center. Under these contracts, AFCEE awarded a combination of cost-plus-
• U.S. Assistance To Develop
  Afghanistan’s Capacity in the Agricul-   fixed-fee, firm-fixed-price, and time-and-materials task orders. Work required
  ture Sector                              under these task orders included planning, construction, and oversight functions
• Costs and Sustainability of the U.S.     with different completion dates.
  Civilian Uplift in Afghanistan
• USAID’s Financial Audit Coverage         Construction at the Afghan National Security University
  of Costs Incurred Under Contracts,       SIGAR is assessing construction contracts for the Afghan National Security
  Cooperative Agreements, and Grants for   University (formerly called the Afghan Defense University). AFCEE awarded a
  Afghanistan Reconstruction
                                           cost-plus-fixed-fee task order under an indefinite-delivery/indefinite-quantity con-
• Implementation of the Afghan First       tract for construction at the Afghan National Security University in the Qaragh
  Initiative for Contracting
                                           area of Kabul. At the time of the award, the task order was valued at approxi-
                                           mately $70 million, and the project was to be completed in June 2010. Since then,
                                           AFCEE has issued five modifications to the task order, adding and removing
                                           requirements, increasing the amount obligated to about $83 million, and extend-
                                           ing the completion date through June 2011.

                                           Private Security Support Services (I)
                                           SIGAR is examining whether USACE received the services it needed within the
                                           terms of the contract and any modifications from its private security contractor.

                                           Private Security Support Services (II)
                                           SIGAR is conducting an audit of a private security contractor that provided
                                           services for one of USAID’s largest contractors. This audit is focused on cost,
                                           schedule, and outcomes of the subcontract, as well as on contract oversight.




                                             16                SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                            SIGAR OVERSIGHT




Ongoing Audits: Programs and Operations
SIGAR has five ongoing audits of programs and operations that are critical to the
U.S. effort to build the ANSF, improve governance, and lay the foundation for
economic growth in Afghanistan.

Accountability of ANSF Vehicles
The United States has provided tens of thousands of vehicles to the ANSF and
plans to provide thousands more through at least 2012. Most of these vehicles
have been purchased through the Foreign Military Sales (FMS) program, which is
administered by the DSCA. This audit, which is focused on vehicles, will provide
insight into the overall ability of CSTC-A and the ANSF to account for and ensure
the maintenance of vehicles.

U.S. Assistance To Develop Afghanistan’s Capacity in the
Agriculture Sector
The United States has invested $1.4 billion to develop Afghanistan’s agriculture
sector. To better ensure the long-term sustainability of U.S.-funded projects, U.S.
agencies have provided more than $100 million for capacity-building activities,
including increasing the capabilities of the Ministry of Agriculture, Irrigation, and
Livestock to better serve farmers and promote private-sector development. This
audit has been rescoped to assess capacity-building efforts in the agriculture sector.

Costs and Sustainability of the U.S. Civilian Uplift in Afghanistan
The U.S. strategy in Afghanistan relies, in part, on the U.S. government’s ability
to deploy and sustain a civilian effort to build governance and support economic
development across the country. DoS has authorized 1,223 civilians as of May 31,
2011. Conducted jointly with the DoS Office of Inspector General, this audit is a
follow-on audit of the costs of implementing the civilian uplift, as well as sustain-
ing and supporting the civilian presence in Afghanistan.

USAID’s Financial Audit Coverage of Costs Incurred Under
Contracts, Cooperative Agreements, and Grants for
Afghanistan Reconstruction
According to USAID’s Office of Inspector General, USAID’s obligations for recon-
struction in Afghanistan totaled approximately $11.7 billion for FY 2002–2010.
USAID provided most of these funds to contractors and non-profit organiza-
tions through contracts, cooperative agreements, and grants. Financial audits
of costs incurred under these financial mechanisms provide valuable oversight
of appropriated funds by determining the appropriateness of direct and indirect
costs, as well as identifying weaknesses in internal controls and compliance with
applicable laws and regulations. This audit will assess USAID’s efforts to conduct
required financial audits of its awards.




             REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2011           17
                                           SIGAR OVERSIGHT




                                           Implementation of the Afghan First Initiative for Contracting
                                           U.S. Forces - Afghanistan (USFOR-A) and the U.S. Embassy Kabul have adopted
                                           an Afghan First approach to contracting to promote economic growth, capacity
                                           development, and related counter-insurgency objectives by encouraging the use
                                           of Afghan firms to meet U.S. requirements for supplies and services. This audit is
                                           assessing the Afghan First Initiative.

                                           Forensic Audits
                                           Public Law 110-181, as amended, requires that before SIGAR is terminated, it
FORENSIC AUDITS                            must prepare and submit to the appropriate congressional committees a final
•   Forensic Review of DoD Transaction     forensic audit report on programs and operations funded with amounts appro-
    Data Related to Afghanistan            priated or otherwise made available for the reconstruction of Afghanistan.
    Reconstruction                         SIGAR is conducting forensic reviews of three major reconstruction funds—
•   Forensic Review of USAID Transaction
    Data Related to Afghanistan            the Afghanistan Security Forces Fund (ASFF), which is managed by DoD;
    Reconstruction                         the Economic Support Fund (ESF), which is managed by USAID; and the
•   Forensic Review of DoS Transaction     International Narcotics Control and Law Enforcement (INCLE) account, which
    Data Related to Afghanistan            is managed by DoS—to identify waste, fraud, and abuse of taxpayer dollars.
    Reconstruction
                                           Forensic Review of DoD Transaction Data Related to
                                           Afghanistan Reconstruction
                                           In March 2010, SIGAR initiated a review of DoD appropriation, obligation,
                                           and expenditure transaction data related to the ASFF. Congress has appropri-
                                           ated nearly $39.5 billion to the ASFF since the fund was created in FY 2005.
                                           Approximately $12.9 billion had been disbursed as of FY 2010.
                                              Obtaining data to perform testing has been a challenge because once DoD
                                           obligates ASFF funds, it transfers a significant amount of these funds immedi-
                                           ately to an FMS trust-fund account to await disbursement.
                                              As of June 28, 2011, the Defense Finance and Accounting Service (DFAS) had
                                           provided SIGAR with files covering approximately $5.8 billion in disbursements
                                           processed through the FMS account. These files allow only a limited forensic
                                           review because they do not include a number of data fields. SIGAR is currently
                                           trying to get information on the remaining data sets. Meanwhile, SIGAR’s foren-
                                           sic team is scrubbing the available data sets to isolate unique vendor IDs and
                                           create a master vendor list that will identify vendors across all agencies. SIGAR
                                           will use this list to perform cross-agency forensic testing.
                                              SIGAR has conducted a forensic review of $1.7 billion of direct ASFF-related
                                           disbursements (non-FMS) from USACE for FY 2005 through 2009. Tests were
                                           performed to isolate anomalies, such as duplicate payments and vendors on the
                                           excluded party lists. SIGAR is awaiting direct access to the Corps of Engineers
                                           Financial Management System (CEFMS) voucher database in order to review
                                           these exceptions and source documentation.




                                             18               SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                            SIGAR OVERSIGHT




Forensic Review of USAID Transaction Data Related to
Afghanistan Reconstruction
SIGAR has asked USAID for additional source documentation for exceptions
identified during its initial review of more than 73,000 transactions amounting to
$7.4 billion in disbursements, from 2002 through July 2010. Much of this docu-
mentation is housed in the field, which accounts for the delay. SIGAR has also
obtained updated transaction data through March 2011. This data is being recon-
ciled with additional data feeds to verify its accuracy and completeness. When
that task is complete, the forensic team will perform another round of testing.
SIGAR is obtaining data updates on a quarterly basis and will perform continu-
ous monitoring of USAID transactions.

Forensic Review of DoS Transaction Data Related to
Afghanistan Reconstruction
In June 2010, SIGAR launched its forensic review of transaction data related to
the INCLE account, which has been funded with $2.86 billion through March 31,
2011. On July 19, 2011, SIGAR received initial data sets totaling $2.4 billion in
disbursements from FY 2002 through June 2011. SIGAR is reviewing and cleans-
ing the data and is initiating forensic analysis on the transactional detail.

INVESTIGATIONS
During this reporting period, SIGAR opened 29 new cases and supported investi-
gations that resulted in the arrest of five people, including a U.S. military reserve
officer who pled guilty to soliciting more than $1 million in bribes for reconstruc-
tion contracts and two U.S. citizens for conspiracy to possess and distribute
heroin. SIGAR’s continued effort to assist Afghan law enforcement bodies con-
tributed to the arrest of two Afghan citizens. SIGAR also expanded its suspension
and debarment program, which seeks to make all contractors—U.S., Afghan, and
third-country nationals—more accountable. Through this program, SIGAR aims
to prevent contractors who have been engaged in fraud or performed poorly
from being awarded subsequent reconstruction contracts. This quarter, SIGAR
made six referrals for suspension and debarments.

Ongoing Cases
This quarter, SIGAR opened 29 investigations and closed 15, bringing the total
number of ongoing cases to 89. Most of the new cases involve procurement
fraud and corruption, which are SIGAR’s top investigative priorities. Of the new
cases, 14 are investigations of procurement fraud, and 10 are of allegations of
corruption and bribery. The other five cases concern theft of government prop-
erty, suspension and debarment matters and civil investigations. Figure 1.1 on
the following page provides a breakdown of SIGAR’s ongoing cases by category.
   This quarter, SIGAR closed 15 cases. Four resulted in legal action, either
through suspension and debarment, a pending arrest, or a pending equitable




             REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2011         19
SIGAR OVERSIGHT




FIGURE 1.1

SIGAR INVESTIGATIONS: ONGOING INVESTIGATIONS, AS OF JUNE 30, 2011
                                                                    Total: 89

    Procurement/Contract Fraud                                                            52
        Public Corruption/Bribery                                   28
                    Miscellaneous                 4
                              Civil           2
                              Theft           2
                     Assessments          1

                                      0               10   20        30         40   50

Source: SIGAR Investigations Directorate, 7/1/2011.




adjustment with the government. Six cases were found to be unsubstantiated,
and five cases were closed for lack of prosecutorial merit.

U.S. Military Reserve Officer Pleads Guilty to Bribery;
Two Additional Arrests
In June 2011, a U.S. military reserve officer pled guilty in federal district court to
bribery related to reconstruction contracts and conspiracy to distribute heroin.
The officer, whose identity SIGAR is withholding to protect ongoing investiga-
tions, admitted to having received more than $400,000 in bribe money and being
owed an additional $1 million by contractors in Afghanistan for having pledged to
influence the award of reconstruction contracts valued at approximately
$23 million. The joint investigation was initiated by SIGAR and included mem-
bers of the International Contract Corruption Task Force (ICCTF), the Drug
Enforcement Administration (DEA), and the Department of Homeland Security
Immigration and Customs Enforcement (DHS-ICE). The investigation led to the
DEA’s arrest of two other individuals on heroin-related charges and conspiracy to
traffic in narcotics, six days before the officer pled guilty.
    Federal authorities arrested the reserve officer in April 2011 in Virginia, as
he/she attempted to take possession of a $500,000 cash payment that the officer
believed to be part of the outstanding bribe money. In addition to bribery, fed-
eral authorities charged the officer with possession of heroin and conspiracy to
distribute it.
    This investigation began in April 2010, when SIGAR received information that
a U.S. military reserve officer had received bribes in exchange for influencing
the award of reconstruction contracts in 2008 and 2009. SIGAR also learned that
the reserve officer, who had already left Afghanistan, believed that he/she was
still owed a large sum of bribe money from contractors. In collaboration with
other ICCTF members, SIGAR opened a criminal investigation and developed a
plan to engage the officer in a discussion about the outstanding bribes. During




   20                         SPECIAL INSPECTOR GENERAL         I   AFGHANISTAN RECONSTRUCTION
                                                 SIGAR OVERSIGHT




A team of investigators in Kandahar prepares to arrest an Afghan contractor on bribery
charges in June. The arrests followed a joint investigation by SIGAR, other members of the
ICCTF, ANP investigators, and Afghan prosecutors. (SIGAR photo)

the summer and fall of 2010, SIGAR established an e-mail relationship with the
reserve officer, who wrote that he/she was still due money for steering contracts
to certain contractors.
   SIGAR agents, in concert with ICCTF member agencies, orchestrated several
meetings with the reserve officer during the latter half of 2010 and early months
of 2011. During these meetings, which were electronically monitored, the reserve
officer explained how he/she had influenced the contracting process, identified
specific contractors and the contracts involved, and provided detailed informa-
tion on the bribes that he/she had received and the amounts that were still owed.
In addition, the officer described how he/she transferred portions of the bribe
money from Afghanistan to the United States. The reserve officer discussed hav-
ing an Afghan warlord help collect the outstanding bribe money that was owed
by Afghan contractors.
   During the meetings with undercover federal agents, the reserve officer
expressed a desire to become involved in smuggling heroin from Southwest Asia
to the United States. At this point, SIGAR invited the DEA to join the investiga-
tion. Subsequently, the reserve officer introduced a SIGAR cooperating source to
heroin dealers who were interested in purchasing Southwest Asian heroin. The
DEA had prior knowledge of these individuals.

SIGAR Assists Afghan Authorities with Investigation and Arrest
In June 2011, a joint operation between members of the Afghan Shafafiyat
(Transparency) Investigative Unit (ASIU), the ICCTF, and SIGAR resulted in
the arrest of an Afghan citizen who had demanded a $150,000 bribe from a




               REPORT TO THE UNITED STATES CONGRESS       I   JULY 30, 2011             21
SIGAR OVERSIGHT




SIGAR investigators participate in the arrest in June of an Afghan citizen for allegedly demand-
ing a bribe from a U.S.-funded reconstruction contractor. This was the first arrest of an Afghan
based on the collaboration of U.S. law enforcement agencies and the Afghan Shafafiyat
Investigative Unit. (SIGAR photo)

contractor who provides support to USACE at Kabul International Airport. This
case is the first joint investigation between U.S. law enforcement agencies and
the ASIU resulting in the arrest of an Afghan citizen. The case generated signifi-
cant interest at the highest levels of both the U.S. military and Afghan leadership.
   The investigation began immediately after the ICCTF received a complaint
that Mohammad Idress Qasimi, who worked as an interpreter, had demanded a
bribe from a U.S.-funded contractor. Through their established contacts with the
ASIU, SIGAR agents elicited the support of the Afghan Attorney General’s Office
to conduct a joint investigation. Under the direction of Deputy Attorney General
Dr. Rahmatullah Nazari, two ASIU investigating prosecutors helped coordinate
the investigation. SIGAR provided $20,000 to be paid to Qasimi as a down pay-
ment on the bribe. The Afghan authorities arrested Qasimi immediately after he
accepted the money, and the Afghan National Police (ANP) of Police District 10
took him into custody. SIGAR and ICCTF agents observed the arrest and subse-
quent processing of Qasimi by the ANP. The $20,000 was returned to SIGAR.

Afghan Contractor Offering Bribes Arrested
In June 2011, a joint operation between SIGAR and members of the ICCTF in
cooperation with the ANP Criminal Investigative Division (CID) and Afghan pros-
ecutors in Kandahar led to the arrest of an Afghan contractor who had on two




   22                  SPECIAL INSPECTOR GENERAL     I   AFGHANISTAN RECONSTRUCTION
                                           SIGAR OVERSIGHT




occasions attempted to bribe a USACE contract specialist at Kandahar Air Field.
In an unsolicited e-mail sent to the USACE contract specialist in April 2011, the
contractor offered to pay a bribe in return for a contract award to build a border
police station. The USACE contract specialist immediately contacted SIGAR
and the ICCTF. In June 2011, the contractor sent a second e-mail offering to pay
$400,000 through structured bribe payments to secure a $5–$10 million contract
for the design and construction of two new ANP fire station compounds. In addi-
tion to arresting the contractor, the ANP CID confiscated the contractor’s vehicle
and the money he was carrying.

SIGAR Expanding Suspension and Debarment Program
This quarter, SIGAR made 6 referrals to U.S. agencies implementing reconstruc-
tion contracts for suspension and debarment of individuals and contractors,
bringing the total number of referrals since 2009 to 32. These referrals resulted
from completed investigations and contained all the documentary evidence
necessary for an agency to take action. SIGAR also hired a senior counsel for
investigations to direct an aggressive effort to improve contractor accountability
by taking three steps:
 • identifying contractors alleged to have been involved in fraud or to have
   performed questionably on contracts
 • making recommendations for suspension and debarment
 • developing a comprehensive training program for investigators and auditors
   to facilitate the collection of evidence necessary to support suspension and
   debarment actions
   SIGAR views suspension and debarment as an important adjunct to its
investigative and audit responsibilities, especially when non-U.S. nationals
are concerned. Suspension and debarment action send a clear message to the
contractor community that fraud and poor performance will not be tolerated
on Afghanistan reconstruction contracts. Eliminating contractors who have
been engaged in fraud or who have not been able to do good work will help U.S.
agencies ensure that contracting dollars flow to legitimate and viable Afghan
businesses. It will also help the United States achieve strategic reconstruction
goals by reducing the power of monopolies, weakening patronage systems, and
denying financial resources to criminal networks.
   SIGAR’s senior counsel for investigations will be involved in every SIGAR
investigative case from the time it is opened. Throughout each investigation,
SIGAR will consider suspension and debarment as a possible remedy to be used
in conjunction with a potential referral to the Department of Justice for civil and
criminal action.
   As part of the suspension and debarment initiative, SIGAR is developing a pro-
gram to record and track all investigations, including those initiated by partner
agencies, to identify contractors who are alleged to be engaged in fraud or who
have performed questionably on reconstruction projects. SIGAR will refer such
contractors to the appropriate suspension and debarment official at the agency




             REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2011        23
SIGAR OVERSIGHT




that is responsible for the contract. SIGAR plans to integrate information from
other criminal investigative agencies into this program. With significant assis-
tance from the U.S. Army’s Major Procurement Fraud Unit and Task Force 2010,
SIGAR has made progress in developing a more coordinated approach to suspen-
sion and debarment. As a result of this effort, SIGAR referred six individuals to
the Department of the Army for proposed debarment during this quarter. As of
June 30, 2011, SIGAR recommendations have resulted in 3 debarments. In addi-
tion, SIGAR has submitted 32 referrals, including the 6 made during this quarter,
for the debarments of individuals and contractors.

SIGAR Augments Investigative Staff in Afghanistan
This quarter SIGAR added two Foreign Service National Investigator positions to
the Investigative Directorate in Kabul. These investigators were vetted through
the U.S. Embassy Regional Security Office and meet stringent security and
background criteria. They bring the linguistic and cultural expertise needed to
substantially bolster SIGAR’s ability to interact with Afghan government officials
and Afghan citizens. Both of the individuals recruited by SIGAR have several
years of experience working with U.S. law enforcement and military components
in Afghanistan.
    The two investigators will work directly with SIGAR special agents in the
field, conducting interviews, gathering evidence, and reviewing documents.
They will travel between the SIGAR duty locations throughout Afghanistan to
assist SIGAR agents in conducting case work, gathering information and devel-
oping intelligence, and holding fraud awareness programs with the Provincial
Reconstruction Teams.

SIGAR Hotline and Complaints Management System
This quarter, the SIGAR Hotline received 71 complaints. Of these, SIGAR has
referred 6 for further investigation by its own agents, referred 6 to other agen-
cies, is reviewing 14, is evaluating 16, and has closed 29. SIGAR investigators
have 30 days to evaluate complaints and decide whether they merit further
review and referral. The SIGAR Hotline has received 637 complaints since 2009.

SIGAR BUDGET
From 2008, when SIGAR was established, through FY 2011, the Congress has
appropriated $71.6 million to cover the organization’s operating expenses.
SIGAR’s FY 2012 budget request of $44.4 million will enable the organization to
hire the auditors and investigators needed to provide oversight of a U.S. recon-
struction effort that under President Obama’s FY 2012 budget request would
expand by an additional $17.3 billion.




  24               SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                 SIGAR OVERSIGHT




Acting Special Inspector General Herbert Richardson swears in new SIGAR auditors and
investigators in June. This quarter, reconstruction funding increased, and SIGAR continued to
build its capacity to detect waste, fraud, and abuse in the use of those funds. (SIGAR photo)



SIGAR STAFF
SIGAR’s staff consists of 121 federal employees. Because of the significant
increases in reconstruction funding in FY 2011 and FY 2012, SIGAR plans to build
its staff to a total of 180 full-time employees in FY 2012.
    SIGAR’s agreements with the U.S. Embassy Kabul and USFOR-A allow it to
station 33 personnel at the Embassy and 12 at military bases in the field. SIGAR
auditors and investigators are now working at several locations in Afghanistan.
SIGAR also employs two foreign service nationals in its Kabul office. In addition,
SIGAR supports its work with staff assigned to short-term temporary duty in
Afghanistan.




               REPORT TO THE UNITED STATES CONGRESS       I   JULY 30, 2011              25
             Training the Police
             U.S. Army mentors examine a PKM machine gun during
             weapons training for the Afghan National Police at the Joint
             Regional ANP Center in Kandahar on June 6. U.S. Army
             specialists are attached to the regional logistics center to
             oversee the progress of police training. (U.S. Air Force photo,
             SSGT Stephen D. Schester)




26   SPECIAL INSPECTOR GENERAL    I   AFGHANISTAN RECONSTRUCTION
2   AFGHANISTAN
    OVERVIEW




        27
            AFGHANISTAN OVERVIEW




   “We will not police [Afghanistan’s]
     streets or patrol its mountains
indefinitely. That is the responsibility of
the Afghan government… .What we can
  do, and will do, is build a partnership
with the Afghan people that endures—
  one that ensures that we will be able
     to continue targeting terrorists
       and supporting a sovereign
          Afghan government.”
                          —U.S. President Barack Obama




            Source: U.S. President Barack Obama, “Remarks by the President on the Way Forward in Afghanistan,” 6/22/2011.




                28                        SPECIAL INSPECTOR GENERAL                I   AFGHANISTAN RECONSTRUCTION
                          AFGHANISTAN OVERVIEW




AFGHANISTAN OVERVIEW
This quarter, SIGAR noted a number of developments that will affect the recon-
struction program in Afghanistan. Most important, the United States and its
international partners began transitioning responsibility for security to the
Afghan National Security Forces (ANSF). President Barack Obama announced
that the United States would begin withdrawing troops, and the Afghan govern-
ment took the lead on security in seven areas of the country.
   Several other developments also will influence reconstruction:
 • A new U.S. Ambassador and U.S. force commander arrived in Kabul.
 • The House of Representatives passed its version of the fiscal year (FY) 2012
   National Defense Appropriations Act, which would provide nearly $14 billion
   for Department of Defense (DoD) reconstruction programs.
 • The Senate Committee on Foreign Relations issued a report on U.S. foreign
   assistance to Afghanistan.
 • The Congress held several hearings on Afghanistan.
 • The Department of State (DoS) provided the certifications necessary to obli-
   gate DoS in reconstruction funds.

SECURITY TRANSITION BEGINS
On June 22, 2011, President Obama announced that the United States would
remove 10,000 troops from Afghanistan by the end of 2011 and 23,000 more by
summer 2012. These troops account for the military surge that started in 2009.
The President said the United States is able to begin this reduction in forces
because of the progress it has made to defeat al-Qaeda, reverse the momentum
of the Taliban, and train Afghan security forces to defend their own country.
    At the end of July, the United States began this withdrawal with a few hundred
troops from relatively stable areas in and around Kabul. At the same time, the
ANSF assumed primary responsibility for security in seven areas, including the
provinces of Panjshir and Bamyan, and most of the province of Kabul. The ANSF
is taking the lead in providing security for four cities: Herat, Mazar-e Sharif,
Mehtar Lam, and Lashkar Gah. U.S. officials estimate that about 25% of the
Afghan population lives in the seven areas.1
    The President described the drawdown as just the beginning of the transition
process and stressed the importance of maintaining the gains that had been made
through the surge. The President noted that because a political settlement is
necessary to achieve peace in Afghanistan, the United States would support peace



             REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2011       29
                                             AFGHANISTAN OVERVIEW




                                             and reconciliation initiatives that included members of the Taliban who agree to
                                             break with al-Qaeda, abandon violence, and abide by the Afghan constitution.
SIGAR AUDIT                                     The NATO-led International Security Assistance Force (ISAF) and the Afghan
SIGAR is conducting an audit that is         Transition Coordination Commission have established a two-stage planning
examining the ANSF’s vehicle require-        process to guide the transition. During the first stage, officials assess the condi-
ments, CSTC-A’s and the ANSF’s ability
                                             tions on the ground in areas identified for transition; in the second stage, they
to account for vehicles purchased with
U.S. funds, and CSTC-A’s processes for       develop the steps required to complete the transition. The evaluation phase
ensuring that the ANSF can manage the        looks at the capabilities of the ANSF and also at Afghan governing capacity.
vehicles. For details, see Section 1, page   SIGAR has three ongoing audits related to building the ANSF. Two are contract
17.                                          audits of major infrastructure projects, and one is examining the U.S. program
                                             for providing vehicles to the ANSF. As part of the planning process, the Afghan
                                             government has asked the international community to begin phasing out parallel
                                             structures—such as Provincial Reconstruction Teams (PRTs)—to ensure that
                                             Afghan institutions develop the capacity to deliver essential services and manage
                                             development projects.2

                                             NEW CIVILIAN AND MILITARY LEADERSHIP
                                             The new U.S. Ambassador to Afghanistan, Ryan Crocker, and the new Commander
                                             of ISAF and U.S. Forces - Afghanistan (USFOR-A), General John Allen, arrived in
                                             Kabul at the end of July.
                                                During his confirmation hearing, Ambassador Crocker told the Congress that
                                             the civilian-military effort had made progress toward establishing the conditions
                                             for a sustainable transition but that the situation was still fragile and reversible.
                                             He also pointed out that Afghanistan still faces enormous challenges in gover-
                                             nance, rule of law, narcotics, and economic development.3 Ambassador Crocker

                                             KEY EVENTS, OCTOBER 2001–JULY 2011

                                                              FY 2002                                                   FY 2003
                                                              Congress appropriates $1.06 billion for reconstruction.   Congress appropriates $1.01 billion for reconstruction
                                                              Appropriations to ESF and INCLE begin.                    (cumulative total: $2.08 billion).
                                                              Troops in country: U.S.—5,200; coalition—4,700            Troops in country: U.S.—10,400; coalition—5,000



                                             tttttttttttttttttttttttttttt
                                              10/2001: Operation Enduring                                                                                  8/2003:
                                              Freedom begins.                                                                                              First ISAF mission is
                                                                                                                                                           conducted by NATO.
                                                         12/2001: Bonn Agreement establishes
                                                         the Afghan Interim Authority, chaired by
                                                         Hamid Karzai.
                                                         ISAF is established by UN Security Council.

                                                              1/2002: Tokyo Conference is
                                                              held; U.S. pledges $297 million.

                                                                       3/2002: UNAMA is established.

                                                                                           6/2002: Afghan Transitional
                                                                                           Administration headed by Hamid Karzai
                                                                                           is set up by emergency Loya Jirga.
                                             Note: Numbers affected by rounding.




                                                30                         SPECIAL INSPECTOR GENERAL            I   AFGHANISTAN RECONSTRUCTION
                                                AFGHANISTAN OVERVIEW




         noted that one of his primary responsibilities is to ensure that U.S. assistance to                                                     “[C]learly the issues
         Afghanistan is effective and accounted for properly.4
           Under General Allen, ISAF and USFOR-A’s primary reconstruction focus is
                                                                                                                                                 of governance, rule
         on building the ANSF. USFOR-A also uses reconstruction funds to support the                                                        of law and corruption have
         Afghan Local Police (ALP) initiative, Afghan-led efforts to reintegrate insurgents,                                                 to improve if Afghanistan
         and a variety of governance and development projects. President Obama has                                                              is to go forward as a
         asked the Congress to provide nearly $14 billion for these programs in FY 2012.
                                                                                                                                                stable state, charting
         Most of this request—$12.8 billion—would go to strengthen the ANSF.
                                                                                                                                                   its own destiny.”
         FY 2012 NATIONAL DEFENSE AUTHORIZATION ACT (NDAA)                                                                                                              —U.S. Ambassador
         The FY 2012 NDAA, which establishes or renews legal authority for DoD pro-                                                                                      Ryan C. Crocker
         grams, moved through the Congress during this quarter. On May 26, the House
                                                                                                                                               Source: Ryan C. Crocker, response to questions during a
         of Representatives passed its version, and on June 21 the Senate Armed Services                                                       hearing before the Senate Foreign Relations Committee,
         Committee approved and sent forward its version for consideration by the full                                                         6/8/2011.

         Senate.
            Both versions would provide the $12.8 billion the President has requested
         for the Afghanistan Security Forces Fund (ASFF) to train, equip, and house
         the ANSF. In addition, both versions would authorize $400 million for the
         Commander’s Emergency Response Program (CERP) and $150 million for the
         Task Force for Business and Stability Operations in Afghanistan (TFBSO).
         Although the House approved $475 million for the Afghanistan Infrastructure
         Fund (AIF), the Senate Armed Services Committee would reduce funding for the
         AIF to $400 million. The Senate Committee version also requires the President
         to establish a comprehensive set of benchmarks to evaluate progress toward the
         transition of security responsibilities by the end of 2014.




         FY 2004                                                      FY 2005                                                   FY 2006
         Congress appropriates $2.60 billion for reconstruction       Congress appropriates $4.85 billion for reconstruction    Congress appropriates $3.48 billion for reconstruction
         (cumulative total: $4.68 billion). Appropriations to         (cumulative total: $9.53 billion). ASFF established.      (cumulative total: $13.01 billion).
         CERP and DoD CN funds begin.                                 Troops in country: U.S.—19,100; coalition—10,500          Troops in country: U.S.—20,400; coalition—18,000
         Troops in country: U.S.—15,200; coalition—8,000


ttttttttttttttttttttttttttttttttttttttttttt
         1/2004: Loya Jirga                                                               5/2005: Lt. Gen. Karl W. Eikenberry       2/2006: 1st London Conference produces
         approves Constitution.                                                           becomes Commander of Combined             Afghanistan Compact (five-year plan).
                                                                                          Forces Command - Afghanistan.             Work begins on the ANDS.

                                                    10/2004: First national                                 9/2005: First parliamentary and                                        10/2006: NATO assumes
                                                    presidential election is held.                          provincial council elections in                                        security responsibility
                                                    Hamid Karzai is inaugurated for                         more than 30 years are held.                                           for entire nation.
                                                    a five-year term.

                                                                  12/2004: Afghanistan becomes
                                                                  the Islamic Republic of Afghanistan.                                                                          Continued on next page...




                            REPORT TO THE UNITED STATES CONGRESS                      I   JULY 30, 2011                        31
                                                       AFGHANISTAN OVERVIEW




                                                       SENATE REPORT ON U.S. FOREIGN ASSISTANCE
                                                       TO AFGHANISTAN
                                                       In a report published this quarter, the Senate Foreign Relations Committee
                                                       concluded that the United States could spend development aid more effectively
                                                       to meet national security objectives in Afghanistan. The report, “Evaluating U.S.
                                                       Foreign Assistance to Afghanistan,” recommended that U.S. assistance should
                                                       be expended only on projects that are necessary, achievable, and sustainable.5
                                                       It cited a number of SIGAR audits and highlighted concerns that SIGAR shares
                                                       about building Afghan capacity to sustain programs after the 2014 transition.
                                                           Because the Senate Foreign Relations Committee has authority only over
                                                       funds appropriated to civilian agencies—principally the U.S. Agency for
                                                       International Development (USAID) and DoS—the report examined how these
                                                       agencies used development assistance for the reconstruction of Afghanistan.
                                                       The Committee called for more robust oversight of U.S. reconstruction dollars
                                                       by U.S. civilian agencies, offered a number of observations on challenges facing
                                                       the U.S. reconstruction effort, and made recommendations to improve the way
                                                       the United States is spending its development assistance.6
                                                           In the report, the Committee noted that the United States is decreasing its
                                                       reliance on contractors to implement reconstruction programs and increasing
                                                       its provision of direct assistance through the Afghan national budget, in order
                                                       to build governing capacity, reduce redundancy, and encourage sustainability
                                                       of projects. Although the Committee generally welcomed the shift toward more




         KEY EVENTS, OCTOBER 2001–JULY 2011 (Continued)

         FY 2007                                                   FY 2008                                                      FY 2009
         Congress appropriates $10.03 billion for reconstruction   Congress appropriates $6.19 billion for reconstruction       Congress appropriates $10.37 billion for reconstruction
         (cumulative total: $23.04 billion).                       (cumulative total: $29.23 billion).                          (cumulative total: $39.70 billion).
         Troops in country: U.S.—23,700; coalition—26,043          Troops in country: U.S.—30,100; coalition—29,810             Troops in country: U.S.—33,000; coalition—36,230



t tt tttttttttttttttttttttttttttttttttttttt
         1/2007: ISAF troops: 35,460                                   2/2008: ISAF troops: 43,250                              1/2009: ISAF troops: 55,100
         from 37 nations (14,000 U.S.)                                 from 40 nations (15,000 U.S.)                            from 41 nations (23,220 U.S.)

                                                                                 4/2008: President Karzai formally                       3/2009: President Obama
                                                                                 approves the ANDS (five-year plan).                     commits 17,000 more troops.

                                                                                           6/2008: Paris Donors Conference                    4/2009: Karl Eikenberry
                                                                                           is held; donors pledge more than                   becomes U.S. Ambassador.
                                                                                           $20 billion.
                                                                                           Gen. David D. McKieman becomes                               6/2009: Gen. Stanley McChrystal
                                                                                           ISAF Commander.                                              becomes Commander of ISAF and
                                                                                                                                                        USFOR-A.
                                                                                                              10/2008: ISAF Commander,
                                                                                                              Gen. McKieman named
                                                                                                              Commander of newly formed
                                                                                                              USFOR-A.




                                                           32                      SPECIAL INSPECTOR GENERAL                I   AFGHANISTAN RECONSTRUCTION
                                                AFGHANISTAN OVERVIEW




         direct assistance, it cautioned that “stronger measures must be taken to ensure
         greater accountability over our funds.”7
            Recognizing that direct assistance can be effective only if the Afghan govern-
         ment has the capability to account for this money, SIGAR has been conducting
         a series of audits to (1) assess U.S. efforts to build the capacity of the Afghan                                    SIGAR AUDIT
         government to manage and account for development assistance and (2) deter-                                           This quarter, SIGAR issued a report of an
         mine whether Afghan institutions have the systems in place to manage and                                             audit of the Afghanistan Reconstruction
                                                                                                                              Trust Fund (ARTF), the main channel for
         account for this assistance. This quarter, SIGAR issued a report of an audit of the                                  international direct assistance. SIGAR
         Afghanistan Reconstruction Trust Fund (ARTF), the international community’s                                          found that the mechanisms to indepen-
         principal vehicle for providing direct assistance to Afghanistan. SIGAR found                                        dently monitor and account for these
         that although the World Bank—which administers the Fund—and the Afghan                                               funds have some limitations. For details,
         government have established mechanisms to independently monitor and account                                          see Section 1, page 9.
         for ARTF funds, these mechanisms have some limitations. Moreover, although
         the Afghan ministries have increased their ability to manage and account for
         government finances, the Afghan government faces challenges in developing and
         maintaining the civil service expertise needed to manage and account for ARTF
         funds. As a result of these constraints, the Afghan government continues to rely
         on Afghan contractors and international firms to monitor and account for ARTF
         funds. These contractors are paid using a portion of ARTF funds.
            The Senate report offered three broad recommendations for making U.S.
         assistance to Afghanistan more effective:
         • Consider authorizing a multi-year civilian assistance strategy for Afghanistan.
         • Reevaluate the performance of stabilization programs in conflict zones.
         • Focus on sustainability.




          FY 2010                                                   FY 2011
          Congress appropriates $16.59 billion for reconstruction   Congress appropriates $16.47 billion for reconstruction
          (cumulative total: $56.22 billion).                       (cumulative total: $72.67 billion).
          Troops in country: U.S.—87,000; coalition—41,389          Troops in country: U.S.—110,325; coalition—42,457



ttttttttttttttttttttttttttt
          1/2010: 2nd London Conference                                                     6/2011: ISAF troops: 132,381
          produces agreement to begin                                                       from 48 nations (90,000 U.S.)
          transition to Afghan responsibility
                                                                                            President Obama announces
          for security.
                                                                                            reduction of U.S. troops by
                                                                                            10,000 in 2011 and by 33,000
              2/2010: ISAF troops: 85,795
                                                                                            by the end of summer 2012.
              from 43 nations (47,085 U.S.)

                                        7/2010: Kabul Conference produces
                                        agreement on GIRoA Prioritization
                                        and Implementation Plan.
                                        Gen. David Petraeus becomes
                                        Commander of ISAF and USFOR-A.

      12/2009: President Obama commits                         11/2010: Lisbon Summit produces
      30,000 more troops (the “surge”).                        agreement on withdrawal of
                                                               international combat forces by
                                                               2014 and progressive transition of
                                                               security responsibility to the ANSF.



                             REPORT TO THE UNITED STATES CONGRESS                I   JULY 30, 2011                     33
                                            AFGHANISTAN OVERVIEW




                                              The report suggested that the administration and the Congress develop a
                                            multi-year authorization that would include the following:
                                            • a clearly defined assistance strategy
                                            • the tools, instruments, and authorities required for a successful development
                                              approach
                                            • a plan to apply U.S. funding to leverage and partner with Afghan domestic poli-
                                              cies, with private-sector financing, and with multilateral efforts—including the
                                              World Bank, Asian Development Bank, and Islamic Development Bank
                                            • the civilian resources needed for a successful military drawdown and
                                              transition
                                            • the steps needed to ensure accountability, oversight, and effectiveness
                                            • metrics that measure performance and capture outcomes
                                               The Senate report raised questions about the efficacy of U.S.-funded stabiliza-
                                            tion programs in conflict zones and concluded that donors should not implement
                                            projects if Afghans cannot sustain them. “Development in Afghanistan will only
                                            succeed if Afghans are legitimate partners and there is a path toward sustain-
                                            ability,” the report stated. “The Afghan government must have sufficient technical
                                            capability and funding to cover operation and maintenance costs after a project
                                            is completed.”

                                            SECRETARY OF STATE TESTIFIES BEFORE THE CONGRESS
                                            On June 23, Secretary of State Hillary Clinton appeared before the Senate
                                            Foreign Relations Committee. The Secretary discussed the civilian surge
SIGAR AUDIT                                 supporting reconstruction and the diplomatic efforts under way to assist an
Working jointly with the DoS Office of      Afghan-led political process that seeks to “shatter the alliance between the
Inspector General, SIGAR is conducting a    Taliban and al-Qaeda, end the insurgency, and help to produce a more peaceful
follow-on audit of the costs of imple-
                                            and prosperous region.”8 Secretary Clinton said that the number of civilians—
menting the civilian uplift. For details,
see Section 1, page 17.                     diplomats, development experts, and other specialists—in Afghanistan had
                                            tripled since 2009. She credited the surge with having helped to advance U.S.
                                            military and political objectives by improving governance, creating economic
                                            opportunity, and supporting civil society to the point that the transition could
                                            begin. As the transition proceeds, she said that the U.S. civilian effort “will shift
                                            from short-term stabilization projects to longer-term sustainable development
                                            that focuses on spurring growth and integrating Afghanistan into South Central
                                            Asia’s economy.”9 SIGAR and the DoS Office of Inspector General are conducting
                                            a joint audit of the costs and sustainability of the civilian uplift.

                                            SENATE SUBCOMMITTEE HOLDS HEARINGS ON
                                            RECONSTRUCTION CONTRACTS
                                            On June 30, the Contracting Oversight Subcommittee of the Senate Homeland
                                            Security and Governmental Affairs Committee held a hearing on lessons and
                                            problems of Afghanistan reconstruction contracts. The witnesses included
                                            companies awarded contracts by USAID, DoD, and the Army Corps of Engineers,




                                              34                SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                          AFGHANISTAN OVERVIEW




as well as DoD and USAID officials charged with overseeing reconstruction
contracts in Afghanistan. The subcommittee cited specific concerns about the
accuracy and reliability of data that the U.S. Central Command - Joint Theater        SIGAR AUDIT
Support Contracting Command (C-JTSCC) had provided to SIGAR for its 2010              This quarter, SIGAR initiated a follow-on
audit, which identified the contractors and implementing partners associated          audit to its 2010 audit of reconstruc-
                                                                                      tion contracts to determine the cause
with reconstruction work. This quarter, SIGAR initiated an audit to determine the
                                                                                      of discrepancies, the measures taken
cause of the discrepancies, the measures that the C-JTSCC has taken to address        to address the discrepancies, and the
the discrepancies, and the additional steps, if any, that the C-JTSCC needs to take   additional steps, if any, that the C-JTSCC
to ensure the accuracy and reliability of its contract data.                          needs to take to ensure the accuracy
                                                                                      and reliability of its contract data. For
                                                                                      details, see page 15.
DoS PROVIDES CERTIFICATIONS NEEDED TO OBLIGATE
RECONSTRUCTION FUNDS
The FY 2011 budget required the Secretary of State, in consultation with the
Administrator of USAID, to certify and report to the congressional appropria-
tions committees that the U.S. government and the Afghan government have
taken steps to improve governance, deter corruption, and improve the status of
women. On July 7, DoS submitted the required certifications, paving the way for
the obligation of funds from the Economic Support Fund and the International
Narcotics Control and Law Enforcement account. (For detailed information on
the sources and uses of reconstruction funds, see Section 3.)

LOOKING FORWARD
Over the next several months, the Congress will decide how much funding to
provide to build the Afghan security forces, strengthen the GIRoA’s govern-
ing capacity, and lay the foundation for sustainable economic development. To         SIGAR OVERSIGHT
support the transition strategy, the President has asked the Congress to provide      SIGAR auditors are focusing on major
more than $18 billion in reconstruction funding—the largest request for assis-        contracts to identify waste, fraud,
                                                                                      and abuse and to determine whether
tance to Afghanistan in any year since the United States and its allies ousted the
                                                                                      reconstruction programs are achiev-
Taliban in 2001.                                                                      ing their goals. SIGAR investigators are
   SIGAR is implementing audit and investigation plans that will ensure robust        building criminal cases involving contract
oversight of this complex reconstruction effort. It is conducting audits focused      fraud and corruption, and supporting
on major contracts to identify waste, fraud, and abuse and to determine whether       Afghan law enforcement agencies in
reconstruction programs are achieving their goals. SIGAR investigators are            doing the same. SIGAR is also aggres-
                                                                                      sively expanding its suspension and
building criminal cases against U.S. citizens and companies involved in contract      debarment program. SIGAR continues to
fraud and corruption. They are also supporting Afghan law enforcement agencies        work closely with the inspector general
in building cases against Afghan citizens and companies engaged in corruption.        and law enforcement communities to
In addition, SIGAR is aggressively expanding its suspension and debarment             ensure that U.S. taxpayer dollars are
program to prevent more contractors who have engaged in fraud or performed            spent honestly and wisely. For details on
                                                                                      SIGAR’s oversight work this quarter, see
poorly from winning additional reconstruction contracts. SIGAR continues to
                                                                                      Section 1.
work closely with other inspectors general and federal law enforcement agencies
to prevent duplication of effort and ensure that U.S. taxpayer dollars are spent
honestly and wisely.




             REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2011        35
               Helping Afghan Farmers
               Former U.S. Ambassador Karl W. Eikenberry reviews con-
               struction at the Behsood Agricultural Center in Nangarhar
               province on June 23. One of the major goals of U.S. recon-
               struction efforts is to improve agricultural output by helping
               Afghans adopt modern farming methods, equipment, and
               tools. (DoS photo, S. K. Vemmer)




36   SPECIAL INSPECTOR GENERAL    I   AFGHANISTAN RECONSTRUCTION
3   RECONSTRUCTION
    UPDATE




        37
         RECONSTRUCTION UPDATE




  “U.S. assistance should meet
  three basic conditions before
money is spent: our projects should
  be necessary, achievable, and
           sustainable.”
                                      —U.S. Senate Committee
                                        on Foreign Relations




         Source: U.S. Senate Committee on Foreign Relations, Majority Staff Report, “Evaluating U.S. Foreign Assistance to Afghanistan,” June 8, 2011.




             38                          SPECIAL INSPECTOR GENERAL                  I   AFGHANISTAN RECONSTRUCTION
                       RECONSTRUCTION UPDATE




OVERVIEW
Section 3 presents a holistic view of reconstruction efforts in Afghanistan during
this reporting period. Updates on accomplishments, challenges, and local initia-
tives provide context for the oversight that is needed in reconstruction efforts.
Sidebars throughout the section identify SIGAR audits—both completed and
ongoing—related to those efforts; for ongoing audits, cross-references direct the
reader to more information in Section 1.
   Section 3 is divided into four subsections: Status of Funds, Security,
Governance, and Economic and Social Development. The Security, Governance,
and Economic and Social Development subsections mirror the three pillars
reflected in the Prioritization and Implementation Plan announced by the
Government of the Islamic Republic of Afghanistan (GIRoA) in 2010 and origi-
nally set forth in the 2008 Afghanistan National Development Strategy.

TOPICS
Section 3 discusses four broad topics: historical and current information on fund-
ing, security conditions, governance-related activities, and economic and social
development programs. The section also provides information on the progress of
efforts to reduce corruption and combat the narcotics trade in Afghanistan.
   The Status of Funds subsection contains a comprehensive discussion of
the monies appropriated, obligated, and disbursed for Afghanistan reconstruc-
tion. It includes specific information on major U.S. funds and international
contributions.
   The Security subsection details U.S. efforts to bolster the Afghan National
Security Forces and highlights developments affecting the security environment
in the country. This subsection focuses on programming to build the capacity
of the Afghan National Army and Afghan National Police. It reviews the status
of private security contractors. It also discusses the ongoing battle against the
narcotics trade in Afghanistan.
   The Governance subsection provides an overview of the GIRoA’s progress
toward achieving good governance. This subsection focuses on the continued
controversy surrounding the makeup of the Wolesi Jirga and on the status of rec-
onciliation and reintegration. It also reviews the level of GIRoA control in various
eastern and southern provinces. It discusses capacity-building efforts, rule of law




             REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2011         39
RECONSTRUCTION UPDATE




initiatives, and human rights development. This subsection also highlights U.S.
and GIRoA initiatives to combat corruption.
   The Economic and Social Development subsection looks at reconstruction
activities by sector, ranging from agriculture and mining to energy. It provides a
snapshot of the state of the economy and updates on progress in regulating finan-
cial networks, achieving fiscal sustainability, and delivering essential services.

METHODOLOGY
Section 3 was compiled using information and data from open sources and U.S.
agencies. All data and information is attributed to the reporting organization in
endnotes to the text or notes to the tables and figures; because multiple organiza-
tions provide the data, numbers may conflict. Except for references to SIGAR
audits or investigations in the text or in sidebars, SIGAR has not verified this
data, and it does not reflect SIGAR opinions. For a complete discussion of SIGAR
audits and investigations this quarter, see Section 1.

DATA CALL
The data call is a series of questions directed to U.S. agencies about their contri-
butions and involvement in reconstruction programming, and the state of affairs
in Afghanistan. The U.S. agencies that participated in the data call for this quar-
terly report include the following:
 • U.S. Department of State
 • U.S. Department of Defense
 • U.S. Agency for International Development
 • U.S. Department of the Treasury
A preliminary draft of the report was provided to the responding agencies before
publication to allow these agencies to verify and clarify the content of this
section.

OPEN-SOURCE RESEARCH
Open-source research draws on the most current, publicly available data from
reputable sources. A representative list of sources used in this quarterly report
includes the following:
 • U.S. agencies represented in the data call
 • International Security Assistance Force
 • United Nations (and relevant branches)
 • International Monetary Fund
 • World Bank
 • GIRoA ministries and other Afghan government organizations
Most of the open-source research is included in the preliminary draft that is
distributed to agencies participating in the data call for review before this report
is published.




  40                SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                           RECONSTRUCTION
                                   GRAPHICS
                                          UPDATE
                                            KEY




UNDERSTANDING THE GRAPHICS
All figures and tables report data for this quarter, except where identified in titles or notes.



BAR CHARTS                                                                  DISTINGUISHING BILLIONS AND MILLIONS
This report discusses many funds and projects with                          Because this report details funding in both billions
dollar values ranging from millions to billions. To                         and millions of dollars, it uses a visual cue to distin-
provide an accurate graphical representation of these                       guish the two measurement units. Dollars reported in
numbers, some bar graphs appear with a break (a                             billions are represented in blue, and dollars reported
wavy line) to indicate a jump between zero and a                            in millions are depicted in green.
larger number.


     $500                             $200

     $450
                                      $150
     $400
                                      $100
     $350

                                      $50                                          Pie Chart in Billions           Pie Chart in Millions


       $0                               $0

            Bar chart with a                 Bar chart without
             break in scale                  a break in scale


TIMELINES                                                                   FUNDING MARKERS
Timelines show events in general sequence. Intervals                        Funding markers identify individual funds discussed
marked on the line may reflect calendar months or                           in the text. The agency responsible for managing the
intervals of three to four months, depending on the                         fund is listed in the tan box below the fund name.
scale of the time period. Overarching developments
typically appear above the line; specific events typi-
cally appear below the line.


       2009                    2010           2011
                                                                                                           ESF


 ttttttttttttt
                                                                                                           USAID




               REPORT TO THE UNITED STATES CONGRESS          I   JULY 30, 2011                41
TITLE OF THE SECTION




 42    SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                                    STATUS OF FUNDS




STATUS OF FUNDS
To fulfill SIGAR’s legislative mandate, this section details the status of U.S.
funds appropriated, obligated, and disbursed for reconstruction activities in
Afghanistan. On April 15, 2011, President Obama signed the Department of
Defense and Full-Year Continuing Appropriations Act of 2011, appropriating
funds to operate the government for the rest of the fiscal year. As of June 30,
2011, the United States had appropriated approximately $72.67 billion for relief
and reconstruction in Afghanistan since fiscal year (FY) 2002. This total has been
allocated as follows:
• $40.97 billion for security
• $19.12 billion for governance and development
• $5.23 billion for counter-narcotics efforts
• $2.20 billion for humanitarian aid
• $5.15 billion for oversight and operations
Figure 3.1 shows the major U.S. funds that contribute to these efforts.


FIGURE 3.1

U.S. FUNDS SUPPORTING AFGHANISTAN RECONSTRUCTION EFFORTS ($ BILLIONS)


                                        FUNDING SOURCES (TOTAL: $72.67)
                                                                                                                            ASFF: Afghanistan Security Forces Fund

       ASFF                 CERP                 DoD CN               ESF                INCLE               Other
                                                                                                                            CERP: Commander’s Emergency
                                                                                                                            Response Program
     $39.45                 $3.04                 $1.85              $13.02              $3.25              $12.06

                                                                                                                            DoD CN: DoD Drug Interdiction and
                                                          AGENCIES                                                          Counter-Drug Activities
                                                                                     Department of      Distributed to
               Department of Defense (DoD)                           USAID            State (DoS)      Multiple Agenciesa   ESF: Economic Support Fund
                        $44.34                                       $13.02              $3.25              $12.06

                                                                                                                            INCLE: International Narcotics Control
Notes: Numbers affected by rounding.                                                                                        and Law Enforcement
a. Multiple agencies include DoD, DoJ, USAID, Treasury, and USDA.
Sources: DoD, responses to SIGAR data call, 7/15/2011, 7/14/2011, 6/29/2011, 10/14/2009, and 10/1/2009; DoS,
responses to SIGAR data call, 7/13/2011, 7/8/2011, and 4/14/2011; Treasury, response to SIGAR data call, 7/8/2011; OMB,
responses to SIGAR data call, 7/19/2011 and 4/19/2010; USAID, responses to SIGAR data call, 7/13/2011, 10/15/2010,
                                                                                                                            Other: Other Funding
1/15/2010, and 10/9/2009; DoJ, response to SIGAR data call, 7/7/2009; USDA, response to SIGAR data call, 4/2009; P.L.
112-10, 4/15/2011; P.L. 111-212, 10/29/2010; P.L. 111-118, 12/19/2009; FY 2010 Defense Explanatory Statement.




                    REPORT TO THE UNITED STATES CONGRESS                    I   JULY 30, 2011                    43
                                                                     STATUS OF FUNDS




                                                                     U.S. RECONSTRUCTION FUNDING FOR AFGHANISTAN
  ASFF      CERP DoD CN             ESF     INCLE                       As of June 30, 2011, cumulative appropriations for relief and reconstruction
                                                                     in Afghanistan totaled approximately $72.67 billion. This total can be divided
                                                                     into five major categories of reconstruction funding: security, governance and
             DoD                USAID       DoS
                                                                     development, counter-narcotics, humanitarian, and oversight and operations. For
                                                                     complete information regarding U.S. appropriations, see Appendix B.
                                                                        Cumulative appropriations as of FY 2011 increased by more than 29.3% over
The amount provided to the five major
                                                                     cumulative appropriations through FY 2010, as shown in Figure 3.2. Efforts to
U.S. funds represents over 83.4% (over
$60.61 billion) of total reconstruction                              build and train the Afghan National Security Forces (ANSF) have received the
assistance in Afghanistan since FY 2002.                             majority of reconstruction funding since FY 2002. Cumulative appropriations for
Of this amount, almost 78.0% (over                                   security (over $40.97 billion) account for nearly 56.4% of total U.S. reconstruc-
$47.26 billion) has been obligated, and                              tion assistance.
nearly 67.3% (over $40.78 billion) has been                             Figure 3.3 on the facing page displays annual appropriations by funding cat-
disbursed. The following pages provide                               egory from FY 2002 to FY 2011. The bars show the dollar amounts appropriated,
additional details on these funds.                                   and the pie charts show the proportions of the total appropriated by category.



FIGURE 3.2


CUMULATIVE APPROPRIATIONS BY FUNDING CATEGORY, AS OF JUNE 30, 2011 ($ BILLIONS)
   $75                                                                                                                                                                                $72.67
   $70
   $65
   $60
                                                                                                                                                                     $56.19
   $55
   $50
   $45
                                                                                                                                                    $39.61
   $40
   $35
   $30                                                                                                                          $29.23

   $25                                                                                                       $23.04
   $20
   $15                                                                                    $13.01
   $10                                                                  $9.53
                                                     $4.68
    $5                              $2.08
               $1.06
    $0
                2002                2003             2004               2005               2006               2007               2008               2009             2010             2011


                         Security            Governance/Development                Counter-Narcotics             Humanitarian             Oversight and Operations            Total
Notes: Numbers affected by rounding. Updated data resulted in minor differences in appropriation amounts from figures reported last quarter.
Sources: DoD, responses to SIGAR data call, 7/15/2011, 7/14/2011, 6/29/2011, 10/14/2009, and 10/1/2009; DoS, responses to SIGAR data call, 7/13/2011, 7/8/2011, and 4/14/2011; Treasury,
response to SIGAR data call, 7/8/2011; OMB, responses to SIGAR data call, 7/19/2011 and 4/19/2010; USAID, responses to SIGAR data call, 7/13/2011, 10/15/2010, 1/15/2010, and 10/9/2009;
DoJ, response to SIGAR data call, 7/7/2009; USDA, response to SIGAR data call, 4/2009; P.L. 112-10, 4/15/2011; P.L. 111-212, 10/29/2010; P.L. 111-118, 12/19/2009; FY 2010 Defense Explanatory
Statement.




                                                                         44                            SPECIAL INSPECTOR GENERAL                I   AFGHANISTAN RECONSTRUCTION
                                                                    STATUS OF FUNDS




These figures reflect amounts as reported by the respective agencies and
amounts appropriated in legislation.
   Appropriations for FY 2011 amounted to more than $16.47 billion through
June 30, 2011—approximately $112.47 million less than appropriations in FY
2010. While the overall funding level decreased slightly in FY 2011, appropria-
tions for security increased more than 26.7% over FY 2010. All other funding
categories decreased as shown in Figure 3.3. Appropriations for governance and
development decreased by more than 32.0% from $4.50 billion in FY 2010 to
$3.06 billion in FY 2011.




FIGURE 3.3


APPROPRIATIONS BY FISCAL YEAR, AMOUNT, AND PERCENTAGE                                     ($ BILLIONS)



        $17                                                                                                                                                         $16.59      $16.47
        $16
        $15
        $14
        $13
        $12
        $11                                                                                                                                         $10.37
                                                                                                               $10.03
        $10
         $9
         $8
         $7                                                                                                                        $6.19
         $6
                                                                            $4.85
         $5
         $4                                                                                    $3.48
         $3                                              $2.60
         $2
                    $1.06              $1.01
         $1
         $0
                     2002              2003               2004              2005               2006              2007              2008              2009           2010        2011


Percentage




                          Security            Governance/Development                 Counter-Narcotics          Humanitarian             Oversight and Operations       Total

Notes: Numbers affected by rounding. Updated data resulted in minor differences in appropriation amounts from figures reported last quarter.
Sources: DoD, responses to SIGAR data call, 7/15/2011, 7/14/2011, 6/29/2011, 10/14/2009, and 10/1/2009; DoS, responses to SIGAR data call, 7/13/2011, 7/8/2011, and 4/14/2011;
Treasury, response to SIGAR data call, 7/8/2011; OMB, responses to SIGAR data call, 7/19/2011 and 4/19/2010; USAID, responses to SIGAR data call, 7/13/2011, 10/15/2010, 1/15/2010, and
10/9/2009; DoJ, response to SIGAR data call, 7/7/2009; USDA, response to SIGAR data call, 4/2009; P.L. 112-10, 4/15/2011; P.L. 111-212, 10/29/2010; P.L. 111-118, 12/19/2009; FY 2010
Defense Explanatory Statement.




                    REPORT TO THE UNITED STATES CONGRESS                         I   JULY 30, 2011                         45
                                                       STATUS OF FUNDS




                                                       AFGHANISTAN SECURITY FORCES FUND
  ASFF                                                 The Congress created the Afghanistan Security Forces Fund (ASFF) to provide
                                                       the Afghan National Security Forces (ANSF) with equipment, supplies, ser-
                                                       vices, and training, as well as facility and infrastructure repair, renovation, and
            DoD                                        construction.10 The primary organization responsible for building the ANSF is
                                                       the North Atlantic Treaty Organization (NATO) Training Mission - Afghanistan/
                                                       Combined Security Transition Command - Afghanistan.11
ASFF FUNDS TERMINOLOGY
                                                          DoD reported that the Full-Year Continuing Appropriations Act of 2011
DoD reported ASFF funds as available,                  provided nearly $11.62 billion for the ASFF, bringing the total cumulative appro-
obligated, or disbursed.                               priations for this fund to more than $39.45 billion.12 Of this amount, nearly
Available: Total monies available for                  $31.21 billion has been obligated, of which more than $27.58 billion has been
commitments                                            disbursed.13 Figure 3.4 displays the amounts made available for the ASFF by
Obligations: Commitments to pay monies                 fiscal year.
Disbursements: Monies that have been                      DoD reported that cumulative obligations as of June 30, 2011, increased by
expended                                               almost $3.15 billion over cumulative obligations as of March 31, 2011. Cumulative
Source: DoD, response to SIGAR data call, 4/13/2010.
                                                       disbursements as of June 30, 2011, increased by more than $2.76 billion over
                                                       cumulative disbursements as of March 31, 2011.14 Figure 3.5 provides a cumula-
                                                       tive comparison of amounts made available, obligated, and disbursed.

                                                       FIGURE 3.4                                                   FIGURE 3.5


                                                       ASFF AVAILABLE FUNDS BY FISCAL YEAR                          ASFF FUNDS, CUMULATIVE COMPARISON
                                                       ($ BILLIONS)                                                 ($ BILLIONS)



                                                       $12.0                                                        $40.0                                            Available
                                                                                                                                                                     $39.45

                                                       $10.0
                                                                                                                    $35.0
                                                                                                                                           Available
                                                        $8.0                                                                               $33.29
                                                                                                                                                                     Obligated
                                                                                                                    $30.0                                            $31.21
                                                                                                                                           Obligated
                                                        $6.0                                                                                                         Disbursed
                                                                                                                                           $28.06
                                                                                                                                                                     $27.58
                                                                                                                    $25.0                  Disbursed
                                                        $4.0                                                                               $24.82



                                                        $2.0                                                        $20.0



                                                          $0                                                             $0
                                                                2005 06         07     08     09      10     11               As of Mar 31, 2011          As of Jun 30, 2011

                                                       Note: Numbers affected by rounding.                          Note: Numbers affected by rounding.
                                                       Sources: DoD, response to SIGAR data call, 7/14/2011; P.L.   Sources: DoD, response to SIGAR data call, 7/14/2011; P.L.
                                                       112-10, 4/15/2011.                                           112-10, 4/15/2011.




                                                           46                        SPECIAL INSPECTOR GENERAL       I   AFGHANISTAN RECONSTRUCTION
                                                        STATUS OF FUNDS




ASFF Budget Activities
DoD allocates funds to three budget activity groups within the ASFF:15                                               Budget Activity Groups: categories
• Defense Forces (Afghan National Army, ANA)                                                                         within each appropriation or fund
• Interior Forces (Afghan National Police, ANP)                                                                      account that identify the purposes,
• Related Activities (primarily Detainee Operations)                                                                 projects, or types of activities financed
                                                                                                                     by the appropriation or fund
   Funds for each budget activity group are further allocated to four sub-activity
groups: Infrastructure, Equipment and Transportation, Training and Operations,                                       Sub-Activity Groups: accounting
and Sustainment.16                                                                                                   groups that break down the command’s
   As of June 30, 2011, DoD had disbursed over $27.58 billion for ANSF initia-                                       disbursements into functional areas
tives. Of this amount, more than $17.62 billion was disbursed for the ANA and
almost $9.80 billion was disbursed for the ANP; the remaining nearly $0.16 billion
                                                                                                                   Sources: DoD, “Manual 7110.1-M Department
was directed to related activities.17                                                                              of Defense Budget Guidance Manual,” accessed
                                                                                                                   9/28/2009; Depar tment of the Navy, “Medical Facility
   As shown in Figure 3.6, of the funds disbursed for the ANA, the largest por-                                    Manager Handbook,” p. 5, accessed 10/2/2009.
tion—almost $8.33 billion—supported Equipment and Transportation. Of the
funds disbursed for the ANP, the largest portion—more than $3.21 billion—also
supported Equipment and Transportation, as shown in Figure 3.7.18



FIGURE 3.6                                              FIGURE 3.7


ASFF DISBURSEMENTS FOR THE ANA                          ASFF DISBURSEMENTS FOR THE ANP
By Sub-Activity Group,                                  By Sub-Activity Group,
FY 2005–June 30, 2011 ($ BILLIONS)                      FY 2005–June 30, 2011 ($ BILLIONS)


                      Total: $17.62                                           Total: $9.80

                                                                                                  Infrastructure
                                                                                                  $1.55


                                                                      Sustainment
             Equipment and Sustainment
                                                                      $2.93
             Transportation $5.08
             $8.33




      Training and                     Infrastructure         Training and                    Equipment and
      Operations                       $2.56                  Operations                      Transportation
      $1.66                                                   $2.11                           $3.21


Note: Numbers affected by rounding.                     Note: Numbers affected by rounding.
Source: DoD, response to SIGAR data call, 7/14/2011.    Source: DoD, response to SIGAR data call, 7/15/2011.




                     REPORT TO THE UNITED STATES CONGRESS       I   JULY 30, 2011                       47
                                                            STATUS OF FUNDS




                                                            COMMANDER’S EMERGENCY RESPONSE PROGRAM
           CERP                                             The Commander’s Emergency Response Program (CERP) enables U.S.
                                                            commanders in Afghanistan to respond to urgent humanitarian relief and recon-
                                                            struction requirements in their areas of responsibility by supporting programs
            DoD                                             that will immediately assist the local population.19 Funding under this program is
                                                            intended for small projects that are estimated to cost less than $500,000 each.20
                                                            To fund larger projects, the Congress recently established a new fund—the
CERP FUNDS TERMINOLOGY
                                                            Afghanistan Infrastructure Fund.21
OMB reported CERP funds as appropriated.                       As of June 30, 2011, DoD reported that the total cumulative funding for CERP
Appropriations: Total monies available for                  amounted to nearly $3.04 billion.22 DoD reported that of this amount, more than
commitments                                                 $2.08 billion had been obligated, of which nearly $1.74 billion has been dis-
                                                            bursed.23 Figure 3.8 shows CERP appropriations by fiscal year.
DoD reported CERP funds as appropriated,                       DoD reported that cumulative obligations as of June 30, 2011, increased by
obligated, or disbursed.
                                                            more than $58.32 million over cumulative obligations as of March 31, 2011.
Appropriations: Total monies available for
                                                            Cumulative disbursements as of June 30, 2011, increased by nearly $127.77 mil-
commitments
Obligations: Commitments to pay monies
                                                            lion over cumulative disbursements as of March 31, 2011.24 Figure 3.9 provides
Disbursements: Monies that have been                        a cumulative comparison of amounts appropriated, obligated, and disbursed for
expended                                                    CERP projects.

Sources: OMB, response to SIGAR data call, 4/19/2010;
DoD, response to SIGAR data call, 4/14/2010.


                                                            FIGURE 3.8                                                        FIGURE 3.9


                                                            CERP APPROPRIATIONS BY FISCAL YEAR                                CERP FUNDS, CUMULATIVE COMPARISON
                                                            ($ MILLIONS)                                                      ($ BILLIONS)
  Afghanistan Infrastructure Fund (AIF): a
  fund established by the National Defense
                                                            $1,000                                                            $3.0                                             Appropriated
  Authorization Act for FY 2011 to pay for
                                                                                                                                                                               $3.04
  high-priority, large-scale infrastructure proj-                                                                                                 Appropriated
  ects that support the U.S. civilian-military                                                                                $2.5                $2.64
                                                              $800
  effort. The Department of Defense and
  Full-Year Continuing Appropriations Act of                                                                                                      Obligated                    Obligated
                                                                                                                              $2.0
  2011 appropriated $400.00 million for                                                                                                           $2.02                        $2.08
                                                              $600
  the AIF; however, DoD reported that none                                                                                                        Disbursed                     Disbursed
                                                                                                                              $1.5                $1.61                         $1.74
  of those funds had been obligated or dis-
  bursed as of June 30, 2011.                                 $400
                                                                                                                              $1.0

                                                              $200
Sources: U.S. Senate Committee on Armed Services, press                                                                       $0.5
release, “Senate Passes Ike Skelton National Defense
Authorization Act for Fiscal Year 2011,” 12/22/2010; DoD,
response to SIGAR data call, 7/18/2011; P.L. 112-10,
4/15/2011.                                                      $0                                                             $0
                                                                     2004 05      06    07     08    09    10     11                 As of Mar 31, 2011           As of Jun 30, 2011

                                                            Notes: Data may include interagency transfers. Numbers affected   Notes: Data may include interagency transfers. Numbers affected
                                                            by rounding.                                                      by rounding.
                                                            Sources: DoD, response to SIGAR data call, 7/15/2011; OMB,        Sources: DoD, response to SIGAR data call, 7/15/2011; OMB,
                                                            response to SIGAR data call, 7/15/2011; P.L. 112-10,              response to SIGAR data call, 7/15/2011; P.L. 112-10,
                                                            4/15/2011.                                                        4/15/2011.




                                                                48                         SPECIAL INSPECTOR GENERAL             I   AFGHANISTAN RECONSTRUCTION
                                                                     STATUS OF FUNDS




DOD DRUG INTERDICTION AND COUNTER-DRUG ACTIVITIES
DoD’s Drug Interdiction and Counter-Drug Activities fund (DoD CN) supports                                                                             DoD CN
efforts to stabilize Afghanistan by combating the drug trade and related activi-
ties.25 The DoD CN provides support to the counter-narcotics effort by supporting
military operations against drug traffickers; expanding Afghan interdiction opera-                                                              DoD
tions; and building the capacity of Afghan law enforcement—including Afghan
Border Police—with specialized training, equipment, and facilities.26                                                               DoD CN FUNDS TERMINOLOGY
   Figure 3.10 shows DoD CN appropriations by fiscal year. DoD reported
that cumulative appropriations, obligations, and disbursements as of June 30,                                                       DoD reported DoD CN funds as appropriated,
2011, increased by more than $301.13 million over cumulative appropriations,                                                        obligated, or disbursed.
obligations, and disbursements as of March 31, 2011.27 Figure 3.11 provides a                                                       Appropriations: Total monies available for
cumulative comparison of amounts appropriated, obligated, and disbursed for                                                         commitments
                                                                                                                                    Obligations: Commitments to pay monies
DoD CN projects.
                                                                                                                                    Disbursements: Monies that have been
                                                                                                                                    expended

                                                                                                                                    Source: DoD, response to SIGAR data call, 4/13/2010.




FIGURE 3.10                                                         FIGURE 3.11

DOD CN APPROPRIATIONS BY                                            DOD CN FUNDS,
FISCAL YEAR ($ MILLIONS)                                            CUMULATIVE COMPARISON ($ BILLIONS)

$400                                                                $1.90

                                                                    $1.85                                            Appropriated
$350                                                                                                                 $1.85
                                                                    $1.80                                            Obligated
$300                                                                                                                 $1.85
                                                                    $1.75                                            Disbursed
                                                                                                                     $1.85
$250                                                                $1.70

$200                                                                $1.65

                                                                    $1.60
$150
                                                                    $1.55                Appropriated
$100                                                                                     $1.55
                                                                    $1.50                Obligated
 $50                                                                                     $1.55
                                                                                         Disbursed
                                                                                         $1.55
   $0                                                                 $0
        2004 05 06 07 08 09 10 11                                           As of Mar 31, 2011          As of Jun 15, 2011

Notes: Numbers affected by rounding. Data may include               Notes: Numbers affected by rounding. Complete quarterly data
interagency transfers. Updated data resulted in minor differences   was not available.
in appropriation amounts from figures reported last quarter.
                                                                    Sources: DoD, response to SIGAR data call, 6/29/2011; OMB
Sources: DoD, response to SIGAR data call, 6/29/2011; OMB           response to SIGAR data call, 3/15/2011.
response to SIGAR data call, 3/15/2011.




                     REPORT TO THE UNITED STATES CONGRESS                       I   JULY 30, 2011                         49
                                                        STATUS OF FUNDS




                                                        ECONOMIC SUPPORT FUND
                               ESF                      Economic Support Fund programs advance U.S. interests by helping countries
                                                        meet short- and long-term political, economic, and security needs. ESF programs
                                                        support counter-terrorism; bolster national economies; and assist in the develop-
                              USAID                     ment of effective, accessible, independent legal systems for a more transparent
                                                        and accountable government.28 P.L. 112-10 placed limitations on FY 2011 ESF
ESF FUNDS TERMINOLOGY                                   funds made available for assistance to Afghanistan by restricting obligations until
                                                        DoS and USAID certify and report to the Committees on Appropriations that the
USAID reported ESF funds as appropriated,               Afghan government is “demonstrating a commitment to reduce corruption and
obligated, or disbursed.                                improve governance.”29 On July 7, 2011, DoS transmitted the signed certifications
Appropriations: Total monies available                  to Congress, enabling ESF funds to be obligated for use in Afghanistan.30
for commitments                                            As of June 30, 2011, USAID reported that the total cumulative funding for ESF
Obligations: Commitments to pay monies                  amounted to nearly $13.02 billion.31 Of this amount, almost $9.57 billion had been
Disbursements: Monies that have been                    obligated, of which nearly $7.77 billion had been disbursed.32 Figure 3.12 shows
expended
                                                        ESF appropriations by fiscal year.
Sources: OMB, response to SIGAR data call, 4/19/2010;      USAID reported that cumulative obligations as of June, 30, 2011, decreased
USAID, response to SIGAR data call, 4/15/2010.
                                                        by more than $4.47 million over cumulative obligations as of March 31, 2011.
                                                        Cumulative disbursements as of June 30, 2011, increased by nearly $390.02 mil-
                                                        lion over cumulative disbursements as of March 31, 2011.33 Figure 3.13 provides a
                                                        cumulative comparison of the amounts appropriated, obligated, and disbursed.

                                                        FIGURE 3.12                                                FIGURE 3.13

                                                        ESF APPROPRIATIONS BY FISCAL YEAR                          ESF FUNDS, CUMULATIVE COMPARISON
                                                        ($ BILLIONS)                                               ($ BILLIONS)



                                                        $3.5                                                       $13.0                                               Appropriated
                                                                                                                                                                       $13.02

                                                        $3.0                                                       $12.0


                                                                                                                   $11.0                 Appropriated
                                                        $2.5                                                                             $11.14
                                                                                                                   $10.0
                                                        $2.0
                                                                                                                                         Obligated                     Obligated
                                                                                                                    $9.0                 $9.57                         $9.57
                                                        $1.5

                                                                                                                    $8.0                                               Disbursed
                                                        $1.0
                                                                                                                                         Disbursed                     $7.77
                                                                                                                    $7.0                 $7.38
                                                        $0.5


                                                          $0                                                          $0
                                                               2002 03 04 05 06 07 08 09 10 11                              As of Mar 31, 2011             As of Jun 30, 2011

                                                        Notes: Data may include interagency transfers. Numbers      Notes: Data may include interagency transfers. Numbers affected
                                                        affected by rounding. Updated figures reported by USAID     by rounding.
                                                        resulted in a slight decrease in FY 2004, 2005, and 2009    Sources: USAID, response to SIGAR data call, 7/13/2011; OMB,
                                                        appropriations.                                             response to SIGAR data call, 7/15/2011.
                                                        Sources: USAID, response to SIGAR data call, 7/13/2011;
                                                        OMB, response to SIGAR data call, 7/15/2011.




                                                            50                        SPECIAL INSPECTOR GENERAL              I    AFGHANISTAN RECONSTRUCTION
                                                                STATUS OF FUNDS




INTERNATIONAL NARCOTICS CONTROL AND LAW ENFORCEMENT
The U.S. Bureau of International Narcotics and Law Enforcement Affairs (INL)                                                                                             INCLE
manages an account for advancing rule of law and combating narcotics produc-
tion and trafficking—the International Narcotics Control and Law Enforcement
(INCLE) account. INCLE supports several INL program groups, including police,                                                                                             DoS

counter-narcotics, and rule of law and justice.34 P.L. 112-10 placed limitations on
FY 2011 INCLE funds made available for assistance to Afghanistan by restrict-                                                    INL FUNDS TERMINOLOGY
ing obligations until DoS and USAID certify and report to the Committees on
Appropriations that the GIRoA is “demonstrating a commitment to reduce cor-                                                      INL reported INCLE and other INL funds
ruption and improve governance.”35 On July 7, 2011, DoS transmitted the signed                                                   as allotted, obligated, or liquidated.
certifications to Congress, enabling INCLE funds to be obligated.36                                                              Allotments: Total monies available
   INL reported that $400.00 million was appropriated for INCLE initiatives in                                                   for commitments
FY 2011, bringing the total cumulative funding for INCLE to over $3.25 billion.37                                                Obligations: Commitments to pay monies
Figure 3.14 displays INCLE allotments by fiscal year. Of this amount, almost                                                     Liquidations: Monies that have been expended
$2.56 billion had been obligated, of which nearly $1.85 billion has been liquidated.38                                           Source: DoS, response to SIGAR data call, 4/9/2010.
   INL reported that cumulative obligations as of June 30, 2011, increased
by almost $12.63 million over cumulative obligations as of March 31, 2011.
Cumulative liquidations as of June 30, 2011, increased by more than $56.94 mil-
lion over cumulative liquidations as of March 31, 2011.39 Figure 3.15 provides a
cumulative comparison of amounts allotted, obligated, and liquidated for INCLE.

FIGURE 3.14                                                  FIGURE 3.15

INCLE ALLOTMENTS BY FISCAL YEAR                              INCLE FUNDS, CUMULATIVE COMPARISON
($ MILLIONS)                                                 ($ BILLIONS)



$700                                                         $3.5
                                                                                                                    Allotted
$600                                                                                                                $3.25
                                                             $3.0
                                                                                      Allotted
$500                                                                                  $2.86
                                                                                      Obligated                     Obligated
                                                             $2.5                     $2.55                         $2.56
$400


$300                                                         $2.0
                                                                                      Liquidated                    Liquidated
                                                                                      $1.79                         $1.85
$200
                                                             $1.5
$100


  $0                                                           $0
       2002 03 04 05 06 07 08 09 10 11                                  As of Mar 31, 2011           As of Jun 30, 2011

Notes: Numbers affected by rounding. Data may include        Notes: Numbers affected by rounding. Data may include interagency
interagency transfers.                                       transfers.
Sources: DoS, response to SIGAR data call, 7/13/2011; OMB,   Sources: DoS, response to SIGAR data call, 7/13/2011; OMB,
response to SIGAR data call, 7/15/2011.                      response to SIGAR data call, 7/15/2011.




                    REPORT TO THE UNITED STATES CONGRESS                    I   JULY 30, 2011                          51
                                                       STATUS OF FUNDS




                                                       INTERNATIONAL RECONSTRUCTION FUNDING FOR
                                                       AFGHANISTAN
                                                       In addition to assistance provided by the United States, the international com-
                                                       munity provides a significant amount of funding to support Afghanistan relief
                                                       and reconstruction efforts. As noted in previous SIGAR quarterly reports, most
                                                       of the international funding provided is administered through trust funds.
                                                       Contributions that are provided through trust funds are pooled and then distrib-
                                                       uted for reconstruction activities. The two main trust funds are the Afghanistan
                                                       Reconstruction Trust Fund (ARTF) and the Law and Order Trust Fund for
                                                       Afghanistan (LOTFA).40

                                                       Contributions to the Afghanistan Reconstruction Trust Fund
SIGAR AUDIT                                               The ARTF is the largest contributor to the Afghan operational and develop-
In its July 2011 audit of the ARTF, SIGAR              ment budgets. As of June 21, 2011, the World Bank reported that since 2002,
found that the mechanisms the World                    32 donors had pledged nearly $5.05 billion, of which almost $4.30 billion had
Bank and the GIRoA have established                    been paid in.41 The United States and the United Kingdom are the two biggest
to oversee donor funds have some                       donors to the ARTF, together contributing nearly 43% of total ARTF funding
limitations. In addition, the Afghan gov-              as shown in Figure 3.16. According to the World Bank, donors have pledged
ernment faces challenges in developing                 $807.38 million to the ARTF for solar year (SY) 1390—the Afghan fiscal year,
and maintaining the civil service exper-               which runs from March 21 to March 20.42 Figure 3.17 on the facing page shows
tise it needs to account for and manage                the 10 largest ARTF donors for SY 1390.
these funds. For more information on                      Contributions are divided into two funding channels—the Recurrent Cost
this audit, see Section 1, p. 9.                       (RC) Window and the Investment Window.43 According to the World Bank, as
                                                       of June 21, 2011, more than $2.29 billion of ARTF funds were disbursed to the
                                                       GIRoA through the RC Window to assist with recurrent costs such as salaries
                                                       of civil servants.44 The RC Window supports the operating costs of the GIRoA
FIGURE 3.16                                            because domestic revenues continue to be insufficient to support its recurring
ARTF CONTRIBUTIONS PAID IN BY DONORS                   costs. To ensure that the RC Window receives sufficient funding, donors to the
SINCE SY 1381, AS OF JUNE 21, 2011 (PERCENT)           ARTF may not “preference” (earmark) more than half of their annual contribu-
                                                       tions for desired projects.45
                Total Paid In: $4.3 billion               According to the World Bank, as of June 21, 2011, nearly $1.76 billion had been
                                                       committed for projects funded through the Investment Window, of which over
                                                       $1.35 billion had been disbursed.46 The Investment Window supports the costs of
                     United States
                     23%                               development programs. Nineteen projects were underway; they had a combined
                                  United
                                  Kingdom
                                                       commitment value of $793.15 million, of which approximately $391.51 million
               Others             20%                  had been disbursed.47
               29%
                                 Canada
                                 12%
                                                       Contributions to the Law and Order Trust Fund for Afghanistan
                                                       The UN Development Programme (UNDP) administers the Law and Order
      Netherlands                     EC/EU
      8%                              8%
                                                       Trust Fund for Afghanistan (LOTFA) —a mechanism for coordinating contribu-
                                                       tions from international donors—to pay ANP salaries.48 Since 2002, donors had
Notes: Numbers affected by rounding. SY 1381 =
3/21/2002–3/20/2003. “Other” includes 26 donors.
                                                       pledged nearly $1.97 billion to the LOTFA, of which over $1.47 billion had been
Source: World Bank, “ARTF: Administrator’s Report on   paid in, as of March 31, 2011.49
Financial Status as of June 21, 2011,” p. 4.




                                                         52               SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                                    STATUS OF FUNDS




FIGURE 3.17

ARTF CONTRIBUTIONS FOR SY 1390 BY DONOR, AS OF JUNE 21, 2011 ($ MILLIONS)

                                            Total Commitments: $807            Total Paid In: $57


   United States        0                                                                              400
         Germany        0                  86
 United Kingdom         0                  81
           EC/EU        0             60
          Norway        0            52
     Netherlands        0       36
          Sweden        0      31
          Canada        24 24
            Japan       20 20
          Finland           10/10
           Others       3/7

                    0                       100                      200                       300   400


                                                          Paid In          Commitments
Note: Numbers affected by rounding.
Source: World Bank, “ARTF: Administrator’s Report on Financial Status as of June 21, 2011,” p. 1.




   The LOTFA’s sixth support phase started on January 1, 2011, and will run
through March 31, 2013. In Phase VI the LOTFA has transferred approximately
$117.6 million to the GIRoA to cover ANP salaries for the first calendar quarter                             SIGAR AUDIT
of 2011. As of March 31, 2011, donors had committed nearly $572.67 million to                                In an April 2011 audit, SIGAR found
the LOTFA for Phase VI. Of that amount, the United States had committed nearly                               that it is difficult to accurately deter-
$256.72 million and Japan had committed approximately $240.00 million. The                                   mine ANP payroll costs because the
two countries’ commitments accounted for nearly 87% of those LOTFA Phase VI                                  systems and databases that the ANP
commitments.50 As of March 31, 2011, the United States had contributed more                                  uses are decentralized, incomplete, and
than $585.10 million to the LOTFA since the fund’s inception and committed an                                unverified. The payroll costs of ANP per-
additional $218.00 million through Phase VI.51                                                               sonnel are funded primarily through the
                                                                                                             LOTFA. For details, see www.sigar.mil.




                    REPORT TO THE UNITED STATES CONGRESS                       I   JULY 30, 2011     53
TITLE OF THE SECTION




 54    SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                                   SECURITY




SECURITY
As of June 30, 2011, the U.S. Congress had appropriated nearly $41.0 billion to sup-
port the Afghan National Security Forces (ANSF), as shown in Appendix B. Most
of these funds (nearly $39.5 billion) were appropriated through the Afghanistan
Security Forces Fund (ASFF) and provided through the Combined Security
Transition Command - Afghanistan (CSTC-A) to build, equip, train, and sustain
the ANSF (which consists of the Afghan National Army and the Afghan National
Police). Of the $39.5 billion appropriated for the ASFF, approximately $31.2 bil-
lion had been obligated and $27.6 billion disbursed as of June 30, 2011.52
   The number of security incidents this quarter was 51% higher than in the
same period in 2010, according to the United Nations (UN) Secretary-General.
Most of these incidents involved armed clashes and improvised explosive
devices. The UN Secretary-General also noted that approximately 25% of all
attacks and more than 50% of all assassinations occurred in and around the city
of Kandahar this quarter.53

ANSF ASSESSMENT
This quarter, the Afghan National Army (ANA) showed improvement in its
operational readiness, according to U.S. Central Command (CENTCOM). As of
June 9, 2011, the International Security Assistance Force (ISAF) rated three ANA
units as capable of operating independently. Once validated by the ISAF Joint
Command (IJC), this would bring to four the number of ANA units rated “inde-
pendent”—the highest possible rating.54 For most Afghan National Police (ANP)
units, ratings have remained mostly consistent with past Commander’s Unit
Assessment Tool (CUAT) reports; however, some units received a higher rating
this quarter. In the three main ANP components—the Afghan Uniform Police, the
Afghan Border Police, and the Afghan National Civil Order Police—no units have
received the “independent” rating.55
   ISAF has used the CUAT to rate the ANSF since April 2010, when it phased
out the original assessment tool, the Capability Milestone (CM) rating system.
(The CM rating system is still used to assess ministerial readiness.) According to
CENTCOM, the CUAT provides five ratings for assessing the readiness of ANA
and ANP units:56
• Independent: The unit is able to plan and execute its missions, maintain
   command and control of subordinates, call on and coordinate quick reaction
   forces and medical evacuations, exploit intelligence, and operate within a
   wider intelligence system.


             REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2011         55
SECURITY




• Effective with Advisors: The unit conducts effective planning, synchroniz-
  ing, directing, and reporting of operations and status. Coalition forces provide
  only limited, occasional guidance to unit personnel and may provide enablers
  as needed. Coalition forces augment that support only on occasion.
• Effective with Assistance: The unit requires routine mentoring for plan-
  ning, synchronizing, directing, and reporting of operations and status;
  coordinating and communicating with other units; and maintaining effective
  readiness reports. The unit’s enablers provide support to the unit; however,
  coalition forces may provide enablers to augment that support.
• Developing: The unit requires partnering and assistance for planning,
  synchronizing, directing, and reporting of operations and status; coordinat-
  ing and communicating with other units; and maintaining effective readiness
  reports. Some enablers are present and effective, providing some of the sup-
  port. Coalition forces provide enablers and most of the support.
• Established: The unit is beginning to organize but is barely capable of
  planning, synchronizing, directing, or reporting operations and status, even
  with the presence and assistance of a partner unit. The unit is barely able to
  coordinate and communicate with other units. Most of the unit’s enablers are
  not present or are barely effective. Those enablers provide little or no support
  to the unit. Coalition forces provide most of the support.
    As of June 30, 2011, more than 1,500 trainers from 33 nations were training the
ANSF. The U.S. Department of Defense (DoD) noted that this number leaves a short-
fall of 490 trainers—an improvement over the shortfall of 770 reported last quarter.57

MINISTRY OF DEFENSE AND MINISTRY OF INTERIOR
ASSESSMENTS
The North Atlantic Treaty Organization (NATO) Training Mission - Afghanistan
(NTM-A) rates the operational capability of the Ministry of Defense (MoD) and
the Ministry of Interior (MoI) using the CM rating system. This system assesses
staff sections (such as the offices headed by Assistant or Deputy Ministers) and
cross-functional areas (such as General Staff offices) within the MoD and MoI
using four primary and two secondary ratings:58
• CM-1A: capable of autonomous operations
• CM-1B: capable of executing functions with coalition oversight only
• CM-2A: capable of executing functions with minimal coalition assistance
• CM-2B: can accomplish its mission but requires some coalition assistance
• CM-3: cannot accomplish its mission without significant coalition assistance
• CM-4: exists but cannot accomplish its mission
   As of March 31, 2011, more than a fifth (8 of 37) of MoD staff sections and
cross-functional areas had reached a rating of CM-2A, including MoD Finance,
MoD Public Affairs, and the ANA Recruiting Command. Two staff sections
progressed, 35 staff sections and cross-functional areas were stable, and no staff
sections regressed.59




  56                SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                                                                SECURITY




   This quarter, of 27 MoI staff sections, 1 had achieved a CM-1B rating (MoI
Public Affairs), and 2 had achieved a CM-2A rating (MoD Policy Development
and MoD Security Operations and Planning). NTM-A expected the two sections
rated CM-2A to be upgraded to CM-1B next quarter. Most MoI staff sections
were rated CM-3 (12 sections) or CM-2B (8 sections); 4 were rated CM-4—the
lowest rating. Those four included the sections that manage the Afghan Public
Protection Force and the Afghan Local Police.60

SECURITY GOALS
This quarter, the force strength of the ANSF was 298,659 (168,037 in the ANA and
130,622 in the ANP). On June 27, 2011, the Standing Security Committee of the
Joint Coordination and Monitoring Board (JCMB) approved an increase of the
ANSF’s target strength to 352,000.61 Table 3.1 shows changes in strength against
overall goals since last quarter.

SECURITY HIGHLIGHTS
More civilians were killed in May 2011 than in any other month since the United
Nations Assistance Mission in Afghanistan (UNAMA) began documenting civil-
ian casualties in 2007. UNAMA identified 368 civilians killed and 593 injured as
a result of the conflict. Improvised explosive devices (IEDs) caused most of the
casualties (41%); crossfire caused 6%. Insurgents were responsible for 82% of the
deaths, and pro-government forces were responsible for 12%.62
   In his June 2011 quarterly report, the UN Secretary-General stated that 17 sui-
cide attacks occurred in April 2011, a higher number than reported in any month
of 2010. In addition, the Secretary-General noted that abductions and assassina-
tions of Afghan civilians increased this quarter.63




TABLE 3.1


STRATEGIC PRIORITIES FOR SECURITY
                                                                                                              Change Since Last
Priority                          Current Target                              Status                                    Quarter
                                  134,000 troops by 10/2010
                                                                              168,037 troops
Afghan National Army              171,600 troops by 10/2011                                                             +8,674
                                                                              (as of 5/2011)
                                  198,000 troops by 12/2012a
                                  109,000 personnel by 10/2010
                                                                              130,622 personnel
Afghan National Police            134,000 personnel by 10/2011                                                          +5,033
                                                                              (as of 6/2011)
                                  154,000 personnel by 12/2012a

Note: Numbers affected by rounding.
a. Approved by the Standing Security Committee of the Joint Coordination and Monitoring Board on 6/27/2011.
Sources: DoD, responses to SIGAR data call, 7/19/2011 and 7/7/2011; ISAF-IJC, ANP PERSTAT, 6/2011.




                   REPORT TO THE UNITED STATES CONGRESS                       I   JULY 30, 2011                        57
                                              SECURITY




                                              Afghan army forces take the lead for responsibility for security in Lashkar Gah in Helmand
                                              province on July 20. This quarter, the first provinces and districts began the process of transi-
                                              tioning to ANSF-led control. (ISAF photo, PO Hamish Burke)



                                              Transition Progress
                                              The first provinces and districts were scheduled to begin transitioning to ANSF-
                                              led security on July 20, 2011, according to DoD.64 DoD noted that the transition
                                              will include the provinces of Bamyan, Balkh, Panjshir, and Kabul (except the
                                              district of Sarobi); the cities of Mazar-e Sharif and Herat, and the districts of
                                              Lashkar Gah in Helmand and Mehtar Lam in Laghman. Approximately 20–25% of
                                              the population lives in these areas, according to DoD.65
                                                 The Joint Afghan-NATO Inteqal (“Transition”) Board oversees the transition
SIGAR AUDIT                                   process. The Board reports to President Karzai and is co-chaired by the Afghan
On June 22, 2011, SIGAR released a            National Security Advisor, the NATO senior civilian representative, and the ISAF
special report to Congress, “Analysis of      Commander. According to DoD, the transition of responsibility for security
Recommendations Concerning Con-               requires the achievement of three conditions:66
tracting in Afghanistan, as Mandated           • The ANSF is capable of shouldering security tasks.
by Section 1219 of the Fiscal Year             • The level of security allows Afghans to pursue their daily activities.
2011 NDAA.” In it, SIGAR examined the          • Local governance is able to ensure that security is not undermined as the
bridging strategy for transferring PSC           ISAF presence is reduced.
responsibilities to the APPF, noting that
                                                DoD noted that metrics for assessing these conditions vary by province. To
non-diplomatic PSCs will be eliminated
                                              ensure that security is maintained, ANSF and ISAF personnel are expected to
and the APPF will assume all responsi-
                                              monitor areas that have transitioned.67
bility for contracted security services for
DoD and the implementing partners of
DoS and USAID. For details, see Section
                                              Private Security Contractors and the Afghan Public
1, page 13.                                   Protection Force
                                              According to CENTCOM, 90,339 contractors, including 18,971 private security
                                              contractor (PSC) personnel, were working for DoD in Afghanistan as of



                                                 58                  SPECIAL INSPECTOR GENERAL       I   AFGHANISTAN RECONSTRUCTION
                                                                                                        SECURITY




TABLE 3.2


CONTRACTOR PERSONNEL WORKING FOR DoD IN AFGHANISTAN
                                As of 5/2010                           As of 4/6/2011                       11-Month Difference
                                PSC                Total                  PSC                  Total              PSC             Total
                         Contractors         Contractors           Contractors           Contractors       Contractors      Contractors
U.S. citizens                      140             16,081                   250              20,413             +110            +4,332
Third-country                                                                                                   +248            +6,025
                                   980             17,512                   732              23,537
nationals
Afghan nationals                15,613             78,499                17,989              46,389            +2,376           -32,110
Total                         16,733            112,092                18,971              90,339            +2,238           -21,753

Sources: CENTCOM, “Contractor Support of U.S. Operations in the USCENTCOM Area of Responsibility, Iraq, and Afghanistan,”
4/6/2011, accessed 7/10/2011; CENTCOM, “Contractor Support of U.S. Operations in the USCENTCOM Area of Responsibility,
Iraq, and Afghanistan,” 5/2010, accessed 7/10/2011.


FIGURE 3.18

AFGHAN BRIDGING STRATEGY FOR PSCs

     8/17/2010                                 3/15/2011                          9/1/2011                         3/1/2012
     Karzai issues Decree 62                   Bridging strategy signed           First bridging                   Third bridging
                                                                                  strategy review                  strategy reviewa
                                2011                                                                    2012                                             2013
tttttttttttttttttttttttttttttttttttt
                  10/27/2010                         3/22/2011                                      12/1/2011            3/20/2012                         3/20/2013
                  Karzai establishes                 Bridging strategy takes effect;                Second bridging      APPF to assume responsibility     APPF to assume responsibility
                  committee to develop               PSCs allowed to continue to                    strategy review      for all ISAF convoys and          for ISAF/ANSF construction
                  plan for disbanding PSCs           provide security services                                           development activities            sites and ISAF bases
                                                                                                                                                           or other terrorist groups

a. After March 2012, bridging strategy reviews will continue at three-month intervals.
Source: SIGAR, Audit 11-1SP, “Analysis of Recommendations Concerning Contracting in Afghanistan, as Mandated by Section 1219 of
the Fiscal Year 2011 NDAA,” 6/22/2011, p. 14.



April 6, 2011. This number includes 2,238 more PSC personnel than at the end of
the second quarter of FY 2010.68 The number of contractor personnel was higher
than during the same period last year across all categories except Afghan con-
tractors, which fell by 32,110, as shown in Table 3.2.
    In March 2011, the Afghan government released its bridging strategy for tran-
sitioning the lead on security from PSCs to the Afghan Public Protection Force
(APPF), as noted in SIGAR’s April 2011 quarterly report. According to the strategy,
PSCs that the MoI has licensed to operate may continue to perform security ser-
vices for diplomatic and ISAF missions and projects; however, PSCs that perform
security services for development and humanitarian projects must be replaced by
the APPF by March 20, 2012, as shown in Figure 3.18. PSCs that provide services
in Afghanistan are limited by the MoI to 500 personnel or, in special cases, to no
more than 1,000. PSCs that fail to meet these and other requirements could face
fines, seizures of equipment, and other penalties.69 DoD noted that President
Karzai has agreed to allow some PSCs to exceed personnel limits if they are will-
ing to recruit, train, and equip guards for later use by the APPF.70



                      REPORT TO THE UNITED STATES CONGRESS                           I     JULY 30, 2011                       59
                                                                    SECURITY




                                                                       In its April 2011 progress report, DoD stated that NTM-A and USAID support
                                                                    the bridging strategy by assisting the APPF with building the capacity needed to
                                                                    meet the security needs of ISAF and the international community. In addition,
                                                                    U.S. Forces - Afghanistan (USFOR-A) was developing an international agreement
                                                                    to serve as the mechanism to procure APPF services. According to DoD, the
                                                                    APPF was building a recruit training center with a projected training capacity of
                                                                    1,000 guards per month.71

                                                                    AFGHAN NATIONAL ARMY
                                                                    As of June 30, 2011, the United States had appropriated approximately
                                                                    $22.7 billion, obligated $19.7 billion, and disbursed $17.6 billion of ASFF
                                                                    funds to build and sustain the ANA.72 The United States has been the leading
                                                                    contributor of funds for development of the ANA since the effort began in 2002.
                                                                    According to an audit by the Government Accountability Office (GAO), U.S.
                                                                    funds are used for these key elements of the development effort:73
                                                                    • equipment and transportation, including procurement of weapons, vehicles,
                                                                       and communications gear
                                                                    • infrastructure projects, such as construction of garrisons, depots, and train-
                                                                       ing facilities

FIGURE 3.19


ANA PERSONNEL STRENGTH, SELECTED COMPONENTS,                                                                                    ANA PERSONNEL PRESENCE, SELECTED
ON JUNE 20, 2011                                                                                                                COMPONENTS, ON JUNE 20, 2011 (PERCENT)



   205th Corps                                      13,970                                           4,359         18,329        205th Corps                     76               10 14

   203rd Corps                                 12,174                                       4,706             16,880             203rd Corps                     72              14 14

   201st Corps                             10,714                                 3,296       14,010                             201st Corps                     76               12 12

   215th Corps                            9,695                                4,121         13,816                              215th Corps                 70                  10 20

   209th Corps                         8,559                         2,757       11,316                                          209th Corps                     76               10 14

   207th Corps                    7,028                     2,672       9,700                                                    207th Corps                     72              13 15

 111th Capital                                                                                                                  111th Capital
                               5,688               1,912 7,600                                                                                                   75               9 16
      Division                                                                                                                       Division

   SOF Division           4,168                3,216       7,384                                                                 SOF Division               56               8    36

                  0                       5,000                      10,000                   15,000                   20,000                   0      20         40     60       80      100


                       Present for Duty           Assigned but Not Present for Duty                                                                 PDY               AWOL        Other

Notes: SOF = Special Operations Force. PDY = present for duty. Assigned but not PDY = on medical, training,                     Notes: Numbers affected by rounding. PDY = present for
or authorized leave, as well as absent without leave.                                                                           duty. AWOL = absent without leave. Other = on medical,
                                                                                                                                training, or authorized leave.
Source: ISAF-IJC, ANA PERSTAT, 6/20/2011.
                                                                                                                                Source: ISAF-IJC, ANA PERSTAT, 6/20/2011.




                                                                        60                        SPECIAL INSPECTOR GENERAL       I   AFGHANISTAN RECONSTRUCTION
                                                                                                    SECURITY




• training and operations, such as the establishment of training institutions and
  hiring of contractors to provide specialized training
• sustainment, including payment of ANA salaries and maintenance of vehicles
  and facilities


ANA Strength
This quarter, the ANA’s strength was 168,037—an increase of 8,674 since last
quarter.74 The goal is for the ANA to reach 171,600 personnel by October 2011.75
   Most ANA personnel are assigned to the ANA’s six corps, its Special
Operations Force, and its 111th Capital Division, as noted in previous SIGAR
quarterly reports. According to an assessment by IJC, 99,035 personnel were
assigned to these forces as of June 20, 2011.76 This was an increase of 8,869
personnel since March 20, 2011. However, the number of troops assigned does
not necessarily equal the number of troops present for duty, as noted in previ-
ous SIGAR quarterly reports and shown in Figure 3.19. On June 20, 2011, AWOL
troops constituted 8% to 14% of these forces, as shown in Figure 3.19.
   ANA personnel represent all of Afghanistan’s main ethnic groups. Pashtuns
and Tajiks make up nearly 78% of the force and more than 83% of the officers,
according to CENTCOM. The ethnicities represented in small numbers are
Hazara, Uzbek, Turkmen, Balooch, Nooristani, Bayat, Sadat, Pashayee, Arab,
and Qezelbas.77 The MoI seeks proportional representation in the ANA by setting
ethnic breakout requirements. Tajik officers make up a disproportionately large
share of officers relative to the share of Tajik soldiers, as shown in Table 3.3.


TABLE 3.3


ANA ETHNIC COMPOSITION, AS OF JUNE 30, 2011 (%)
                                           Pashtun                 Tajik              Hazara         Uzbek   Othera
Officers                                     42.53                40.84                  7.38         4.07    5.18
NCOs                                         51.42                37.51                  6.93         2.82    1.31
Soldiers                                      42.92               28.70                 11.87         9.09    7.42
Total force                                  45.18               32.53                10.00          6.79     5.49
Ethnic breakout                               44.00               25.00                 10.00         8.00   13.00
requirementb
Delta                                         +1.2                 +7.5                   0.0         -1.2    -7.5

Note: Numbers affected by rounding.
a. Includes Turkmen, Balooch, Nooristani, Bayat, Sadat, Pashayee, Arab, and Qezelbas ethnicities.
b. According to MoD Order No. 0517, 3/18/2010.
Source: CENTCOM, response to SIGAR data call, 7/1/2011.




                    REPORT TO THE UNITED STATES CONGRESS                        I   JULY 30, 2011            61
SECURITY




FIGURE 3.20


ANA TRAINING GRADUATES BY PROGRAM

    Total Graduates: 26,887                                                                  Other Training Programs: 6,873

                                    NCO
                                    Development                      Officer Development                  1,315
                                    3,769
                                                          Up-Armored HMMWV Training                      1,241
    Basic
    Warrior                         Other Training            Pre-Branch Literacy Training              1,157
    Training                        Programs
    15,634                          6,873               Mujahedeen Integration Course             288

                                                        Military Skills Instructor Course        87

                                    Direct Accession           Other Specialized Training                             2,785
                                    NCO Course
                                    611                                                      0          1,500       3,000

Note: HMMWV = high-mobility, multi-purpose wheeled vehicle.
Source: CENTCOM, response to SIGAR data call, 7/1/2011.




ANA Training
As of June 30, 2011, the United States had appropriated approximately
$2.0 billion, obligated $1.7 billion, and disbursed $1.7 billion in ASFF funds for
ANA operations and training.78
   This quarter, 26,887 ANA personnel—4,441 more than last quarter—graduated
from training programs funded by the ASFF, according to CENTCOM. Of that
number, 4,380 graduated from training and development courses for noncommis-
sioned officers, and 1,315 graduated from courses for officers, as shown in
Figure 3.20.79

ANA Literacy
This quarter, 15.8% of the ANA were considered functionally literate (at a grade 3
reading level), and 48% had achieved at least grade 1 level literacy, according to
CENTCOM. In November 2010, the Chief of the ANA General Staff set a goal for
80% of the ANA to read and write at a grade 3 level by March 2012. As of March
2011, all ANA soldiers were required to attend literacy training—to grade 1
level—during their Basic Warrior Training.80
   U.S. and coalition forces are working to increase the literacy of ANA soldiers
in the field, CENTCOM noted. This quarter, in some of the fielded ANA corps, the
proportion of soldiers in literacy training was as high as 40%. This training was




    62                        SPECIAL INSPECTOR GENERAL                 I   AFGHANISTAN RECONSTRUCTION
                                                                   SECURITY




being provided as part of an NTM-A initiative. From October 2010 to May 2011,
NTM-A expended approximately $8.9 million on ANA literacy training.81

Women in the ANA
According to CENTCOM, 324 women serve in the ANA—215 officers and
109 noncommissioned officers, as of June 30, 2011—up from 300 last quar-
ter. Seventy percent of the officers are assigned to medical roles, and 50% of
the enlisted personnel are assigned to logistics roles. Women officers are also
employed in aviation, intelligence, signals, finance, personnel, and religious and
cultural affairs.82
   In January 2010, the MoD called for 10% of ANA personnel to be women
but did not set a schedule for achieving that goal. According to CENTCOM,
approximately 0.2% of ANA soldiers are women, a percentage that is expected to
decrease as the ANA reaches its overall staffing goals. In the near term, the ANA’s
recruiting objective is to increase the number of women in Officer Candidate
School (OCS) and medical training. OCS classes for women have been held every
four to five months. Each class can accommodate 150 women, although no more
than 29 seats were filled during the first two classes. A third OCS class began in
June 2011.83
   According to CENTCOM, the ANA intends to start recruiting the first women
into the four-year National Military Academy of Afghanistan (NMAA) in October
2011—eight years after the NMAA re-opened its doors. The ANA plans for
10–20% of its first co-ed class to be women (60–120 women in a class of 600).84
   This quarter, NTM-A’s Integration and Human Rights (IHR) Office drafted an
annex to NTM-A’s Operational Order that details NTM-A/CSTC-A responsibilities
for enhancing gender integration in the ANSF and incorporating gender perspec-
tives into NTM-A’s daily mission. In June 2011, NTM-A/CSTC-A introduced a
ministry-level plan to improve the effectiveness of gender integration efforts in
the ANA.85

ANA Infrastructure
As of June 30, 2011, the United States had appropriated approximately
$4.0 billion, obligated $3.8 billion, and disbursed $2.6 billion of ASFF funds
for ANA infrastructure.86
   This quarter, 33 ANA infrastructure projects were awarded (valued at
$558.7 million), 75 were ongoing ($1,262.8 million), and 3 were completed
($107.0 million), according to CENTCOM. Of the newly awarded projects, the
largest were an ANA garrison in Ghazni for the 203rd Corps, which has a
$70.1 million cost to complete and is scheduled to be finished on January 20, 2013,
and a garrison for a brigade of the 207th Corps in Farah, which has a $69.8 million
cost to complete and is scheduled to be finished on September 26, 2012.87




             REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2011        63
                                                           SECURITY




                                                           TABLE 3.4


                                                           ANA EQUIPMENT FIELDED
                                                                                                                                     Q1 2011              Q2 2011
                                                                                                                                               Cost                   Cost
                                                                                                                                Number ($ Millions)    Number ($ Millions)
                                                           Weapons                                                                 9,448        20.0     1,513       10.8
                                                           Vehicles                                                                1,163       390.8      726       199.4
                                                           Communications equipment                                                6,617        37.3     2,708       10.1
                                                           Totals                                                               17,228         448.1    4,847       220.2

                                                           Note: Numbers affected by rounding.
                                                           Source: CENTCOM, responses to SIGAR data call, 7/1/2011 and 4/1/2011.




                                                           ANA Equipment
                                                           As of June 30, 2011, the United States had appropriated approximately
                                                           $9.0 billion, obligated $8.4 billion, and disbursed $8.3 billion of ASFF funds
                                                           for ANA equipment and transportation.88
                                                              This quarter, according to CENTCOM, the ANA fielded 1,513 weapons (valued
                                                           at $10.8 million), 726 vehicles ($199.4 million), and 2,708 pieces of communica-
                                                           tions equipment ($10.1 million).89 The amount of equipment fielded this quarter
  Cross-leveling: At the strategic and
                                                           was significantly smaller than the amount fielded last quarter as shown in Table
  operational levels in a theater, the
                                                           3.4. As noted in SIGAR’s April 2011 quarterly report, the cost of outfitting a typi-
  process of diverting materiel from
  one military element to meet the                         cal ANA soldier in 2010 was $2,995.90
  higher priority of another, within a                        As of June 30, 2011, the Afghan Air Force inventory consists of 58 aircraft:91
  commander’s logistical authority.                        • 35 Mi-17s
  Cross-leveling plans must include                        • 9 Mi-35s
  specific reimbursement procedures.                       • 3 AN-32s
                                                           • 11 C-27s
  Pseudo-FMS: An adaptation of
                                                              According to CENTCOM, the Afghan Air Force plans to add 87 aircraft to meet
  the Foreign Military Sales (FMS)
  Program, DoD’s government-to-                            requirements identified in a February 2010 review of Afghanistan’s air power needs.
  government method for selling                            Most of the equipment fielded by the ANA this quarter came from cross-leveling or
  U.S. defense equipment, services,                        was funded by the United States through the ASFF in pseudo-FMS purchases.92
  and training. In contrast to the
  traditional FMS, DoD purchases
  weapons to train and equip the                           U.S. Support for the Ministry of Defense
  ANSF primarily using funds appropri-                     This quarter, NTM-A assessed the MoD to be “stable” and “on track,” noting that
  ated by the Congress for the ASFF.                       slow progress is being made.93 The MoD, with advice from NTM-A/CSTC-A, con-
  As in the traditional FMS, pseudo-                       tinued to develop systems and institutions required to grow and professionalize
  FMS procurements are overseen by                         the ANA, according to DoD. Advisory groups and working groups supported this
  the Defense Security Cooperation                         development through the engagement of key leaders, interministerial coordination,
  Agency.                                                  and the Ministerial Development Board. Approximately 272 military personnel,
                                                           government civilians, and contractors from the United States, United Kingdom,
Sources: DoD, “Dictionary of Military Terms,” accessed
                                                           and Canada were participating in this effort. They were developing capacity in
7/12/2010; GAO, “Afghanistan Weapons Accountability,”      the Government of the Islamic Republic of Afghanistan (GIRoA) in several areas,
GAO-09-267, accessed 10/14/2010; DSCA, “Foreign Military
Sales,” accessed 10/16/2010.                               including management, operations support, personnel, and logistics.94



                                                              64                        SPECIAL INSPECTOR GENERAL           I   AFGHANISTAN RECONSTRUCTION
                                                                                                       SECURITY




TABLE 3.5


ANP FORCE STRENGTH, AS OF JUNE 2011
                                                             Authorized                     Assigned to                Not Assigned to
                                                               (Tashkil)                Tashkil Positions             Tashkil Positions
ANP (Total Strength: 130,622)                                  140,398a                         125,619                           5,003c
Breakdown By ANP Component
AUP                                                              80,275                           72,731                                —
ABP                                                              23,086                           20,018                                —
ANCOP                                                            13,678                           11,766                                —
Other units                                                      23,359b                         21,104b                                —

Note: — = not available.
a. Includes authorized AUP, ABP, and ANCOP personnel in addition to authorized personnel for MoI headquarters, anti-crime,
training, counter-narcotics, traffic, medical, intelligence, and fire units.
b. Includes personnel assigned to MoI headquarters, anti-crime, training, counter-narcotics, traffic, medical, intelligence, and fire
units; numbers based on difference between authorized and assigned totals for the ANP and for each ANP component.
c. Initial-entry students
Source: ISAF-IJC, ANP PERSTAT, 6/2011.



   According to NTM-A, challenges to increasing the capability of the MoD
include the following:
 • the MoD’s continued resistance to removing unqualified/corrupt personnel
 • centralized decision-making authority in all areas
 • confusion in logistic system processes/procedures


Public Perception/Acceptance
On June 15, 2011, CENTCOM began soliciting bids for a contract to conduct
face-to-face and focus group surveys on Afghans’ views about the services of the
ANSF. According to the official solicitation, the surveys will collect data from                                                            FIGURE 3.21
people of all ages and social, ethnic, tribal, religious, educational, and geographic
groups. The deadline for responding to this solicitation was July 13, 2011.95                                                               ETHNIC GROUPS REPRESENTED IN
                                                                                                                                            THE ANP, AS OF JULY 1, 2011

AFGHAN NATIONAL POLICE
As of June 30, 2011, the United States had appropriated approximately $12.9 bil-
lion, obligated $11.3 billion, and disbursed $9.8 billion of ASFF funds to build and
sustain the ANP.96                                                                                                                                            Pashtun        Tajik
                                                                                                                                                              43%            42%

ANP Strength
This quarter, the total strength of the ANP was 130,622, according to the IJC.97 Of
that number, 72,731 were assigned to the Afghan Uniform Police (AUP), 20,018
were assigned to the Afghan Border Police (ABP), and 11,766 were assigned to                                                                          Other                              Uzbek
the Afghan National Civil Order Police (ANCOP), as shown in Table 3.5.                                                                                6%                Hazara           5%
                                                                                                                                                                        4%
   ANP personnel come from several ethnic groups. As of July 1, 2011, approxi-
mately 85% were Pashtuns and Tajiks, according to CENTCOM.98 The rest are                                                                   Notes: Numbers affected by rounding. “Other” includes (in
                                                                                                                                            descending order) Pashayee, Turkmen, Nooristani, Balooch,
members of several other ethnic groups such as Uzbeks (5%) and Hazaras (4%),                                                                Sadat, Arab, Bayat, and Qezelbas.
as shown in Figure 3.21. The proportion of Tajiks (42%) in the ANP is dispropor-                                                            Source: CENTCOM, response to SIGAR data call, 7/1/2011.

tional to the proportion of Tajiks (25%) in the population of Afghanistan.99



                     REPORT TO THE UNITED STATES CONGRESS                           I   JULY 30, 2011                           65
                                                           SECURITY




                                                           ANP Salaries and the Law and Order Trust Fund for Afghanistan
  Tashkil: Lists of personnel and                          Since 2002, donors had pledged nearly $1.97 billion to the Law and Order Trust
  equipment requirements used by                           Fund for Afghanistan (LOTFA), of which over $1.47 billion had been paid in, as
  the MoD and MoI that detail                              of March 31, 2011. These monies are disbursed by the Ministry of Finance (MoF)
  authorized staff positions and                           mainly through an electronic payroll system. The LOTFA has transferred $117.6
  equipment items, in this case for                        million to the GIRoA for the first calendar quarter of 2011 and $120 million for
  the ANA and the ANP. The word                            the second quarter to cover the payroll costs of the 122,000 ANP personnel
  means “organization” in Dari.                            authorized under the most recent MoI tashkil. According to the most recent
                                                           data available, the United States had contributed more than $585.1 million to
Source: GAO, GAO-08-661, “Afghanistan Security,” 6/2008,
                                                           the LOTFA as of March 31, 2011 and had committed an additional $218 million
p. 18.                                                     through March 31, 2013.100
                                                              Now in its sixth phase, the LOTFA has moved beyond its traditional role of
                                                           trust fund management, as noted in SIGAR’s April 2011 quarterly report.101
                                                           Phase VI activities related to the ANP address three efforts:102
                                                           • Remuneration of police and prisons staff and ANP infrastructure. The
                                                              LOTFA works with the MoI to provide timely and accountable salary pay-
                                                              ments for the ANP and for Central Prisons Department uniformed personnel,
                                                              as well as for police infrastructure activities, contributing to improvements
                                                              in mobility, responsiveness, and working conditions.
                                                           • Capacity development and institutional reform of the MoI at the
                                                              policy, organizational and individual levels. Project staff work directly with
                                                              MoI staff to expand their organizational and financial capabilities.
                                                           • Democratic policing. Through this “police-e-mardumi” initiative, the
                                                              LOTFA works proactively to engage community leaders, people, police, and
                                                              local governance councils to share information and common concerns. Pilot
                                                              activities in eight districts of Kabul will be expanded in this phase.
                                                              This quarter, the UNDP reported that it had reached agreement with the MoF
                                                           on first steps toward fiscal sustainability and sustainable development of LOTFA
                                                           processes with respect to ANP remunerations. The MoF will take over responsi-
                                                           bility for distributing salaries to 3% of 82,000 ANP personnel beginning in solar
                                                           year (SY) 1390.103

                                                           ANP Local Initiatives
                                                           The Afghan Local Police (ALP) initiative is the MoI’s community watch program.
                                                           It enables communities to protect themselves in areas that lack a significant ISAF
                                                           or ANSF presence. DoD noted that the ALP has disrupted insurgents’ ability to
                                                           exploit the population in such areas.
                                                               ALP members serve under the local district police chief. They are nominated
                                                           by a shura council, vetted by the Afghan intelligence service, and trained by
                                                           and partnered with personnel from the ANP, the ANA, and U.S. Special Forces,
                                                           according to DoD.104 As of this quarter, the ALP consists of 6,938 personnel in 43
                                                           sites.105 However, DoD has identified challenges. For example:106




                                                             66               SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                                   SECURITY




• The success of the ALP program may strain coalition resources. Greater
  numbers of conventional and special operations forces are necessary to meet
  the growing demand for partnering within ALP communities.
• The MoI’s nascent logistical and administrative capabilities leave it struggling
  to pay the ALP effectively through its payroll systems.
• The ALP is often short on uniforms, weapons, vehicles, radios, and other
  supplies.
• Insurgents have threatened ALP personnel and their families and targeted
  them for assassination.
   Attacks on the ALP by insurgents have failed to intimidate ALP forces and
local communities, who often succeed in defending themselves, according to
DoD. Local and national leaders continue to request more and larger ALP sites.
DoD also noted that independent polling showed support for the ALP in commu-
nities where they operate.107

ANP Training
As of June 30, 2011, the United States had appropriated approximately $2.6 billion,
obligated $2.2 billion, and disbursed $2.1 billion of ASFF funds for ANP training
and operations.108
   This quarter, 8,608 ANP personnel graduated from 46 training programs,
according to CENTCOM. Of that number, 4,240 graduated from AUP courses,
2,039 from ANCOP courses, and 1,834 from ABP courses; the remaining gradu-
ates completed OCS (260) or specialty training schools (469). Coalition partners
were responsible for 36 of these programs, and 2 U.S. companies (DynCorp and
Xe Services LLC) were responsible for the remaining 10.109

ANP Literacy
According to CENTCOM, 20% of ANP personnel are literate at some level. The
MoI’s goal is for all ANP personnel to be literate at a grade 3 level; it has not set
a target date for reaching this goal. NTM-A’s goal is to achieve 100% literacy (at
a grade 3 level) in the ANSF by 2014. NTM-A has awarded contracts to provide
literacy training throughout Afghanistan. Since November 2009, NTM-A train-
ing has brought more than 8,000 ANP personnel to grade 3 literacy, according
to CENTCOM. As of this quarter, NTM-A is providing literacy training to nearly
30,000 ANP personnel. From October 2010 to May 2011, NTM-A expended
approximately $8.6 million on ANP literacy training.110
    In previous quarters, NTM-A/CSTC-A had estimated lower rates of literacy for
the ANP. For example, SIGAR’s October 2010 quarterly report noted CSTC-A esti-
mates that about 4.5% of ANP personnel were literate, based on random tests and
sampling. SIGAR’s January 2011 quarterly report noted that only 2.24% of 7,771
new ANP personnel passed a November 2010 literacy test.
    NTM-A engages with the ANP Training General Command and ANP units in
the field to increase literacy through training conducted by NTM-A contractors,




             REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2011         67
SECURITY




according to CENTCOM. CENTCOM noted that the number of ANP personnel in
literacy training has increased significantly—in line with an increase in ANP recruit-
ing—and that literacy training has been mandatory at ANP training bases since
October 2010. NTM-A’s focus in the coming quarters is to build upon grade 1 training
completions with grade 2 and grade 3 classes for ANP personnel in the field.111
    Members of the ANCOP—the elite, “front line” corps composed entirely of
officers and noncommissioned officers—are required to be literate. However, as
noted in SIGAR’s January 2011 quarterly report, NTM-A revised the entry proce-
dure to allow semi-literate candidates to join and receive literacy training before
entering the operational force.112 This quarter, according to CENTCOM, the lit-
eracy goal for the ANCOP is for all personnel to read and write at a grade 3 level.
CENTCOM noted that a full determination of ANCOP literacy has not been made
and that a comprehensive, cross-corps initiative to test all personnel serving in
the ANCOP has not been conducted. From November 2009 through February
2011, tests were administered to 7,243 ANCOP personnel, which resulted in 387
passing grades—a 5.3% literacy rate.113
    The ANCOP continues to recruit illiterate personnel, according to CENTCOM.
These recruits undergo two weeks of intensive training to achieve grade 1 lit-
eracy. Following recruitment and transfer to an ANCOP training center, recruits
undergo an additional four weeks of intensive training to achieve grade 2-level
literacy. To reach the grade 3 level—or functional literacy—recruits undergo a
14-week ANCOP training program that incorporates a literacy course.114
    On June 14, 2011, the UN Educational, Scientific, and Cultural Organization
(UNESCO) and the Japanese government signed an agreement to begin a
$3 million literacy training program for 3,000 ANP personnel in Kabul and
7 other provinces over the next 20 months.115

Women in the ANP
According to CENTCOM, 1,112 women were serving in the ANP as of June 30,
2011—183 officers (up from 164 reported last quarter) and 929 enlisted person-
nel. CENTCOM did not provide updated figures for enlisted personnel who were
noncommissioned officers. According to CENTCOM, the ANP’s goal for SY 1390
is to have 1,753 women in its ranks.116

ANP Infrastructure
As of June 30, 2011, the United States had appropriated approximately
$2.7 billion, obligated $2.5 billion, and disbursed $1.5 billion of ASFF funds
for ANP infrastructure.117
   This quarter, 36 ANP infrastructure projects were awarded (valued at
$353.4 million), 161 were ongoing ($671.6 million), and 13 were completed
($56.5 million), according to CENTCOM. Of the newly awarded projects, the larg-
est were regional police training centers in Kandahar (at a cost of $61.4 million)
and Herat ($61.6 million), both of which are scheduled to be completed in late




  68                SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                                                           SECURITY




TABLE 3.6


ANP EQUIPMENT FIELDED
                                                                              Q1 2011               Q2 2011
                                                                                       Cost                    Cost
                                                                        Number ($ Millions)     Number ($ Millions)
Weapons                                                                  7,240            5.3   11,050         12.2
Vehicles                                                                 1,170           99.2    1,514         92.5
Communications equipment                                                 2,938            1.5    1,746           3.6
Total                                                               11,348              106.0   14,310        108.3

Note: Numbers affected by rounding.
Source: CENTCOM, responses to SIGAR data call, 7/1/2011 and 4/1/2011.




2012. Of the 161 ongoing projects, more than half (91) are building district head-
quarters for the Afghan Uniform Police.118

ANP Equipment
As of June 30, 2011, the United States had appropriated approximately $3.7 billion,
obligated $3.4 billion, and disbursed $3.2 billion of ASFF funds for ANP equip-
ment and transportation.119
   From April 1 to June 30, 2011, the ANP fielded 11,050 weapons (valued at
$12.2 million), 1,514 vehicles ($92.5 million), and 1,746 pieces of communications
equipment ($3.6 million).120 More weapons were fielded this quarter than last
quarter, as shown in Table 3.6.
   Most of the equipment fielded by the ANP this quarter came from cross-
leveling or was funded by the United States through the ASFF in pseudo-FMS
purchases. CENTCOM noted that some communications equipment was
acquired through local contracting.121

U.S. Support for the Ministry of Interior
In December 2010, the U.S. Army Research, Development, and Engineering
Command awarded DynCorp International a 24-month contract to provide
U.S. and coalition experts to the MoI for police development, according to
CENTCOM. The ministerial mentoring and training program provides experts in
a number of fields: personnel, intelligence, logistics, communications, force gen-
eration and management, finance, medical, engineering, acquisition, legal, public
affairs, and strategy and policy. The program has a budget of $46 million for
FY 2011 and $46 million for FY 2012. This quarter, the costs of the contract
totaled $6.9 million, according to CENTCOM.122
   CENTCOM noted that 243 mentors and advisors were assigned to the MoI as
of June 30, 2011. Of this number, 135 were U.S. government personnel, 35 were
international or coalition government personnel, and 73 were DynCorp contrac-
tors. CENTCOM noted that 107 contractors are authorized by the contract.123




                   REPORT TO THE UNITED STATES CONGRESS                   I    JULY 30, 2011                69
SECURITY




U.S. FORCES
According to USFOR-A, 110,325 U.S. forces were serving in the country as
of June 30, 2011—934 more than last quarter. These forces were assigned as
follows:124
• 79,041 to ISAF
• 3,637 to NTM-A/CSTC-A
• 16,555 to USFOR-A
• 11,092 to other assignments (unspecified)
   This quarter, President Obama announced the beginning of the drawdown
in U.S. forces. According to the President, 10,000 troops are expected to leave
Afghanistan by the end of 2011 toward a goal of 33,000 troops removed by the
summer of 2012.125

REMOVING UNEXPLODED ORDNANCE
From 2002 through June 30, 2011, DoS had provided more than $186.5 million in
funding for the Non-Proliferation, Anti-Terrorism, Demining, and Related pro-
grams in Afghanistan, according to the DoS Political-Military Affairs’ Office of
Weapons Removal and Abatement (PM/WRA).126
   According to the PM/WRA, DoS directly funds five Afghan non-governmental
organizations (NGOs), five international NGOs, and one U.S. company (DynCorp
International) for sustained clearance operations and the removal and mitiga-
tion of abandoned and at-risk conventional weapons. In addition, DoS assists the
ANSF with the destruction of excess, unserviceable, and at-risk ANSF weapons
and ordnance, and provides technical assistance for the physical security and
stockpile management of ANSF weapons and ordnance. The PM/WRA noted
that USFOR-A and CSTC-A personnel train and monitor the ANSF in the removal
of mines and other explosive remnants of war through the ANSF Explosive
Ordnance Disposal Counter-Improvised Explosive Device Program and the ANA
Engineer School in Mazar-e Sharif.127
   From April 1, 2010, to March 31, 2011, more than 30.6 million square meters
of land had been cleared by DoS-funded implementing partners, according to
the PM/WRA.128 That leaves an estimated 627.0 million square meters to clear, as
shown in Table 3.7.

COUNTER-NARCOTICS
From 2002 to June 30, 2011, the United States had appropriated more than
$5.2 billion for counter-narcotics initiatives in Afghanistan. Most of these
funds were appropriated through two funds: the U.S. Department of State’s
International Narcotics Control and Law Enforcement (INCLE) fund (nearly
$3.3 billion), and the DoD Drug Interdiction and Counter-Drug Activities (DoD
CN) fund (more than $1.8 billion).129 DoD CN funds are used for a range of




  70               SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                                                             SECURITY



TABLE 3.7


CONVENTIONAL WEAPONS DESTRUCTION PROGRAM METRICS, APRIL 1, 2010–MARCH 31, 2011
                                                                                                                                                   Estimated Contaminated
Date Range                      AT/AP Destroyed         UXO Destroyed          SAA Destroyed        Fragments Cleared    Minefields Cleared (m2)       Area Remaining (m2)
4/1–6/30/2010                               2,853             249,946                 217,901                 968,887                4,464,926                659,770,000
7/1–9/30/2010                               3,922             270,793               1,196,158                1,710,708               9,108,108                650,662,000
10/1–12/31/2010                             2,219             100,866               1,204,036                3,549,023               5,704,116                641,000,000
1/1–3/31/2011                               2,171               55,005                 80,156                5,899,573              11,405,068                627,000,000
Total                                     11,165              676,610               2,698,251               12,128,191              30,682,218     (remaining) 627,000,000

Notes: AT/AP = anti-tank/anti-personnel ordnance. UXO = unexploded ordnance. SAA = small-arms ammunition.
Source: DoS, PM/WRA, response to SIGAR data call, 7/5/2011.




purposes; as of June 15, 2011, according to DoD, the largest amounts were for
the following activities and initiatives:130
• Air mobility outside the continental United States ($496.2 million): provides
   equipment, infrastructure, operations and maintenance, and training support
   for counter-narcotics missions in Afghanistan.
• Intelligence and technology ($388.7 million): provides analytical, equipment,
   and operations and maintenance support for the joint U.S./U.K. Interagency
   Operations Coordination Center, the Combined Joint Interagency Task
   Force (CJITF) Shafafiyat and CJITF Nexus, and the Judicial Wire Intercept
   Program.
• Counter-narcotics training for the ABP ($201.3 million): supports tactical
   training, mentors, and advisors for the ABP and Customs Police.
• Training for the Counter-Narcotics Police of Afghanistan (CNPA)
   ($157.7 million): supports trainers, mentors, and advisors, and provides
   equipment, infrastructure, and operations and maintenance support for the
   CNPA and its specialized units.
• Other program support ($121.5 million): supports analysts and trainers,
   transportation, and operations and maintenance for various programs to sup-
   port counter-narcotics programs in Afghanistan.
• Air mobility within the continental United States ($116 million): provides
   equipment, infrastructure, and operations and maintenance support to
   U.S.-based English language and flight training for MoI aviation personnel
   assigned to the Air Interdiction Unit (AIU).


Counter-Narcotics Highlights
This quarter, GIRoA and U.S. forces conducted more than 250 interdiction opera-
tions, which resulted in arrests and seizures of contraband, according to DoD.
Most interdiction activities were conducted in the south and southwest, where
most of the opiates are grown, processed, and smuggled out of Afghanistan.
The ANSF reduced the number of interdiction operations in the east and




                   REPORT TO THE UNITED STATES CONGRESS                    I   JULY 30, 2011                      71
SECURITY




north compared with last quarter. These operations focused on countering the
insurgency-narcotics-corruption nexus. DoD noted that the seizure of drugs and
chemicals deprived insurgents of significant amounts of funding that the drug
trade could produce and material that insurgents could use in IEDs.131

Counter-Narcotics Police of Afghanistan
The most recent assessment of the CNPA resulted in a CM-3 rating: it cannot
accomplish its mission without significant coalition assistance. According to
CENTCOM, the CNPA is not expected to progress to CM-2B until the first quarter
of 2012 and is not expected to attain CM-1B before the first quarter of 2013.
However, CENTCOM noted that the CNPA made tangible progress last quarter.
CNPA’s command and control capability was enhanced through the establish-
ment of a Tactical Operations Center/Intelligence Fusion Center, which was
staffed by trained personnel. As part of this development, the AIU practiced and
refined an air mission planning process that will enable the CNPA to assume mis-
sion planning responsibilities from the office of the Deputy Minister of Interior
for Security.132
   CENTCOM noted that a comprehensive training and education strategy was
drafted this quarter to help CNPA personnel progress in their counter-narcotics
careers, from patrolman through colonel.133

Interdiction Operations
From January 1, 2011, through June 13, 2011, the ANSF partnered with ISAF to
conduct 256 narcotics interdiction operations, according to DoD. These opera-
tions, which included partnered patrols and cordon-and-search, detention, and
over-watch operations, resulted in 302 arrests and led to the seizure of the fol-
lowing narcotics contraband:134
 • 93,285 kg of hashish
 • 36,625 kg of opium
 • 4,950 kg of morphine
 • 5,322 kg of heroin
 • 46,616 kg of narcotics-related chemicals
    This quarter, U.S. forces continued to provide transportation, intelligence, air-
lift, and quick reaction support, and the U.S. Drug Enforcement Administration
continued to mentor specialized Afghan counter-narcotics units, DoD noted. In
addition, the U.S. intelligence community continued to provide analytical support
to Afghan law enforcement and military personnel at the strategic, operational,
and tactical levels. The Combined Joint Interagency Task Force-Shafafiyat/
Nexus, in coordination with the Interagency Operations Coordination Center,
provided targeting support to Afghan law enforcement and military personnel.
All operations were coordinated with and received support from U.S. and coali-
tion forces commanders on the ground.135




  72                SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                                  SECURITY




   In his June 2011 quarterly report, the UN Secretary-General stated that in
March 2011 the GIRoA and the Islamic Republic of Iran carried out a joint opera-
tion on the three border crossings in the provinces of Farah, Nimroz, and Herat.
As a result, several traffickers were arrested, and nearly 1,000 kg of opium and
more than 600 kg of heroin were seized on both sides of the border by Afghan
and Iranian police.136




            REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2011       73
TITLE OF THE SECTION




 74    SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                    GOVERNANCE




GOVERNANCE
As of June 30, 2011, the United States had provided more than $19.1 billion to           “So our message to
support governance and development in Afghanistan.137 This quarter, U.S.-funded           the Taliban hasn’t
programs continued to address persistent problems related to corruption, effec-
tive and coordinated public administration, local governance, rule of law, and
                                                                                     changed; it just has even
human rights. Security improvements continued to allow for some marginal             greater resonance today.
gains in governance by the Government of the Islamic Republic of Afghanistan          They can’t wait us out,
(GIRoA). However, the government’s level of control in more volatile environ-           they can’t defeat us;
ments in the north and east remained tenuous.
                                                                                      they need to come into
                                                                                     the political process and
KEY EVENTS                                                                           denounce al-Qaeda and
This quarter, as the GIRoA’s legislative and the executive branches continued to
clash over the results of the September 2010 parliamentary elections, the Wolesi      renounce violence and
Jirga passed the budget for solar year (SY) 1390. Efforts by the GIRoA to pro-         agree to abide by the
mote reconciliation and reintegration progressed, as more than 1,000 individuals       laws and constitution
entered the reintegration process and the High Peace Council conducted numer-
ous events inside and outside of Afghanistan.
                                                                                           of Afghanistan.”
                                                                                                    —U.S. Secretary of State
Special Tribunal and Wolesi Jirga Controversies                                                             Hillary Clinton
On June 23, 2011, the Special Tribunal appointed by President Hamid Karzai
                                                                                     Source: DoS, Secretary of State’s remarks to National
announced its decision to partially overturn the results of the September 2010       Conference of Editorial Writers, 5/4/2011.
Wolesi Jirga elections, putting 62 seats in jeopardy. Members of the Wolesi Jirga
denounced the action as illegal and announced it would not accept any results
from the Tribunal. DoS noted that the Tribunal was deemed illegal by the GIRoA’s
Commission to Oversee the Implementation of the Afghan Constitution.138 While
reiterating U.S. support for legal efforts to detect and deal with election fraud,
DoS expressed concern that GIRoA officials may have exerted inappropriate
pressure—including harassment and threats of arrest—to motivate leaders of the
Independent Election Commission (IEC) to cooperate with the Tribunal.139

UN Sanctions List
On June 17, 2011, the United Nations (UN) Security Council unanimously passed
a resolution to split the UN blacklist for al-Qaeda into two sanctions lists—one
for members of al-Qaeda and one for members of the Taliban. The UN estab-
lished the al-Qaeda and Taliban Sanctions Committee in 1999 to oversee the




             REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2011       75
                                                        GOVERNANCE




                                                        implementation of sanctions imposed on Taliban-controlled Afghanistan for its
                                                        support of Osama bin Laden. However, with the current push for peace and rec-
                                                        onciliation in Afghanistan, the international community is trying to make a clear
                                                        distinction between the Taliban and al-Qaeda. The UN resolution that separated
                                                        Taliban members from al-Qaeda members also created a new committee to con-
                                                        sult with the GIRoA on listing members of the Taliban who pose a threat to the
                                                        peace, stability, and security of Afghanistan. The GIRoA played an active role in
                                                        deciding which individuals should be removed from the sanctions list. According
                                                        to members of the UN Security Council, the GIRoA’s participation in the process
                                                        demonstrates its commitment to reconciliation.140

                                                        RECONCILIATION AND REINTEGRATION
                                                        In May 2011, the U.S. Secretary of State stated that the death of Osama bin Laden
                                                        could lead to increased pressure on the Taliban and other anti-government
                                                        forces to reconcile.141 U.S. civilian and military officials have formed a broad
                                                        range of contacts at many levels across Afghanistan and the region with the aim
                                                        of encouraging reconciliation. As of June 30, 2011, none of these contacts had
                                                        yielded any major breakthroughs with the Taliban, and DoS had not observed
                                                        any moves suggesting that bin Laden’s death had caused Taliban leaders to sig-
                                                        nificantly change their views on reconciliation.142

                                                        High Peace Council Actions
                                                        The GIRoA has the lead on all reconciliation efforts. It established the High Peace
                                                        Council to increase national awareness of reconciliation, facilitate negotiations with
                                                        insurgents, and promote international support for the process. This quarter, the
                                                        High Peace Council held a number of activities inside and outside Afghanistan to
                                                        pursue those goals. The United States assisted the Council through the International
FIGURE 3.22
                                                        Security Assistance Force (ISAF) Force Reintegration Cell, which facilitated out-
                                                        reach trips. The Council had a $2.8 million budget as of June 30, 2011, according
REINTEGREES UNDER THE APRP,                             to DoS.143 Funds are provided through the Reintegration Finance Mechanism, a
BY QUARTER                                              joint effort between the GIRoA and donor countries in which the GIRoA disburses
                                                        funds to provincial administrators and through ministries.144
2,000                                  1,850                In May 2011, the Council held a review conference in Kabul that helped iden-
                                                        tify challenges in and generate solutions for carrying out for the Afghan Peace
1,500                                                   and Reintegration Program (APRP). The APRP is the GIRoA’s main program for
                                                        promoting and managing the actual reintegration of insurgents.145
1,000
           645            700                           Afghan Peace and Reintegration Program Progress
 500                                                    The High Peace Council’s work contributed to the acceleration in the pace of
                                                        reintegration this quarter, according to DoS.146 That pace was ahead of sched-
    0                                                   ule, DoS noted, and the APRP met its quantitative and qualitative goals.147 As
        Dec 2010       Mar 2011      Jun 2011           of June 30, 2011, about 1,850 individuals had joined, as shown in Figure 3.22.
                                                        That figure is almost double the number of reintegrees projected for the pro-
Sources: DoS, responses to SIGAR data call, 7/1/2011,
4/15/2011, and 1/12/2011.                               gram’s first year. About 200 of the reintegrees had progressed to the third phase




                                                          76                SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                    GOVERNANCE




of the reintegration process, which is community recovery activities.148 The
GIRoA continued to design and approve economic and other opportunities for
reintegrees.149
   Reintegration activities were conducted in 15 provinces this quarter.150 Most       DoS’s metrics for assessing reintegration
of the reintegrations involved groups of about 15 to 20 men, according to the          include:
ISAF Force Reintegration Cell. Typically, reintegrees then returned to their home      • number and location of shuras
communities.151 Reintegrees who had finished the process have not shown signs            designed to promote reintegration
of recidivism.152                                                                      • number and location of reintegration
   Most reintegrees were from northern and western provinces, according                  events
                                                                                       • number of former insurgents registered
to DoS.153 U.S. Department of Defense (DoD) noted that efforts in southern
                                                                                         in the APRP
provinces have proceeded more slowly than elsewhere because of higher con-
                                                                                       • qualitative improvement of security in
centrations of embedded Taliban insurgents.154 In May 2011, ISAF estimated that
                                                                                         areas where reintegrees formerly operated
there were between 20,000 and 25,000 insurgents in Afghanistan.155                     • number and type of community recovery
   Although the program had begun to gain traction, it faced many challenges             projects under way
in mobilizing resources and programs this quarter, according to the ISAF Force         • staffing and effectiveness of APRP struc-
Reintegration Cell.156 The program, which began in June 2010, had been expected          tures at the national and provincial levels
to concentrate its activities in about eight provinces in its first year. However,     • quality and level of political and financial
demand throughout the country to join the APRP required the GIRoA to admin-              support for the APRP from the GIRoA and
ister the program nationwide, adding to its capacity and resource challenges.157         other governments
Among those challenges:158
                                                                                       Source: DoS, response to SIGAR data call, 7/1/2011.
 • forming additional representative peace councils
 • connecting reintegrees to reintegration projects
 • providing security for reintegrees
   The ISAF Force Reintegration Cell noted that developing Afghans’ trust and
confidence in the reintegration process are also important for its success, and
pointed out that prolonged conflict has made Afghans cautious about com-
mitments to reintegration. Solidification of security gains is necessary to give
communities the confidence to support reintegration and create an environment
in which insurgent groups can reintegrate.159 One measure of that: as of June 30,
2011, insurgents had not targeted provincial governors for their participation in
the APRP, according to DoD.160

Capacity Development for Reintegration
On May 10–11, 2011, at the APRP Review Conference in Kabul, GIRoA line minis-
ters presented their annual APRP work plans to provincial and district governors
and donor country representatives, according to DoD. Governors have cited diffi-
culties in accessing funds as their biggest challenge in carrying out reintegration
efforts at the local level, according to DoS.161 They requested more decision-making
authority and resources, although they acknowledged the limited capacity of
provincial staff.162 To support the technical administration of the APRP, including
managing accounts, each provincial governor will get a small staff of five or six
people, according to the ISAF Force Reintegration Cell.163
   As of June 30, 2011, the United States and 10 other countries had provided
the GIRoA with $150 million for these efforts through the Reintegration Finance




             REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2011         77
                                                           GOVERNANCE




                                                           Mechanism. An additional $80 million of pledged funds remained, according
                                                           to DoS.164 The APRP Joint Secretariat, the Ministry of Finance, and the United
                                                           Nations Development Programme (UNDP) have agreed on how funds will be
                                                           disbursed for the APRP budget.165 DoS pointed out the critical need to finalize
                                                           ministry procedures for disbursing APRP funds to the field in order to establish
                                                           worthwhile economic opportunities.166

                                                           Provincial Reintegration Progress
As of May 19, 2011, all but one or two of                  Provinces in Southern Afghanistan faced some challenges this quarter, but made
Afghanistan’s 34 provinces had established                 progress. In Kandahar, that progress was hindered by issues with the APRP, inad-
provincial peace councils, according to the                equate staff capacity at its National Joint Secretariat, and a lack of understanding
ISAF Force Reintegration Cell. Provincial                  of the financial process of reintegration, according to DoS. This quarter, the
peace councils are typically made up of                    National Joint Secretariat held a conference that addressed some of these issues.
20 to 30 community elders, including                       DoS expected a more detailed, three-day training program—scheduled for July
individuals from groups who support the                    2011 in Kandahar—to resolve additional challenges to implementation.167
government and groups who do not. The
                                                              In Helmand, political support for reintegration is solid, according to DoS,
councils lead the peace process within
                                                           which noted the governor’s constant support. Although numerous political rela-
their locality.
                                                           tionships have been developed to support reintegration, DoS noted that as of this
Source: DoD, “DoD News Briefing with Maj. Gen. Jones via   quarter, the central government had not yet provided sufficient detailed guidance
Teleconference from Afghanistan,” 5/19/2011.
                                                           and support to the province. Connections were established this quarter between
                                                           reintegration bodies in Kabul and their Helmand counterparts, and the central
                                                           government provided the provincial secretariat with training. This support and
                                                           guidance has moved the process forward at the provincial and district levels,
                                                           according to DoS. As of June 30, 2011, the provincial government continued to
                                                           rely on the U.S. Afghanistan Reintegration Program (ARP), but Afghan channels
                                                           had begun to distribute funding that was being spent locally.168
                                                              Across the country, as of June 30, 2011, Provincial Peace Committees had
                                                           been established in 33 provinces, according to DoS. Recruitment had been com-
                                                           pleted for Provincial Joint Secretariat Teams in 15 provinces, and 6 more teams
                                                           were expected to be completed this summer.169

                                                           Regional Engagement
                                                           At the international level, the United States, Afghanistan, and Pakistan began a
                                                           series of meetings in Afghanistan and Pakistan in May 2011 to discuss regional
                                                           issues, according to DoS. The participants discussed reconciliation and support
                                                           for a political resolution to the insurgency, as well as other topics related to trade
                                                           and economic cooperation. Future meetings will discuss how to advance rec-
                                                           onciliation, regional economic integration, and other efforts aimed at improving
                                                           peace and prosperity.170

                                                           NATIONAL AND SUB-NATIONAL GOVERNANCE
                                                           In April 2011, DoD’s report on progress suggested that the GIRoA was mak-
                                                           ing progress in extending its authority to the provinces. Some 74% of Afghans
                                                           thought the GIRoA had more influence than the Taliban—the highest percentage




                                                             78                SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                     GOVERNANCE




since January 2009. The largest gains were in Nimroz and Helmand, where 76%
of respondents stated that the government had more influence than the insur-
gents—an increase of 17% from September 2010. In addition, 71% of those polled
thought that it would be harmful if the Taliban returned to power, an increase of
18% from September 2010.171
   In his report to the UN Security Council in June, the UN Secretary-General
also noted that there has been some progress in the implementation of sub-
national governance initiatives. However, the UN Secretary-General cautioned
that significant work remains. He said that roles and responsibilities at the
central, provincial, municipal, and district levels of the GIRoA must be defined.
He also said it is critically important to develop sustainable provincial budgeting
procedures and ensure that provincial and district authorities receive the financ-
ing that the central government approves.172

Budget Prioritization and Execution
During the first half of 2011, the U.S. Embassy Kabul has led an international           The GIRoA’s core budget includes the oper-
effort to re-focus governance efforts on preparing for the transition to greater         ating and development budgets. It receives
GIRoA control by improving Afghan governing capacity. According to DoS, these            funding from multiple sources; trust funds
efforts have focused on strengthening the ability of Afghan officials through-           constitute a significant portion of interna-
out the GIRoA—in Kabul as well as in the provinces—to prioritize and execute             tional contributions. The operating budget
budgets. With U.S. Embassy support, the Independent Directorate for Local                consists mainly of recurrent costs such
                                                                                         as wages and salaries. The development
Governance (IDLG) and the Ministry of Finance (MoF) developed a nationwide
                                                                                         budget is made up of capital expenditures
pilot program for provincial budgeting, intended to aid the provincial depart-
                                                                                         on governance, rule of law, infrastructure,
ments of several ministries—Education, Public Health, Rural Rehabilitation and           education, health, agriculture and rural
Development, and Agriculture, Irrigation, and Livestock—in providing more sub-           development, social protection, and private
national input into ministry budgets.173                                                 sector development.

Wolesi Jirga                                                                             Source: Treasury, response to SIGAR data call, 1/5/2010.

On May 1, 2011, the Wolesi Jirga approved the third draft of the GIRoA’s budget for
SY 1390.174 The MoF set the total operating budget at Af 150.7 billion ($3.2 billion),
an increase of 25.8% compared with SY 1389. The approved development budget
was an estimated Af 74.1 billion, an increase of Af 8.2 billion over the originally
proposed development budget noted in SIGAR’s April 2011 quarterly report.175
According to the Wolesi Jirga, the increases in the development budget from the
first two drafts were for amounts to be spent on agriculture, education, health,
administration, higher education, roads, and security.176 The final development
budget was 34% less than the Af 111.9 billion development budget for SY 1389.177
The Wolesi Jirga stated that it rejected the first two drafts of the budget because
of issues related to the allocation of funds, imbalance in the development budget,
and expenditure problems.178
    The Wolesi Jirga has been very resistant to decisions made by the executive
and judicial branches that affect its authority, according to DoS. In addition to
its objections to the actions of the Special Tribunal, the Wolesi Jirga conducted
silent protests in June 2011 over President Karzai’s unwillingness to put forward




             REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2011           79
GOVERNANCE




his remaining nominations for his cabinet. DoS noted that the Wolesi Jirga also
summoned numerous cabinet officials—including the Foreign, Defense, and
Interior ministers—for question-and-answer sessions.179

Afghanistan Parliamentary Assistance Program
As of June 30, 2011, more than $30.6 million had been expended for the
Afghanistan Parliamentary Assistance Program (APAP) run by the U.S. Agency
for International Development (USAID). USAID is implementing this program
to help develop the capacity of the National Assembly, which has had limited
financial resources and has struggled to attract and retain professional com-
mittee staff, to draft legislation, conduct oversight, and provide representation.
According to USAID, the program has concentrated on providing members and
their staffs with mentoring and training in policy and budget analysis, outreach,
and oversight.180
    USAID said this support has helped transform the National Assembly from a
weak, ineffectual institution to a legislature that is increasingly willing to exercise
its authority. This quarter, USAID extended the program until September 30, 2011.181
    As of June 30, 2011, the APAP had developed more than 20 training pro-
grams that had benefited more than 80% of Assembly members. The APAP had
also conducted orientation programs that have helped members perform their
duties, according to USAID. The most recent staff survey, which polled the last
Assembly, found that 64% of the Assembly members said they had applied the
skills learned in this training to their work. For example, this quarter, many
key legislative committees used the APAP’s technical assistance to question
ministers and other officials on education, health, the Kabul Bank scandal, and
other subjects, according to USAID. In addition, 88% of Assembly members who
responded said that their increase in knowledge resulted from APAP workshops
and seminars.182
    The APAP’s budget program provides budgetary and macroeconomic analysis
and technical support to enable the Assembly to engage more fully in budgetary
review and oversight. This focus may have contributed to the Assembly’s will-
ingness to challenge the government’s budgets in 2010 and 2011, according to
USAID, which stated that the Assembly relied on this training to pass an SY 1390
budget that incorporated key legislative recommendations.183
    One of the APAP’s training priorities is to help develop the capacity of female
legislators. Current female members have used the APAP’s gender-focused pro-
gramming to enhance their leadership and legislative skills in their committee
roles. Because there is no functioning women’s caucus in the Assembly, legisla-
tive committees are the only way female lawmakers can rise in the leadership
ranks, according to USAID.184

Provincial and District Governance
Numerous problems continued to hamper the development of effective gover-
nance at the provincial and district levels. The separation of powers between
the executive, legislative, and judiciary branches at the local level, particularly



  80                SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                    GOVERNANCE




in districts, needs to be clarified, according to the Afghanistan Research and
Evaluation Unit (AREU). Existing legislation fails to grant meaningful power or
responsibility to local government institutions or officials, and policy at the local
level remained overly complex and confusing. Whereas provincial governors
have wide-ranging powers, the AREU noted that district administrations are
essentially sub-offices for provincial administrators, and central line ministries
retain substantial control over resources.185
   Dispute resolution at the local level remains a serious problem. As a result of
the failure of the GIRoA and the international community to provide effective,
transparent governance and rule of law, a significant number of communities
have joined the insurgency according to the U.S. Institute of Peace (USIP). Open-
ended disputes have led to local instability and a growing distance between the
GIRoA and the people. In some areas, the Taliban directly promotes disputes
by pitting communities against the GIRoA and ISAF. In others, the Taliban has
increased its authority and appeal by providing judicial mechanisms that work
more effectively than governmental mechanisms.186
   International donors’ varying policies and program implementations have
contributed to the lack of coordination between government institutions
and the lack of a clear vision for local government. According to the AREU,             FIGURE 3.23

donor policies have supported competing district representative bodies and              KANDAHAR DISTRICTS
fostered inter-ministerial rivalries, particularly between the Ministry of Rural
Rehabilitation and Development and the IDLG. This competition has contributed
to a lack of coordination between provincial councils, district community coun-
cils, district development assemblies, and community development councils.187

Southern Afghanistan
In Kandahar and Helmand this quarter, governance continued to show signs of
improvement, but numerous challenges remained. A number of factors have
aided governance in the area, including greater freedom of movement for govern-
ment officials because of improved security, better outreach and connections
between the government and the public, and the return of some tribal elders to
their villages. However, security issues, assassinations of officials, and capacity                           NISH       MIANESHIN
problems continued in various areas of the provinces this quarter.188                           GHOWRAK     SHAH VALI KOWT
                                                                                                        KHAKRIZ
                                                                                         ARGHANDAB
                                                                                                      ZHARI
KANDAHAR PROVINCE                                                                           MAIWAND                     ARGESTAN
                                                                                                                                      MA RUF
In Kandahar, the Provincial Reconstruction Team (PRT) and District Support
                                                                                                           DAMAN                  KANDAHAR
Teams (DSTs) continued to assist district and provincial officials to improve gov-              PANJWAYI
                                                                                                                      SPIN
                                                                                                                     BOLDAK
ernment infrastructure and service delivery. U.S. support for regularly scheduled
government meetings has produced stronger ties between provincial and district
officials, according to DoS.189
                                                                                                    RIG            SHURABAK
   Throughout the province (Figure 3.23), there has been a sporadic return of
tribal elders and prominent citizens to their communities this quarter. DoS noted
that although many others were likely willing to return home, they were waiting
to see how security holds during the summer fighting season. DoS stated that
                                                                                        Source: USAID, “Afghanistan Provinces and Districts,”
elders are also reluctant to return to their communities because not all schools        9/9/2009.




             REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2011          81
                                                          GOVERNANCE




                                                          are fully functional. The availability of education for their children is a major
                                                          consideration in elders’ return decisions, according to DoS.190
    SIGAR AUDIT                                               In Kandahar City, the tenuous security situation continued to limit local
    In an ongoing audit, SIGAR is examining               officials’ mobility this quarter, according to DoS. In May 2011, insurgents assas-
    the performance, costs, and outcomes                  sinated several officials and attacked multiple government locations. As a result,
    of USAID’s contracts in support of its                local officials have refused to travel to many locations beyond the city center
    Local Governance and Community                        unless taken there in armored ISAF vehicles, according to DoS.191
    Development project. The project, which                   Security in the city of Dand (just south of Kandahar City) was the most stable
    was focused on Kandahar this quarter,                 in Southern Afghanistan this quarter. According to DoS, this allowed the gover-
    aims to improve stability by delivering               nor to work to expand governance there. The DST in Dand has worked closely
    community-specific services. For more                 with the district governor to implement development projects, which included
    information, see Section 1, page 16.                  the opening of an $8.9 million road in June 2011 that will help get farm produce
                                                          to markets and provide several brick manufacturing plants access to a wider
                                                          market. In addition, DoS noted that freedom of movement was very good in the
                                                          district. Schools were open, and the governor was aggressively pushing villages
                                                          to identify people who can become teachers. However, DoS warned that the
                                                          recent loss of an armored sport utility vehicle, supplied by the Canadian govern-
                                                          ment, would limit the governor’s ability to travel throughout the province.192
FIGURE 3.24                                                   In Panjwayi, according to DoS, the district governor has conducted numer-
                                                          ous village shuras. USAID’s Afghanistan Social Outreach Program (ASOP) shura
HELMAND DISTRICTS
                                                          has increased local citizens’ participation in the government in areas that were
                                                          historically intimidated by insurgent activity. Furthermore, because the Afghan
                                                          National Security Forces (ANSF) and ISAF control the area, freedom of move-
                                                          ment in the district remained very good, even into the summer fighting season.
                                                          DoS noted that despite the increase in activity this quarter, insurgents were less
                                                          active and effective than in the same period last year. The number of representa-
                                                          tives traveling from the region known as the Horn of Panjwayi—formerly held by
                                                          the Taliban—to the district council increased significantly. DoS cited this devel-
                                                          opment as an indication of a new willingness to engage with the government.193
                                              BAGHRAN
                                                              The DST has also been working closely with the district governor and other
                       MUSA QALA
                                                          officials to resolve a land dispute in Spin Boldak. The government had offered
                                                 KAJAKI
                                       NOW                land owners swaps in compensation for land for the construction of a large
                                        ZAD
                             VASHIR              SANGIN   border crossing project at a new control point at the Weish border in the district.
                                         NAHR-E SARAJ     Many owners had accepted the offer; however a dozen large landowners were
                          NAD ALI
            MARJAH                       LASHKAR GAH      still holding out at the end of the quarter.194
                        NAWA-I-BARAK ZAYI                     DSTs in other parts of Kandahar also worked to improve governance this quar-
                                                          ter. In Maiwand, the DST’s partnership with the district governor has increased
                                GARMSIR
                                                          interactions with villages outside the district.195 In Arghandab, the DST supported
                                                          the district governor’s efforts to increase staffing and improve the performance
                                                          and accountability of district employees.196
                            KHAN-E SHIN
               DISHU

                                                          HELMAND PROVINCE
                                                          In Helmand this quarter, the PRT and DSTs continued to engage regularly with
                                                          provincial and district leaders. Afghan civilian leaders in the province (Figure 3.24)
Source: USAID, “Afghanistan Provinces and Districts,”
9/9/2009.                                                 maintained an active outreach effort to build popular support for the government,



                                                            82                SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                     GOVERNANCE




according to DoS. This outreach has been extremely important in the Sangin
district, where DoS noted that sustained engagement with those opposed to the
central government is critical in building sustainable support for the GIRoA.197
   GIRoA officials were still able to travel by road in the central area of Helmand as
of June 30, 2011; however, travel by road to outlying districts—Musa Qala, Sangin,
Kajaki, Khan-e Shin, and Now Zad—remained difficult. In late May 2011, when
the provincial governor travelled to Sangin to test the level of security in northern
Helmand, insurgents attacked his motorcade. Until further security gains are made,
the governor will travel to northern Helmand by air, according to DoS.198
   DoS stated that tribal elders in Helmand continued to be more engaged with
the government this quarter. DoS did not note any particular evidence of tribal
elders returning to villages, although 600 elders registered for Garmsir’s District
Community Council (DCC) elections. Five new council seats were filled in the
elections on June 21, 2011. The Council included representatives from every
major town in the district and was holding regular meetings. Nad Ali district held
DCC elections on June 28, 2011. The creation of a 27-member interim DCC in
Sangin on May 24, 2011, was a major step toward drawing elders and community
leaders into the government, according to DoS.199

Eastern Afghanistan
                                                                                         FIGURE 3.25
Governmental control in eastern Afghanistan (Figure 3.25) remained tenuous
at the end of the quarter, according to DoS, as insurgent groups continued their         PROVINCES IN EASTERN AFGHANISTAN
attempts to establish authority in the area. The United States continues to part-
ner with the GIRoA to improve governance in the area.
   In Paktika, DoS stated that the GIRoA maintains moderate control. Insurgents’
shadow governments continued to compete effectively with the GIRoA for
authority in many districts by providing their own justice system. DoS stated that
the Paktika PRT and its DSTs are focused primarily on preparing Afghan officials
to assume responsibility for delivering services previously provided by the inter-
national community.200
   In Khowst, the governor, with PRT support, has conducted effective outreach
initiatives and raised support from Kabul, according to DoS. These efforts have
strengthened government control in the province and attracted applicants for
                                                                                                                           NANGARHAR
government positions. In addition, DoS noted that the governor engages with
religious and tribal leaders, which has improved security and increased support
for the GIRoA. DoS noted that the PRT has supported the Khowst government’s                                 PAKTIYA

efforts to update the provincial development plan by bringing working groups                                          KHOWST
together to identify priorities and secure funding.201
   In Nangarhar, DoS noted that the GIRoA has reasonable control of dis-
tricts along the main central highway that runs from the Khyber Pass through
                                                                                                  PAKTIKA
Jalalabad and to Kabul; however, government control in the mountainous
regions on the border with Pakistan is tenuous and unlikely to improve in the
near future, according to DoS. Crime persists in all districts. The PRT and DSTs
have focused on integrating various U.S. military and civilian efforts to build
capacity for GIRoA-led programs. In 8 of the 22 districts, the United States



             REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2011           83
GOVERNANCE




has been heavily engaged in the progress and funding of the GIRoA’s District
Development Program, which is designed to provide essential services nec-
essary for development by establishing a connection and trust between the
government and the people.202
   In Paktiya, the GIRoA controls population centers and surrounding areas
but has little control in rural areas, according to DoS. The government is pres-
ent and Afghan security forces are available in Gardez city (the capital) and in
six districts scattered throughout the province (Zormat, Ahmad Abad, Sayed
Karam, Mirzaka, Chamkani, and Dand Patan). Government capacity is poor in
three northern districts (Jaji, Lija Mangal, and Ahmad Khel). DoS noted that the
Paktiya PRT and civilian affairs teams have worked with the GIRoA to support
the engagement of key leaders and expand their outreach efforts to build local
governance capacity. As of June 30, 2011, the PRT had supported 250 GIRoA
engagements and conducted outreach efforts in every district but Jani Khel.203

Capacity Building for Public Administration
The United States is developing capacity in the GIRoA through a number of pro-
grams to improve the work of ministries, local and provincial governments, and
the civil service.

Performance-Based Governors’ Fund
As noted in previous SIGAR quarterly reports, USAID’s Performance-Based
Governors’ Fund is designed to increase the ability of governors to manage
key functions of their offices and extend community outreach programs. The
program is administered by the Asia Foundation and partners with the GIRoA’s
IDLG. USAID stated that it had obligated $16.3 million for the program as of
May 28, 2011.
   From March 2010 to March 2011, according to USAID, provincial governors
received $25,000 per month ($300,000 over a year) and disbursed 90% of those
funds.204 This quarter, the program received a $2.1 million extension until July 31,
2011; however, USAID stated that there is a congressional hold on the program; if
there is no change in status by mid-July, the program will have to close.205
   This quarter, an Asia Foundation program assessment for the 33 provinces
participating in the Fund showed an average score of 6.7 out of 10, slightly
higher than the 6.62 scored in the January 2011. The assessment measured
quality of programming, accountability and transparency, and improvements in
budget offices.206

Sub-National Governance Program
This quarter, USAID’s Sub-National Governance Program, implemented by the
National Democratic Institute, concentrated on elevating the quality and quantity
of connections between provincial councils and the central government. The pro-
gram has brought delegations of nearly all provincial councils to Kabul to meet
with key ministries, the IDLG, the National Assembly, and international donors.




  84                SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                             GOVERNANCE




The district governor of Sabari meets with tribal elders in Khowst province on June 16. GIRoA
officials are reaching out to local communities throughout the country to promise government
support, elicit cooperation, and enhance national unity. (U.S. Air Force photo, 1st Lt. Ken Scholz)


USAID noted that the MoF and the IDLG’s new Provincial Budgeting Program
will enable provincial councils to exercise slightly more leverage in budget delib-
erations. USAID stated that future training under the Sub-National Governance
Program plans will concentrate on taking advantage of the additional leverage.
The program has also worked with provincial councils to improve their capacity
to monitor and evaluate local projects.207
   As of June 30, 2011, USAID had obligated more than $6.3 million and
expended $5.7 million for the Sub-National Governance Program. The program
was designed to work very closely with the roll-out of a Provincial Council fund
by the Performance-Based Governors’ Fund, but the congressional hold on the
Governors’ Fund had halted implementation.208

Afghanistan Social Outreach Program
As of June 30, 2011, more than $20.3 million had been expended of the nearly
$23 million obligated for USAID’s Afghanistan Social Outreach Program (ASOP).
The program supports the IDLG’s efforts to develop district-level community
councils, in districts where there are no such councils. It has conducted 220
training exercises on management, good governance, conflict resolution, peace
building, and disaster risk reduction.209
   Although the program has faced challenges in providing stipends and complet-
ing training on established timelines, USAID noted that field staff and military
colleagues have praised the program. As of June 30, 2011, the program operated




               REPORT TO THE UNITED STATES CONGRESS          I   JULY 30, 2011              85
                                                  GOVERNANCE




                                                  in 118 districts. Of the 4,934 council members enrolled, 154 were women. The
                                                  program was recently extended until November 30, 2011.210

                                                  Afghanistan Civil Service Support
The ACSS has four main programmatic goals:        This quarter, USAID’s Afghanistan Civil Service Support (ACSS) program
• increase the capacity of the Afghanistan        received a $19.5 million extension until October 31, 2011. As of June 30, 2011,
  Civil Service Institute in the Civil Service    USAID had obligated more than $238 million for the ACSS; about $220.9 million
  Commission                                      had been expended.211 According to USAID, the program has faced three main
• implement the Commission’s Capacity             challenges:212
  Development Training Program in five com-
                                                  • Security in some provinces has made recruitment into the civil service
  mon functional areas and operationalize
                                                     difficult.
  hub training centers in regions
• link line departments in provinces to           • Restrictions on women’s mobility and their inadequate education levels have
  central ministries in Kabul                        limited the number of women capable of working in the government.
• build the capacity of the Civil Service         • The implementation of program management systems has been hindered by
  Commission to implement public                     deficient infrastructure in some provinces.
  administration reform effectively and
  transparently                                   JUDICIAL REFORM AND RULE OF LAW
Source: USAID, response to data call, 7/4/2011.
                                                  A U.S. assessment on June 15, 2011 stated that all facets of the rule of law must
                                                  be incorporated into the planning for transition to greater GIRoA control, and
                                                  that planning related to rule of law should emphasize sustainability. According to
                                                  DoS, these actions would help ensure that programs align with Afghan priorities,
                                                  are Afghan-led, and continue essential foundational investments.213
                                                     The dysfunction of Afghanistan’s formal justice system has been a major
                                                  reason for Afghans’ loss of trust in the government, according to the AREU.
                                                  Because of widespread corruption in the justice system, most individuals resolve
                                                  their disputes at the community level: Afghans see community justice as cheaper,
                                                  faster, and more transparent, the AREU noted.
                                                     Community-based dispute resolution is based on customary law intermixed
 Baad: a traditional means of settling dis-
 putes, often involving giving a young girl to    with Sharia law. Although questions remain over human rights and the treatment
 the family of the perceived victim of            of women, the use of more extreme customary practices, such as baad, is declin-
 a crime.                                         ing according to the AREU.214
                                                     In areas where the formal justice system is not present, the U.S. strategy
                                                  includes working with local authorities to reinvigorate Afghanistan’s informal
                                                  justice system in order to provide Afghans with access to justice. The intent is
                                                  to fill a vacuum that the Taliban cannot exploit. This is important because after
                                                  securing control of an area, the Taliban’s first priority is to attempt to control
                                                  justice mechanisms. In more stable areas, most serious crimes are referred
                                                  to the GIRoA’s formal justice system. This use of the formal justice system
                                                  indicates that it is beginning to earn and retain legitimacy with the people,
                                                  according to the AREU.215




                                                    86               SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                    GOVERNANCE




Criminal Procedure Code
Last quarter, the Taqnin—the Ministry of Justice’s (MoJ) legislative drafting
body—completed a review of the Criminal Procedure Code (CPC). The DoS
Bureau of International Narcotics and Law Enforcement Affairs (INL) subse-
quently found problematic inconsistencies between the CPC draft, the Afghan
Constitution, and international standards. During workshops held March 29–30,
2011, President Karzai’s legal advisor agreed to incorporate the Criminal Law
Committee of the Law Reform Working Group’s recommendations on improving
the draft. This quarter, however, an internal GIRoA conflict over what changes
should be made caused a delay, according to DoS. INL’s Justice Sector Support
Program (JSSP) was closely monitoring the issue and was informed by the
Taqnin that the matter would be resolved before September 2011.216

Judicial Security
Security for court officials and judges remained a problem this quarter, but U.S.
and Afghan officials were working to improve the situation. In Kabul, security
for court officials and judges had improved since June 2010, according to INL.
The Ministry of Interior’s (MoI) Judicial Security Unit (JSU) provides security for
judges and court facilities; it was providing security for the Supreme Court, the
Anti-Corruption Court, and the Counter-Narcotics Justice Center, as of June 8.
The JSU had 713 officers, all of them in Kabul, as of June 30, 2011; it had received
69% of its required weapons, 68% of its communications equipment, and 30%
of its vehicle allotment. According to INL, the JSU’s Threat Investigations Unit,
charged with investigating threats to court security, is functioning as designed.
The MoI was also reviewing the addition of 880 personnel to the JSU and the
expansion of its presence to four provincial courts—one for each Regional
Command area.217
    INL stated that judicial security in Nangarhar province has improved, par-
ticularly in the capital city of Jalalabad where the province’s central court, its
prison, and the Attorney General’s Office are located. The Rule of Law Field
Force - Afghanistan is providing support for several important security upgrades
at the court and prison. A shortage of professional security guards is the biggest
hindrance to physical security at these sites, according to DoS.218
    In Mazar-e Sharif, overall judicial security was poor, according to DoS. Judges
did not have secure living facilities, and courthouse security was minimal. Judges
have claimed that they have received threats and have requested additional secu-
rity. According to DoS, the overall security situation in Northern Afghanistan has
deteriorated and more security at courthouses is needed.219
    The lack of adequate judicial security in Helmand province remained a
problem this quarter. Insurgents continued to target Afghan judicial officials,
according to DoS; the courthouse in Lashkar Gah was the site of a recent attack.
DoS noted that judges and prosecutors have often refused to take assignments or
have left districts because of security concerns.220




             REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2011         87
                                                      GOVERNANCE




                                                      Access to Legal System
                                                      The judicial sector continues to lag behind the other two branches of govern-
                                                      ment in the promotion of women’s rights, although DoS noted some positive
                                                      gains with the inclusion of more women in the judiciary last quarter. In 2003, for
                                                      example, there were 50 female judges, but as of June 30, 2011, the number had
                                                      risen to 120. DoS observed no empirical evidence to suggest that cases involving
                                                      women proceeded more slowly through the court than cases involving men. Men
                                                      in the judiciary—particularly Sharia-educated holdovers from the Taliban era—
                                                      continue to strongly resist the advancement of women. Such resistance impedes
                                                      the advancement of female judges, prosecutors, and attorneys. As of June 30,
                                                      2011, despite the urging of the international community and Afghan civil society,
                                                      President Karzai had not yet nominated a female judge to the Supreme Court.
                                                      Female judges make up only an estimated 3.5% of the judiciary.221
                                                         However, some MoJ officials support donor efforts to help women advance
                                                      in the legal arena, including gender justice training for MoJ officials. DoS noted
  EVAW Law: The 2009 EVAW law provides                that gender justice training is important because women often face discrimina-
  a legal framework for the criminal inves-           tory court rulings, particularly in areas of the country dominated by Sharia law.222
  tigation, prosecution, and conviction of            For example, even though the act of running away from home is not illegal,
  22 offenses against women, including                women and girls continue to be arrested and prosecuted for it, according to DoS.
  harassment, physical assault, forced and            As noted by SIGAR in previous quarterly reports, law enforcement and judicial
  underage marriage, and deprivation of               officials at all levels of government have not forcefully implemented the 2009
  property or inheritance.                            Elimination of Violence Against Women (EVAW) law. As of June 23, 2011, it was
                                                      enforced in only 10 provinces, according to the UN Secretary-General.223 In addi-
                                                      tion, public awareness of the law is low.224
Source: DoS, response to SIGAR data call, 7/1/2011.


                                                      U.S. Support for the Judicial System
                                                      The United States has several programs designed to develop the Afghan judicial
                                                      system. Efforts include training lawyers, judges, and investigators, as well as
                                                      improving informal and formal legal processes. The United States also works to
                                                      ensure that the legal rights of women are understood and protected.

                                                      U.S. Justice Sector Support Program
                                                      This quarter, the U.S. Justice Sector Support Program (JSSP) conducted a num-
                                                      ber of conferences, seminars, and training sessions to build the capacity of the
                                                      Afghan criminal justice system. Topics included case management, the EVAW
                                                      law, crime scene investigation, the role of defense attorneys, constitutional
                                                      rights, and numerous other judicial issues. Also this quarter, 213 Afghans gradu-
                                                      ated from various Focused District Development-Law programs, a U.S.-run effort
                                                      to address the district-level corruption that impeded previous efforts to retrain
                                                      individual police. As of June 16, 2011, the JSSP was staffed at 79% of capac-
                                                      ity with 274 U.S., third-country national, and Afghan employees, including 135
                                                      lawyers.225




                                                        88                SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                           GOVERNANCE




Rule of Law and Stabilization Programs
This quarter, USAID exercised the first option year of its Rule of Law and                          USAID’s Rule of Law and Stabilization (RLS)
Stabilization - Formal (RLS-F) program, extending it until May 2012. As of                          program has two components—formal and
June 30, 2011, USAID had obligated more than $18.6 million for the RLS-F and                        informal. The formal program’s goals are to
projected an additional $15.1 million in future obligations. The program is being                   build the capacity of the judiciary, institute
implemented by DPK Consulting.226                                                                   a court management unit, build the capac-
                                                                                                    ity of law and Sharia school faculties, and
   In its first year, the RLS-F focused heavily on building the capacity of law
                                                                                                    increase public awareness of the formal
schools and the judiciary by delivering new textbooks, conducting moot court
                                                                                                    justice system. The informal program works
competitions, and providing technical support to the Supreme Court’s new entry
                                                                                                    to strengthen traditional dispute resolu-
education program. USAID noted that one result of these educational efforts                         tion by training village elders in dispute
was an increase in legal education opportunities for women: the proportion of                       resolution, Afghan law, and Sharia law. The
women enrolled in Supreme Court post-graduate training was about 20% (the                           informal program also works to strengthen
highest ever recorded), and 8 of the top 10 graduates were women. The program                       linkages between the formal and informal
also produced and broadcast 13,000 minutes of radio and television broadcast on                     justice system.
the rule of law. In addition, the program implemented a nationwide case man-
                                                                                                    Source: USAID, response to SIGAR data call, 7/4/2011.
agement system and helped the Supreme Court conduct its first-ever round of
nationwide court inspections, uncovering cases of corruption.227
   A recent U.S. assessment of the Afghan judiciary found the need to develop
core competencies, improve performance management, and build public trust.
The RLS-F is addressing these issues by working to improve the judiciary’s
capacity in financial management and budgeting, information technology, infra-
structure, human resources, strategic communications, and case management.228




Afghan police bag evidence and collect fingerprints during a crime scene investigation class
conducted by law enforcement professionals in Panjshir province on May 24. The four-day
class, funded by ISAF, trained police on criminal procedures, collecting and preserving evidence,
and other skills needed to further the rule of law. (U.S. Air Force photo, SrA Amber Ashcraft)




               REPORT TO THE UNITED STATES CONGRESS        I   JULY 30, 2011              89
GOVERNANCE




   As of June 30, 2011, USAID’s Rule of Law and Stabilization - Informal (RLS-I)
program had expended more than $12.9 million of the $14.5 million obligated for
the program. RLS-I is being implemented by Checchi and Company Consulting.229
   According to an assessment that USAID commissioned last quarter on the
informal justice program, traditional dispute resolution can quickly fill a gap in
justice administration in recently pacified areas, thereby preventing the Taliban
justice system from regaining a foothold. The assessment found that RLS-I had
strengthened the interface between the informal and formal justice system.
Anecdotal evidence also suggested a decline in non-Islamic practices such as
baad in eastern pilot districts, a key goal of the program.230

Detention and Corrections Practices
The Afghan corrections system continued to face numerous challenges this
quarter. Overcrowding, exponential prisoner growth, illiterate staff, political
interference, crumbling infrastructure, security threats, and a high rate of staff
attrition all affect the corrections system, according to DoS.231
    INL funds the Corrections System Support Program (CSSP), which partners
with the GIRoA to develop a safe, secure, and humane corrections system. In
operation since early 2006, the CSSP has more than 70 U.S. contract corrections
advisors and more than 170 Afghan staff. The CSSP has a permanent presence
in eight provinces, according to DoS. This quarter, progress continued on the
construction of new provincial prisons in Baghlan and Wardak. In addition, the
INL-funded security upgrades to the Central Prison Directorate (CPD) headquar-
ters in Kabul and renovations to the officer barracks and humanitarian upgrades
to the female portion of the Balkh provincial prison were completed.232
    INL also continued its support of prisoner classification and the case man-
agement system. Phase One of classification and case management system
implementation was completed, covering facilities at the Kabul Female Prison
and Detention Center, Pol-i-Charki, the Counter-Narcotics Justice Center, and
the Kabul Juvenile Rehabilitation Center, as well as in provincial prisons in
Nangarhar, Herat, Balkh, and Paktika. Phase Two was scheduled to begin in July
2011 in the provincial prisons of Kandahar, Bamiyan, Kunduz, Faryab, Jawzjan,
Baghlan, Parwan, and Takhar.233
    In April, immediately following the escape of 530 prisoners from the Sarposa
prison in Kandahar, INL developed a plan to address shortcomings at the prison.
It also reviewed the broader challenges within the correctional system (use
of turnkeys, upgrading security infrastructure, and night counts).234 The CSSP
established a 10-person mentoring and advisory team that works and lives at the
prison. Forty-four CPD soldiers completed a series of training courses, covering
prisoner count procedures, searches, and defense and control tactics, by mid-
July. INL expected the CSSP to increase the number of daily counts and weekly
searches, implement emergency exercise and executive development training,
and begin educational and vocational programs at the prison.235




  90               SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                    GOVERNANCE




   INL noted that the GIRoA had responded to the Sarposa incident by moving
the CPD from the MoJ to the MoI. INL and the CSSP will continue to work with
the GIRoA to ensure that the CPD remains an independent entity within the MoI
and that the transition occurs as smoothly as possible.236

ANTI-CORRUPTION
This quarter, the effects of corruption continued to undermine the GIRoA’s legiti-
macy. Corruption extends throughout local government structures, often to the
highest positions, according to the AREU. Most processes for delivering essential
services suffer from high levels of corruption. For example, according to the
AREU, World Food Programme supplies that are supposed to help poor Afghans
are often diverted by local government, line ministries, and the Afghan National
Police.237
   A report this quarter by Transparency International UK found that “corrup-
tion, weak institutions and a lack of economic development pose a fatal threat
to the viability of Afghanistan.”238 The nongovernmental organization made three
key recommendations on how to alleviate corruption:239
• Harness the public anger and societal damage that result in corruption and
    channel them into a force for change. The Afghan public is well aware of the
    current injustices and would be ready to participate in efforts to promote
    change.
• Make the fight against corruption a centerpiece of the GIRoA’s transition
    strategy. To halt the growth in corruption, scale up efforts to (1) reform
    institutions, (2) build integrity, and (3) curtail corruption immediately and
    dramatically.
• Change the international community’s financial procedures radically and
    urgently, especially those related to the money associated with massive
    security operations and contracts for goods and services. The international
    community must direct more effort into contracting with Afghan companies.

Improving Transparency and Accountability
On May 11, 2011, the Monitoring and Evaluation Committee (MEC)—an indepen-
dent anti-corruption body—held its inauguration ceremony in Kabul. According
to DoS, the MEC is tasked with developing clear and objective benchmarks for
anti-corruption initiatives. It will also prepare periodic reports on national and
international activity for the GIRoA, the Attorney General’s Office (AGO), and
the public. The MEC is composed of Afghans and international anti-corruption
experts.240

Progress in Prosecutions
This quarter, difficulties in prosecuting corruption cases continued: numerous
high-level corruption cases remain on hold, according to DoS. In May 2011, two
prosecutors from the Anti-Corruption Unit (ACU) interrogated a former governor




             REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2011       91
GOVERNANCE




of Kapisa on suspicion of embezzlement and misuse of duty powers. Within two
weeks, those prosecutors were transferred to remote provinces in what appeared
to be punishment for the investigation, according to DoS. As a result of this event
and last year’s bribery investigation of Karzai advisor Muhammad Zia Salehi,
DoS noted that prosecutors appear to be reluctant to pursue high-level officials.
As of June 30, 2011, the AGO’s investigations of 20 senior officials—which were
announced in November 2010—had not produced any prosecutions.241
   This quarter, a former Minister of Transportation was indicted and another
former Minister of Transportation was charged, arrested, and released on bail,
according to DoS. That case has been referred to the Anti-Corruption Tribunal
(ACT). In addition, a former advisor to the president and director of the
Investment Support Agency, an agency charged with facilitating and regulating
investments, was charged this quarter; the case was referred to the ACT. Two
other Afghans were charged with embezzling $700,000, which the GIRoA seized.
One of those individuals is in the United Kingdom, and the AGO is working to
extradite him back to Afghanistan, according to DoS.242
   Low-level corruption cases appear to be investigated without major impedi-
ments, according to DoS. DoS noted that lower-level officials may not have
enough power to cause problems for prosecutors.243

U.S. Anti-Corruption Program Assistance
The GIRoA has a number of departments that are tasked with fighting corrup-
tion. The U.S. supports their endeavors both programmatically and legislatively,
although these efforts have been slowed because of issues with the GIRoA’s com-
mitment to preventing and prosecuting corruption.

Anti-Corruption Unit
The ACU is capable of conducting investigations and putting on trials, accord-
ing to DoS; however, its organization of investigations and trial preparation and
advocacy has room for improvement. The U.S. Department of Justice (DoJ) does
not have confidence that ACU prosecutors can properly investigate or prosecute
complex or large-scale financial crimes, according to DoS.244
   To improve the sustainability of the GIRoA’s ability to conduct investigations,
this quarter, DoJ attorneys taught two basic courses to prosecutors from the
ACU and investigators from the Major Crimes Task Force (MCTF). According to
DoS, DoJ intends to continue to work with ACU prosecutors to identify and cor-
rect the ACU’s deficiencies. Specifically, DoJ is identifying prosecutors who can
teach and develop coursework before and after the transition to greater GIRoA
control. Because ACU prosecutors are no longer subject to polygraph examina-
tion, and no meaningful background checks and periodic re-investigations are
occurring, their reliability is questionable, according to DoS.245
   As noted in SIGAR’s April 2011 quarterly report, DoJ attorneys were again
allowed to mentor ACU prosecutors in February 2011 after a seven-month hiatus
following the fallout from the bribery investigation of Salehi, which had resulted




  92               SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                    GOVERNANCE




in DoJ mentors being barred from working with ACU prosecutors. Those men-
torships were initially limited to aged, low-level cases. Beginning in May and
June 2011, DoJ mentors were once again allowed meaningful access to some
of the ACU prosecutors who were working on more significant cases, accord-
ing to DoS. DoS noted that the ACU has no adequate case management system,
and DoJ mentors were unable to determine which cases were new and which
were being pursued as of June 30, 2011. DoJ plans to continue to mentor ACU
prosecutors.246

Major Crimes Task Force
According to DoS, the mentorship of the Federal Bureau of Investigation and
other international agencies has significantly improved the investigative capacity
                                                                                     SIGAR AUDIT
of the MCTF since its inception in September 2009. Afghan investigators from the     In an audit of the MCTF released this
MoI and National Directorate of Security have used sophisticated investigative       quarter, SIGAR identified funding and
techniques such as telephone wiretaps and global positioning system tracking to      reimbursement issues that U.S. imple-
conduct logical investigations. In addition, DoS noted that the MCTF’s leadership    menting agencies need to address. For
has demonstrated an ability to manage cases, investigators, and resources. The       details, see Section 1, page 6.
Combined Security Transition Command - Afghanistan, INL, and U.S. Central
Command provide the funding for the task force.247

Control and Audit Office
In May 2011, budget constraints caused USAID to stop funding technical assis-
tance to the Afghan Control and Audit Office (CAO), but the United States
continued to support assistance to the CAO through the UNDP’s Accountability
and Transparency project. In March 2011, the GIRoA approved a new CAO law
that was an improvement, according to DoS, although it has significant problems
and falls short of international standards.248

High Office of Oversight and Anti-Corruption
This quarter, a revision was proposed to the High Office of Oversight and Anti-
Corruption’s (HOOAC) founding legislation that would reduce the HOOAC’s
independence, according to DoS and USAID. The revision would expand the
HOOAC’s prosecution authority, which may be unconstitutional, according to
USAID. USAID expressed concern that expanded prosecutive powers in highly
partisan hands could lead to serious abuses. The HOOAC’s recently appointed
Director-General, who put forward the suggestions, told the U.S. Embassy that
the HOOAC had sufficient independence. USAID noted that the GIRoA has
repeatedly put partisans in leadership positions in newly created entities.249
   The HOOAC also introduced a complaints mechanism this quarter. DoS
characterized the effectiveness of the mechanism as “doubtful” but noted that
USAID will try to make the mechanism function. In addition, new HOOAC
leadership has de-emphasized the asset verification program through simplifica-
tion, according to DoS. USAID noted that weak asset verification would deprive
law enforcement of key pieces of evidence of corruption. USAID will support
HOOAC’s asset verification through September 2011.250



             REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2011       93
GOVERNANCE




HUMAN RIGHTS
A number of human rights issues continue to plague Afghanistan. This section
provides updated information on specific human rights issues related to detain-
ees and prisoners, displaced persons, refugees, and women’s rights.

Detainees and Prisoners
This quarter, UNAMA representatives visited 24 detention centers in 21 prov-
inces. They received allegations of ill treatment, lengthy detention without
charge or trial, and lack of access to defense counsel.251
   This quarter in Kabul, the non-governmental organization Women for Afghan
Women and INL opened the first post-release transition house for women leaving
prisons. INL provided the funding for the house. Residents will receive services
that include basic literacy and life-skills classes, vocational training and job
placement assistance, counseling, and health care.252

Displaced Persons
   As of June 1, 2011, there were more than 430,000 internally displaced persons
(IDPs) in Afghanistan, according to a study by the UN High Commissioner for
Refugees (UNHCR) and the World Bank. From June 2009 to April 2011, more
than 220,000 persons were displaced because of the conflict in Afghanistan.
Internal displacement is likely to continue, if not grow, as a result of the lack of
security.253 The study noted that economic betterment and food security draw
many IDPs to urban centers.254
   The survey found that displacement to urban areas is rarely temporary,
because the many IDPs from rural areas lack employment opportunities in their
places of origin. IDPs are usually more vulnerable and deprived than the urban
poor, often lacking jobs, access to quality housing, and food. Their skills are not
always adaptable to urban environments, and their literacy rates are lower than
the urban poor. More than 70% of IDPs in urban areas have no access to electric-
ity or adequate water and sanitation facilities. About 60% live in tents, temporary
shelters, or shacks.255
   The study recommended that the GIRoA and the international community
promote a number of initiatives to improve the lives of urban IDPs, including
the following:256
 • Engage in sustainable, integrated, and comprehensive solutions to displace-
    ment in urban areas.
 • Strengthen existing monitoring and coordination efforts that target
    the immediate needs of urban IDPs, particularly in the initial phases of
    displacement.
 • Integrate IDPs at the local level, because many are unwilling to return to
    their place of origin.




  94                SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                    GOVERNANCE




Refugees
According to UNAMA, the resumption of the UN’s voluntary repatriation pro-
gram in February had brought home more than 5,500 Afghan refugees as of
April 24, 2011. The program operates through a process that includes verification
of repatriation forms, a tutorial on mine awareness (many returnees use land that
has not been inhabited for decades), child vaccinations against polio and mea-
sles, and an allocation of $150 for each returnee. Although returnees may register
to acquire land in the center of the country, the waiting list is long, according to
the UN. Because many returnees go back to old properties that no longer have
adequate housing, the UNHCR plans to build 20,000 houses for returnees in 2011.
These houses would bring the number of houses built for returnees since 2002
to 220,000.257

Gender Equity
According to UNAMA’s Integrated Regional Information Network (IRIN), Afghan
women accused of having premarital sex continue to face penalties that fall
outside the penal code, including public humiliation, torture, and death. These
penalties are deep-rooted in the country, noted the Afghanistan Independent
Human Rights Commission.258 Medical workers are often tasked with proving a
woman’s virginity before a marriage. Those who fail virginity tests are often the
victims of rape, according to UNAMA. Relatives of those who fail the test may
feel they have been shamed and may commit honor killings in retribution.259
    Sexual intercourse outside marriage is a sin under Islamic law. The UNAMA
article cited a member of the Afghan Supreme Court’s penal bureau as saying that
illegitimate sexual relations should be punished, and those caught having sex
outside marriage could be sentenced to three to five years in prison, with stiffer
penalties for adulterers. The laws against extramarital sex are targeted mostly at
women, women’s rights activists told IRIN.260 From March 9 to June 23, 2011, the
Supreme Court upheld adultery convictions for women who were raped, accord-
ing to the UN Secretary-General; those convictions carried prison terms of up to
15 years.261

Women’s Shelters
This quarter, the Ministry of Women’s Affairs (MoWA) backtracked from its
controversial February 2011 draft regulation to take over women’s shelters,
according to DoS. On May 19, 2011, the Ministry submitted a heavily revised
regulation to the Council of Ministers, reflecting input from MoWA, nongovern-
mental organizations that provide shelter, and civil society organizations. The
most controversial provisions about access requirements and government inter-
vention from the February draft were removed. DoS stated that it expected the
proposed regulations to pass the Council of Ministers soon and come into effect
shortly thereafter.262




             REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2011         95
TITLE OF THE SECTION




 96    SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
ECONOMIC AND SOCIAL DEVELOPMENT




  ECONOMIC AND SOCIAL DEVELOPMENT
  As of July 30, 2011, the U.S. government had provided over $19.1 billion to
  support governance and economic development efforts in Afghanistan.263 As
  SIGAR has noted in previous quarterly reports, economic growth in Afghanistan
  remains highly dependent upon military and reconstruction spending provided
  by international donors. This quarter, the transition to greater Afghan con-
  trol took a significant step forward with President Obama’s troop withdrawal
  announcement. The announcement raised concerns about the impact of a poten-
  tial reduction in military and reconstruction spending on Afghanistan’s economy.
     The U.S. strategy, according to the U.S. Department of State (DoS), is to fore-
  stall the negative impact of potential decreased spending by helping the Afghans
  transform their subsistence-level agricultural economy into one that produces
  enough to develop internal and external markets, as well as enhance regional
  trade. A key part of this strategy is to develop Afghanistan’s mineral sector—
  putting in place the legal and regulatory framework that will enable future min-
  eral extraction to benefit the entire country and raise the standard of living.264
  This section includes updates on these efforts.
     This section also provides updates on these other key developments in
  Afghanistan’s economy this quarter:
  • the U.S. pledge to channel $90 million in direct assistance to the Government
      of the Islamic Republic of Afghanistan (GIRoA)
  • the first steps taken by the Afghan government to prosecute those allegedly
      responsible for the Kabul Bank crisis
  • efforts to integrate Afghanistan into regional trade networks
  • the rehabilitation of important transportation infrastructure
  • efforts to expand energy production

  ECONOMIC GROWTH
  Economic growth in Afghanistan remains positive, according to the World
  Bank’s June 2011 update. However, the Bank’s preliminary estimates show that
  growth is slowing—declining from 20.4% in fiscal year (FY) 2009/2010 to 8.2% in
  FY 2010/2011. Last year’s strong growth rate was due primarily to record wheat
  harvests and large increases in donor spending.265
     In a positive fiscal development, the GIRoA continued to improve its revenue
  collection. Revenue for FY 2010/2011 was approximately $1.5 billion, according
  to the Ministry of Finance (MoF). Although this remains well below the amount



               REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2011       97
                                                                  ECONOMIC AND SOCIAL DEVELOPMENT




TABLE 3.8                                                        of revenue needed to fund the GIRoA’s core budget, it represents a 26% increase
                                                                 over the previous fiscal year.266 Table 3.8 compares GIRoA revenues with expen-
FY 2010–2011 GIRoA CORE BUDGET:                                  ditures for FY 2010–2011. According to the World Bank, Afghan fiscal revenues
REVENUES AND EXPENDITURES
(BILLIONS)                                                       have grown by an average of about 20% annually over the past three years, owing
                                 Afghanis      U.S. Dollars      to improved customs and tax collection.267
Domestic revenues                     71.1               1.5        The World Bank also noted that the medium-term economic outlook in
Donor grantsa                       145.5                3.0     Afghanistan is good, provided certain goals are met: the GIRoA must be able to
Expenditures (core budget)           231.7               4.8     successfully transition security responsibilities to Afghan forces, foster political
Note: Af 48.5 = $1.                                              stability, and ensure fiscal sustainability. The Bank concluded that longer-term
a. Includes on-budget grants only; does not include off-budget
development assistance provided by foreign donors, which         economic growth is strongly tied to developing the mining sector and to support-
makes up the majority of reconstruction spending.
                                                                 ing the development of the agriculture and services sectors.268
Source: GIRoA, MoF, “1390 National Budget Draft
Statement,” pp. 2, 12.

                                                                 Customs Contribution to Revenue Collection
                                                                 The Afghan government is steadily improving its ability to collect revenue.
                                                                 According to a recently released GIRoA report, the Afghan Customs Department
                                                                 (ACD) collects approximately 50% of all government revenues.269 In the most
ASYCUDA (Automated System for Customs                            recent Afghan fiscal year, the ACD increased its revenue collection by 21% over
Data) is the leading system for customs                          the previous year.270 According to DoS, this is because more border and internal
modernization worldwide. Developed by the                        customs facilities in Afghanistan are using the ASYCUDA computerized system.271
UN Conference on Trade and Development                              DoS noted, however, that the ACD continues to require paper documentation
(UNCTAD), this software is the core compo-                       of the information it receives through the ASYCUDA system. This duplicative
nent of comprehensive, integrated customs                        requirement facilitates corruption by creating an opportunity for customs offi-
systems in more than 80 countries. It accel-
                                                                 cials to solicit bribes in return for signing the paperwork, according to DoS.272
erates customs clearances and simplifies
                                                                    A significant proportion of Afghan customs revenue comes from tariffs lev-
customs procedures.
                                                                 ied on imported vehicles. In the fourth quarter of FY 2010/2011, the government
Source: UNCTAD, “What is ASYCUDA,” accessed 7/8/2011.            raised the tariff on vehicles. As a result, tariffs on vehicles accounted for 25% of
                                                                 the revenue collected by the ACD in FY 2010/2011.273 Most vehicles imported into
                                                                 Afghanistan originate in Japan, Germany, China, and the United States, according
                                                                 to the ACD report.274 The ACD report also shows the extent to which trade imbal-
                                                                 ances persist in Afghanistan: more than 80% of imports are higher-value industrial
                                                                 products, while more than 70% of exports are lower-value agricultural products.275

                                                                 DIRECT ASSISTANCE
                                                                 This quarter, USAID announced that it will provide $90 million in direct, on-budget
                                                                 assistance to Afghan government ministries. The funds will support eight projects
                                                                 prioritized by the Afghan government, approved by the National Assembly, and
                                                                 managed by government ministries. The funds will go to the Ministry of Public
                                                                 Health, the Ministry of Education, the Ministry of Public Works, the Ministry of
                                                                 Communications and Information Technology, and the Ministry of Mines. USAID
                                                                 characterized this move as a key capacity-building step in the transition to full
                                                                 Afghan ownership and control of the reconstruction process.276 Over the last three
                                                                 years, the Ministry of Public Health and the MoF have worked together to con-
                                                                 tinuously improve the efficiency of procurement and financial process, according
                                                                 to USAID, creating a model for other ministries to adopt.277




                                                                   98                SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
ECONOMIC AND SOCIAL DEVELOPMENT




  Public Financial Assessments                                                            This quarter’s announcement of USAID’s
  One key to the successful implementation of direct assistance will be the capac-        direct assistance expands on the
                                                                                          agency’s efforts with Afghan government
  ity of Afghan ministries to administer funds in an accountable and transparent
                                                                                          ministries. In 2008, USAID entered
  manner. The international community and the Afghan government have launched
                                                                                          into a direct assistance agreement
  a collaborative effort to assess Afghan line ministries that will be receiving direct   with the Ministry of Finance and the
  assistance over the next two years, according to the U.S. Department of the             Ministry of Public Health to implement
  Treasury (Treasury). These assessments, called Public Financial Management              contracts for health services delivery.
  and Public Internal Financial Control (PFM) reviews, will be conducted by PKF           The following year, it signed a direct
  LLP, an international accounting firm headquartered in the United Kingdom.              assistance agreement with the Ministry
  Donors approved PKF’s assessment plan, and the MoF officially awarded the               of Communications and Information
  contract to conduct assessments on April 25, 2011.278 The team conducting these         Technology to implement a policy initia-
  assessments consists of 10 international and 3 Afghan consultants. According to         tive program.
  Treasury, one assessment has been completed, of the MoF; as of June 29, 2011,
                                                                                          Source: USAID, response to SIGAR data call, 7/19/2011.
  it had not been released. An assessment of the Ministry of Mines is under way,
  and assessments of the Ministry of Education and Ministry of Public Health will
  follow. Phase Two of the PFM project will assess seven more line ministries; it is
  scheduled to begin about September 12, 2011.279

  Other Technical Assistance
  Treasury is also working bilaterally with the MoF to develop proper oversight of
  expenditures and revenues. The goal is to strengthen the existing internal audit
  functions of each ministry or establish this capacity in ministries where it does
  not exist. This process entails another set of reviews, independent of the PFM
  assessments noted above, by the Ministry’s Internal Audit Department. Treasury
  provides technical assistance to the MoF for these reviews. Three had been com-
  pleted as of July 11, 2011, and four more were being completed.280

  Multilateral Trust Funds
  In addition to direct bilateral assistance, the United States and other interna-
                                                                                              SIGAR AUDIT
  tional donors will continue to provide a significant amount of funding for Afghan
  reconstruction through large, multilateral trust funds administered by interna-             In its audit of ANP personnel systems,
  tional organizations. Two of the most significant, as described in the Status of            SIGAR found that despite improve-
  Funds section of this report, are the Afghanistan Reconstruction Trust Fund                 ments, additional actions are needed to
  (ARTF) and the Law and Order Trust Fund for Afghanistan (LOTFA).281                         completely verify ANP payroll costs and
     As the transition to greater Afghan control approaches, these multilateral trust         workforce strength. ANP payroll costs
  funds are becoming increasingly important. They provide mechanisms to chan-                 are funded primarily through the LOTFA.
  nel more funding directly to the Afghan government, which donors (including                 For details, see SIGAR Audit 11-10
  the United States) agreed to in principle at the London Conference. As noted in             (www.sigar.mil).
  SIGAR’s audit of the ARTF, the international organizations that administer these
  trust funds provide some level of independent accountability and oversight.
  However, SIGAR’s audit concluded that World Bank oversight has some weak-
  nesses, and the GIRoA’s capacity to administer funds disbursed through the
  ARTF is limited. For details, see Section 1.




               REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2011          99
                                              ECONOMIC AND SOCIAL DEVELOPMENT




                                                In June, a senior advisor to the Finance Minister told the media that the ARTF
                                             was unable to release a scheduled $70 million disbursement to the GIRoA because
SIGAR AUDIT                                  the government had not produced a satisfactory plan to resolve the Kabul Bank
This quarter, SIGAR released an audit        crisis. He pointed out that if the issue is not resolved, it could affect the ability of
of the Afghan Reconstruction Trust           the Afghan government to pay civil servant salaries and continue operating.282 As
Fund (ARTF), which is administered           noted by SIGAR in its April 2011 quarterly report, the failure to adequately address
by the World Bank and helps pay the          the Kabul Bank crisis is holding up the renewal of the International Monetary
government’s operating costs, includ-        Fund’s (IMF) Extended Credit Facility (ECF) program in Afghanistan. Some
ing the salaries of non-military civil       donors to the ARTF (not including the United States) are legally barred from pro-
servants. For the past three fiscal years,   viding foreign aid to countries that do not have an ECF program in place.283
11–25% of Afghanistan’s budget has
been funded through the ARTF. For more       FINANCIAL SERVICES
information, see Section 1, page 9.          Issues related to Kabul Bank continued to dominate the financial sector this
                                             quarter. In late May, a commission appointed by President Karzai to investigate
                                             the bank’s collapse held a press conference to announce selected results of its
                                             review. According to summaries cited in a North Atlantic Treaty Organization
                                             (NATO) publication, the review concluded that several hundred borrowers,
                                             including members of the Karzai cabinet and the National Assembly, had taken
                                             out loans from the bank without proper documentation, collateral, or repayment.
                                             In fact, the commission alleged that less than 10% of all loans made by Kabul
                                             Bank were being repaid. The commission report, which has not been made pub-
                                             lic, was delivered to President Karzai and the Attorney General for decisions on
                                             how to proceed against those who defrauded the bank.284
                                                 Following these announcements, the GIRoA took the first steps to prosecute
                                             high-level corruption connected to the collapse of Kabul Bank. According to
                                             DoS, Afghanistan’s Attorney General said that Sherkhan Farnood (the bank’s
                                             former chairman) and Khaililullah Frouzi (the former chief executive) will be
                                             prosecuted. Both men were arrested and detained on June 29, but neither has
                                             been charged with a crime. The Attorney General’s Office announced that it
                                             plans to hold the men for interrogation for a month, after which it will refer
                                             their cases to the judiciary.285
                                                 The former head of the Afghan Central Bank, Abdul Qadir Fitrat, fled to the
                                             United States, telling the press he feared for his life. Subsequently, Afghanistan’s
                                             Attorney General issued a warrant to INTERPOL and the U.S. Embassy Kabul
                                             for his arrest, according to the DoS. Fitrat is charged with allegedly failing
                                             to act on warnings from Afghan intelligence and other entities about corrup-
                                             tion and embezzlement at Kabul Bank. DoS noted that the Afghan government
                                             announced that it plans to pass a verdict in his absence if it is unable to secure
                                             his return to Afghanistan.286

                                             Kabul Bank
                                             According to Treasury, the Afghan government announced this quarter that it will
                                             split Kabul Bank into two entities—one holding the bad loans, and one holding
                                             the remaining viable assets.287 The Minister of Finance also announced that the




                                               100                SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
ECONOMIC AND SOCIAL DEVELOPMENT




  Afghan government believes it had met all but two of the IMF’s requirements to
  resolve the Kabul Bank crisis. According to the Minister, the IMF requirement
  that the National Assembly approve a supplemental budget request to recapi-             SIGAR AUDIT
  talize the Central Bank (DAB) is still outstanding. The other requirement—an            This quarter, SIGAR released an audit of
  independent forensic audit of a second Afghan bank (identified as Azizi Bank in         banking and currency control systems
  SIGAR’s April 2011 quarterly report)—also remains outstanding. According to             in Afghanistan. Currency control is
  the MoF statement, the forensic audit of the second bank could start within three       particularly important because the
  months.288 The U.K. development agency, DfID, has agreed to provide $7 mil-             economy is largely cash-based. The
  lion to fund forensic audits of the Kabul and Azizi banks.289 In July, amid media       audit assesses the U.S. government’s
  reports of potential financial irregularities, members of Afghanistan’s National        control of U.S. funds that enter the
  Assembly demanded that the acting head of the Central Bank give them an                 Afghan economy, as well as U.S. efforts
  update on the financial condition of Azizi Bank.290                                     to support the development and regula-
     As noted by SIGAR in its April 2011 quarterly report, the GIRoA will have to         tion of Afghanistan’s financial sector.
  raise considerable revenue to recapitalize the Central Bank and cover the losses        For more information, see Section 1,
  from Kabul Bank.291 The National Assembly has reportedly rejected a request for         page 7.
  $73 million to finance the first phase of a recapitalization of the Central Bank.
  International donors, including the United States, are insisting that any funds to
  cover losses from Kabul Bank come from government revenues, not donor con-
  tributions for reconstruction assistance.292

  Microfinance
  As negotiations surrounding Kabul Bank continue, the United States is mov-
  ing forward with new programs to strengthen other components of the Afghan
  financial sector. This quarter, for example, USAID launched a five-year, $74 mil-
  lion project to help small businesses access financial products and services.293
  The Financial Access for Investing in the Development of Afghanistan (FAIDA)
  project is specifically targeted to help micro, small, and medium-size enterprises
  by doing the following:294
   • conducting region-specific value chain research to help design new financial
      products and services tailored to the needs of small and medium-size businesses
   • lowering financial transaction costs and risk by linking retail financial institu-
      tions with agricultural networks and others
   • reducing risks and increasing profits for Afghan financial institutions by pro-
      viding comprehensive advisory services
     USAID noted that as of April 2011, formal financial services had penetrated
  only 15% of the micro-enterprise sector and approximately 1% of the small and
  medium enterprise sector. Formal financing in the agriculture sector is especially
  lacking, according to USAID.295
     USAID has a history of encouraging microfinance institutions, including
  credit cooperatives, credit unions, microfinance village banks, and other similar
  institutions. USAID stated that, as of June 2011, it had disbursed nearly 185,000
  loans and $60 million in loan capital to seven microfinance partners through its
  implementing partners in Afghanistan. In addition, it had established 40 Islamic
  Investment Finance Cooperatives in Afghanistan, serving 73,000 members, with
  disbursements of nearly $54 million.296


               REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2011         101
                                                                ECONOMIC AND SOCIAL DEVELOPMENT




                                                               EMPLOYMENT
                                                               As noted by SIGAR in previous quarterly reports, it is not possible to definitively
    SIGAR AUDIT                                                measure progress toward the U.S. goal of increasing employment in the agricul-
    This quarter, SIGAR released an audit                      ture sector or any other sector. Nevertheless, USAID has estimated the number
    of USAID’s cooperative agreement with                      of jobs created through its cash-for-work programs this quarter, which provide
    CARE to provide cash-for-work op-                          short-term employment for vulnerable Afghan families, as shown in Table 3.9.
    portunities for vulnerable Afghans living
    in Kabul. For more information on this                     CROSS-BORDER COOPERATION
    audit, see Section 1, page 4.                              As noted by SIGAR in its January and April 2011 quarterly reports, Afghanistan
                                                               and Pakistan reached a historic transit trade agreement on January 11, 2011,
                                                               which will make it easier for Afghan trucks to transport Afghan products through
                                                               Pakistan to India. The agreement was scheduled to go into effect 30 days after
                                                               the ratification, but implementation has been held up by disagreements over
                                                               issues related to customs and financial guarantees for cargo and other issues.297
                                                               According to reports in a NATO publication, a key obstacle was Pakistan’s
                                                               insistence that Afghan traders deposit financial guarantees for Afghan cargo in
                                                               Pakistani or international banks.298
                                                                  This quarter, Presidents Karzai and Zardari announced that progress had been
                                                               made and full implementation of the agreement would move forward beginning
                                                               June 12, 2011.299 The United States played a key role in facilitating this agree-
                                                               ment, which replaces one negotiated in 1965.300 Despite the announcement,
                                                               however, there were reports that Afghan traders were still encountering difficul-
                                                               ties moving their goods in and out of Pakistan. The chief executive officer of the
                                                               Afghan Chamber of Commerce and Industries, for example, said in June that
                                                               700 Afghan-bound containers were stuck in Karachi ports, and 60 Afghan-bound
                                                               trucks were prevented from crossing the border at Torkham because of disputes
                                                               over banking guarantees for cargo.301
                                                                  In related developments this quarter, India announced that it would cut tariffs
                                                               and allow some Afghan goods to be imported duty free. According to a NATO pub-
                                                               lication, representatives of the Afghan Chamber of Commerce and Industries said
                                                               this move will help the country export more raw and dried fruit and nuts to India.302

TABLE 3.9


USAID CASH-FOR-WORK PROGRAMS: SHORT-TERM JOBS CREATED IN Q3 2011
Program                                Location       Number of Jobs    Types of Jobs                                                                     Compensation
Community Development Program          North          23,846            Manual labor: rehabilitating roads, installing electric pylons, constructing flood $5 per day
                                                                        walls, weaving carpets (women), establishing a women’s market
Community Development Program          Kabul          77,497            Manual labor: rehabilitating drainage canals, public parks, culverts, drainage    $5 per day
                                                                        ditches, and irrigation systems; constructing cricket fields; graveling roads;
                                                                        establishing tree nurseries;
                                                                        Handicrafts for women: making quilts and bags
Community Development Program          South, East,   64,303            Manual labor: carpentry, masonry, road graveling, rehabilitation of drainage      Salaries ranged from $6
                                       and West                         canals, culverts, drainage ditches, irrigation systems                            to $14 per day, depending
                                                                                                                                                          on skills and location
Afghanistan Stabilization Initiative                  1,821             Manual labor: work for masons, carpenters, electricians, trainers, and foremen    $7.58 per day, on average
Source: USAID, response to SIGAR data call, 7/4/2011.



                                                                102                     SPECIAL INSPECTOR GENERAL              I   AFGHANISTAN RECONSTRUCTION
ECONOMIC AND SOCIAL DEVELOPMENT




     Trade tensions between Tajikistan and Afghanistan increased this quarter.
  According to a Radio Free Europe/Radio Liberty report, beginning in April 2011,
  Tajikistan increased tariffs on Afghan goods transported over the Tajik state-
  owned railway system.303 Also this quarter, Tajikistan banned four Afghan transit
  firms from operating in that country, according to a NATO publication.304

  AGRICULTURE
  As noted by SIGAR in previous quarterly reports, wheat is the largest crop har-
  vested in Afghanistan and the country’s staple food. It makes up more than 70%
  of the Afghan diet, according to USAID.305 According to the U.S. Department of
  Agriculture (USDA), Afghans began harvesting spring wheat in May and will fin-
  ish in early August 2011.306
     After two consecutive years of abundant wheat harvests in Afghanistan, the
  USDA is forecasting a decline: one-third less production this year than last year.
  Heavy precipitation and snowfall in winter 2010 and early spring 2011 failed to com-
  pensate for an earlier drought that negatively affected seed germination. As a result,
  recent USDA satellite images show a 70% reduction in harvested crop acreage that
  depends on rainfall and a 5–10% drop in harvested crop acreage under irrigation.307
     Most of the decline will come in the major wheat-growing regions in
  Afghanistan’s north, which account for 70% of the country’s production, accord-
  ing to the USDA. Wheat in the north depends primarily upon rainfall; the majority
  of irrigated acreage is located in other regions, as shown in Figure 3.26.308
     Near-normal wheat production in the rest of central Asia means that Afghan-
  istan will likely be able to meet its domestic consumption needs with commercial
  imports, as is normally the case, according to the USDA. The poorest Afghans

  FIGURE 3.26

  DISTRIBUTION OF IRRIGATED AND RAINFED WHEAT CROPS                      (MILLION HECTARES)



        1.0
        0.9
        0.8
        0.7
        0.6
        0.5
        0.4
        0.3
        0.2
        0.1
          0
               North        North East      West     West Central   Central        South      East   South West


                  Rainfed       Irrigated
  Source: USDA/FAS, “Commodity Intelligence Report,” 5/11/2011.




                       REPORT TO THE UNITED STATES CONGRESS              I    JULY 30, 2011             103
                                                                      ECONOMIC AND SOCIAL DEVELOPMENT




                                                                    in the areas dependent upon rain-fed wheat will need assistance in the form
                                                                    of cash, food vouchers or imported food aid to meet their consumption needs.
                                                                    India, for example, has already pledged to export 250,000 metric tons of wheat
                                                                    to Afghanistan to help bolster the developing Afghanistan Strategic Grain
                                                                    Reserve and mitigate any grain shortages for humanitarian assistance this year.309
                                                                    Pakistan, which lifted its ban on wheat exports in December 2010, is once again
                                                                    the primary exporter of wheat to Afghanistan.310 Kazakhstan also exports wheat
                                                                    to Afghanistan.311
                                                                       As noted by SIGAR in previous quarterly reports, USAID has several
                                                                    programs to increase Afghan farmers’ access to modern farming methods,
                                                                    equipment, and tools. For example, USAID has provided two- and four-wheeled
                                                                    tractors to Afghan farmers, as shown in Table 3.10. In addition, this quarter
                                                                    USAID distributed the following packages to Afghan farmers to improve agricul-
                                                                    tural outcomes:312
                                                                     • 2,400 vouchers for yellow maize (2,000) and rice (400) packages in
                                                                        Nangarhar, Laghman, and Kunar provinces (IDEA-NEW)
                                                                     • 5,863 vouchers for packages of seeds and fertilizer for melons, vegetables,
                                                                        pulses, and forage in Kandahar (AVIPA-Plus)
                                                                     • 311 wheat seed and fertilizer packages in Kandahar and Uruzgan
                                                                        (AVIPA-Plus)

                                                                    PRIVATE-SECTOR DEVELOPMENT
                                                                    In a notable private-sector development this quarter, PepsiCo—one of the
                                                                    world’s largest food and beverage companies—announced a partnership with
                                                                    the Alokazay Group to build a $60 million bottling plant in Kabul. The plant will
                                                                    produce sodas, bottled water, and energy drinks for the Afghan market. The
                                                                    plant is expected to become operational in March 2012 and to provide more
                                                                    than 3,000 direct and indirect jobs for Afghans, according to the company’s
                                                                    announcement.313
TABLE 3.10


TRACTORS PROVIDED BY USAID TO AFGHAN FARMERS, AS OF JUNE 30, 2011
                                                                                                                                                                                    Number of Farmers
Program            Number of Tractors/Type                                                            Geographic Area Served                                                                   Served
AVIPA-Plus         906 four-wheeled tractors purchased by cooperatives                                Kandahar, Helmand                                                                           24,097
AVIPA-Plus         4,096 two-wheeled tractors purchased by individual farmers                         West, North, Northeast, and Central Afghanistan                                              4,096
AFSA               27 four-wheeled tractors purchased by Farm Store Centers for leasing               Kandahar, Helmand, Ghazni, Laghman, Kunar, Zabul, Kabul, Wardak,                             2,990
                                                                                                      Nangarhar, Logar
IDEA-NEW           92 two-wheeled tractors                                                            Balkh, Jawzjan, Sar-e Pul, Faryab, Samangan                                                       n.a.
Notes: AVIPA = Afghanistan Vouchers for Increased Production in Agriculture. AFSA = Afghanistan Farm Service Alliance. IDEA-NEW = Incentives Driving Economic Alternatives for North, East, and West.
Sources: USAID, responses to SIGAR data call, 7/16/2011 and 7/4/2011.




                                                                       104                          SPECIAL INSPECTOR GENERAL                   I   AFGHANISTAN RECONSTRUCTION
ECONOMIC AND SOCIAL DEVELOPMENT




  ESSENTIAL SERVICES
  This quarter’s highlights in essential services include a look at the first class
  of graduating students from the American University of Afghanistan (AUAF),
  the state of emergency repairs on the most important stretch of highway in
  Afghanistan, U.S. efforts to rehabilitate key energy infrastructure, and important
  new tools to develop Afghanistan’s mining sector. In addition, this subsection
  discusses the competitive advantages that state-owned companies enjoy in bid-
  ding for the rights to develop Afghanistan’s mineral resources, and an update on
  attacks against communications infrastructure.

  Education
  As noted by SIGAR in previous quarterly reports, higher education in Afghanistan
  has suffered from a lack of attention and investment for several years. As part
  of a strategy to address this concern, in 2008 USAID announced a five-year,
  $42 million cooperative agreement to help support the long-term development of
  the AUAF. This quarter, the AUAF achieved a significant milestone when it held
  its first commencement; 32 students graduated, including 8 women. The stu-
  dents earned bachelor’s degrees in business, information technology, computer
  science, political science, and public administration. According to USAID, enroll-
  ment at AUAF reached 789 this quarter; that number includes students who are
  taking intensive English-language courses in its Foundation Studies Program.314       Thirty-two new graduates, including eight
      This quarter, the U.S. Embassy Kabul honored Afghan scholars participating        women, receive diplomas from former U.S.
  in the Purdue/USAID Afghan Merit Scholar Program. With funding provided by a          Ambassador Karl W. Eikenberry at the first
  $34 million USAID cooperative agreement, Purdue University is providing junior        commencement of the American University
                                                                                        of Afghanistan, on May 26 in Kabul. Since
  faculty members of Afghan agricultural colleges with training that will lead to
                                                                                        2008, USAID has supported the university
  their receipt of a master’s degree in agriculture.315 The five participating Afghan   with a $42 million, five-year cooperative
  institutions are the universities of Kabul, Nangarhar, Balkh, Herat, and Kandahar.    agreement.
  The program also includes funding to help renovate infrastructure and modern-
  ize agricultural science curricula and agricultural laboratories in Afghanistan.316

  Transportation Infrastructure
  This quarter, USAID announced a partnership with the Ministry of Public Works
  to resume repair work on the Salang Tunnel in Parwan province. The 2.6-km
  tunnel through the Hindu Kush is the most important stretch of highway in
  Afghanistan, according to DoS, because it is the main transit route connecting
  northern Afghanistan with Kabul. Each day, 7,000 vehicles use the tunnel to pass
  through the mountains of the Hindu Kush between northern Afghanistan and
  Kabul. There is no other all-weather transit route connecting northern and south-
  eastern Afghanistan. All other routes crisscross the mountains at high elevations
  and run in part on unpaved trails with stream and river crossings, which are
  closed during the harsh winters.317
     Built by the former Soviet regime in 1962, the tunnel will become impassable if
  emergency repairs are not made soon. USAID worked with the Ministry to plan,
  design, and put out bids for the emergency repair work. The Ministry will pave




               REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2011       105
                                            ECONOMIC AND SOCIAL DEVELOPMENT




                                           Repair work resumes on the Salang Tunnel in the Hindu Kush mountain range, the only year-
                                           round link between northern Afghanistan and Kabul. The project, which is conducted by the
                                           Ministry of Public Works and USAID, will ensure that 7,000 vehicles can continue to use the
                                           tunnel each day. (CJTF-101 photo, SGT Scott Davis)


                                           1.2 km of the tunnel; USAID will pave the remaining 1.4 km and the approaches to
                                           the tunnel. The World Bank will fund the permanent reconstruction of the tunnel,
                                           according to DoS. Permanent reconstruction is expected to begin in 2014, after an
                                           alternate bypass (the Dushi-Bamyan-Parwan Highway) is completed.318

                                           Energy
                                           From 2005 to July 2011, USAID had invested $670 million in energy infrastructure
SIGAR AUDIT                                in Afghanistan.319 Despite this investment, the GIRoA continues to rely heav-
A SIGAR audit of Afghanistan’s energy      ily on imported energy to meet its domestic consumption needs. U.S. efforts
supply estimated that installed capacity   to increase domestic power generation continued this quarter as Ambassador
was 1,029 MW in September 2009;            Eikenberry announced a $40 million U.S. pledge to restore the output of the
production still remains far below that    Kude Burq Fertilizer and Power Plant in Mazar-e Sharif. The plant was designed
figure. For more information, see SIGAR    to generate 48 megawatts (MW) of power, but the plant and the gas pipeline
Audit 10-4, “Afghanistan’s Energy          that supplies it are heavily degraded. Today, the plant produces only 20% of its
Supply Has Increased but an Updated        designed capacity. Once restored, the plant will help reduce Afghanistan’s depen-
Master Plan Is Needed, and Delays and      dence on foreign supplies by adding 30 MW of electricity to the national power
Sustainability Concerns Remain”            grid, according to the Ambassador. The plant employs 2,500 Afghans.320
(www.sigar.mil).                               As noted in SIGAR’s January 2010 quarterly report, a key part of another major
                                           energy project—installing the third turbine at the Kajaki Dam—was suspended in
                                           December 2009. Work on the dam has been hampered by the inability to deploy
                                           private security contractors and sustained insurgent activity in the area, accord-
                                           ing to USAID. This is important because substantial truck convoys are needed to



                                             106                 SPECIAL INSPECTOR GENERAL     I   AFGHANISTAN RECONSTRUCTION
ECONOMIC AND SOCIAL DEVELOPMENT




  deliver large infrastructure to the Kajaki Dam and nearby substations, according
  to USAID, and to complete substation and distribution work. USAID reported
  this quarter that the private security contractor issue has now been resolved,
  and a contract has been signed with a newly licensed private security contractor.
  According to USAID, the third turbine will add 18.5 MW of power.321
     Two of the three Kajaki Dam turbines are currently providing electricity to
  Helmand province. This quarter, Regional Command - Southwest reported that
  the U.S. Army Corps of Engineers installed a new piece of equipment (a switch-
  ing center) to help protect the current generators from damage caused by hard
  shutdowns. The practical effect, according to the Command, will be to reduce
  the number of power outages caused by shorts and overloads, as well as the
  duration of power outages.322
     In addition to hydroelectric power, Afghanistan has the potential to gener-
  ate power from reserves of natural gas. As noted in SIGAR’s January 2010
  quarterly report, in the 1980s Afghanistan’s exports of natural gas provided
  more than $300 million annually in revenues. During his visit to Mazar-e Sharif,
  Ambassador Eikenberry noted that the U.S. government will assist the Ministry
  of Mines in identifying, quantifying, and developing new natural gas reserves
  in Sherberghan. This is part of a joint effort in which the Ministry, the Asian
  Development Bank (ADB), and other donors will invest in a gas sweetening
  facility, new gas pipelines, and power transmission infrastructure. The goal is to
  leverage a $300 million investment to construct a privately owned 200 MW power
  plant in Sherberghan; that investment is supported by the U.S. Overseas Private
  Investment Corporation.323
     Meanwhile, implementation of the Turkmenistan-Afghanistan-Pakistan-India
  (TAPI) natural gas pipeline was delayed again this quarter. DoS stated that the four
  participating countries are negotiating gas prices, hoping to reach an agreement
  later this summer. They are also looking for an international energy company to
  invest in the project to ensure that adequate resources and expertise are available.324
     As noted in a SIGAR audit in 2010, among the reasons for Afghanistan’s con-
  tinued dependence upon foreign energy supplies is its lack of a master energy
  sector plan that establishes priorities, time frames, and costs associated with
  energy sector goals. In addition, Afghanistan lacks the primary physical infra-
  structure to generate domestic power, according to USAID.325
     In April 2011, the ADB finalized an agreement with the Ministry of Energy and
  Water (MEW) for a $1.5 million technical assistance grant to help update the
  country’s master energy plan. The goal of the project is to identify major load
  centers throughout the country, forecast their growth over the next 20 years, and
  produce a plan to develop enough domestic and foreign supplies to meet these
  needs. In addition, the project will identify the transmission network to connect
  power-generating facilities to these load centers. The grant also includes a capac-
  ity-building component to train MEW officials to analyze power sector data.
  The ADB is the largest international agency supporting Afghanistan’s energy
  sector. It agreed to take the lead in developing an energy sector master plan for
  Afghanistan after consulting with USAID, the World Bank, and other donors.326



               REPORT TO THE UNITED STATES CONGRESS    I   JULY 30, 2011          107
                                                                 ECONOMIC AND SOCIAL DEVELOPMENT




                                                                Mining
                                                                As noted by SIGAR in previous quarterly reports, Afghanistan has considerable
                                                                undeveloped mineral resources, and the U.S. government has targeted this sector
        “Mining and                                             for growth. To support this goal, the U.S. government funded the establishment
                                                                of a new, high-tech geological data center, which was opened this quarter by
     hydrocarbons are                                           the Ministry of Mines. It will be the central repository for all information on
  Afghanistan’s best hope                                       Afghanistan’s mineral resources. The new center was funded by the Task Force
     for achieving self-                                        on Business Stability Operations (TFBSO) and designed by experts from IBM,
   sustaining economic                                          the U.S. Geological Survey (USGS), and the TFBSO.327
                                                                   According to the Ministry, the recent work completed by the USGS in
    growth, and we are
                                                                Afghanistan has created the most extensive mineral dataset ever compiled for a
  working closely with the                                      single country. This dataset can help potential investors identify economic devel-
  Afghan government and                                         opment opportunities, according to the TFBSO.328 Although security remains a
  Minister Sharani to build                                     major challenge to developing Afghanistan’s mineral resources, some private-
     the foundations of                                         sector companies are showing an interest. Last year, according to media reports,
                                                                the TFBSO facilitated an investment by JP Morgan and partners to develop
        this sector.”                                           a gold mine in Afghanistan. This quarter, the TFBSO stated that it has placed
                            —U.S. Ambassador                    teams of international technical and legal experts in the Ministry of Mines to help
                            Karl W. Eikenberry                  develop a transparent bid and tender process.329
                                                                   The new dataset came online as more countries in the region have expressed
  Source: DoS, U.S. Embassy Kabul, “Ambassador                  interest in developing Afghanistan’s mineral sector to meet their own develop-
  Eikenberry Remarks at Northern Fertilizer and Power Plant,”
  6/12/2011.                                                    ment needs. Indian companies, for example, are bidding for the rights to develop
                                                                the Hajigak iron ore deposit, one of the largest deposits remaining in the world.
                                                                Iron ore is a key ingredient in making steel, and India requires large quantities
                                                                of steel for its development, according to a NATO publication. Fifteen of the
                                                                22 firms that have expressed an interest in bidding on the rights to Hajigak are
                                                                Indian companies, several of them state-owned. In addition, the publication
                                                                noted, the Indian government has agreed to partially finance the deal if an Indian
                                                                company’s bid is accepted.330
                                                                   Increasingly, state-owned companies are gaining an advantage over private-
The United States is developing a multi-                        sector companies in bidding for the rights to develop the mineral sector because
year strategy to develop the capacity of the                    of requirements that successful bids include commitments to build infrastruc-
Ministry of Mines. It will engage private-                      ture in Afghanistan. The Hajigak tender announcement, for example, stated that
sector consultants to gather geologic data                      the winning bidder will be expected to participate in infrastructure initiatives
and prepare a series of tenders. The goal is                    in Afghanistan, including building or refurbishing railways and electric power
to ensure that the Ministry has the capacity
                                                                generation facilities. The announcement also stated that preference will be given
to manage the extractives industries sector
                                                                to companies that can mine the ore and also build facilities to produce steel in
within three to five years.
                                                                Afghanistan.331 A NATO publication noted that one of the state-owned companies
Source: DoS, U.S. Embassy Kabul, “Ambassador Eikenberry         interested in the Hajigak deposit is proposing to build a large steel-producing
Remarks at Northern Fertilizer and Power Plant,” 6/12/2011.
                                                                facility in Afghanistan as part of its bid.332 As SIGAR has noted in previous quar-
                                                                terly reports, the state-owned Chinese company that won the rights to develop
                                                                the Aynak copper deposit committed to build a freight railway connecting Kabul
                                                                to Pakistan and Uzbekistan.333




                                                                 108               SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
ECONOMIC AND SOCIAL DEVELOPMENT




     In other mining developments, the third international conference on Afghan
  marble took place in Herat in June. Hosted by the Ministry of Mines and sup-
  ported by funding from USAID, the conference attracted 24 companies from
  Italy, India, the United States, Turkey, and Turkmenistan. The conference opened
  with a ribbon-cutting ceremony for the Doost Marble Plant—a modern, $6 mil-
  lion plant to process marble in Herat that was built with USAID support and
  assistance from other international donors. Afghanistan has more than 100 high-
  quality varieties of marble, according to USAID, which estimated existing marble
  exports at $15 million annually. USAID noted that with improved production and
  infrastructure investments, the Afghan marble industry has the potential to grow
  to $450 million annually.334

  Communications
  As noted in SIGAR’s January 2011 quarterly report, the growth of telecommu-            This quarter, the World Bank signed an
  nications is one of Afghanistan’s success stories. More than half of all Afghan        agreement to provide the GIRoA with a
  households have access to at least one cell phone, and the World Bank forecast that    $52 million grant to support the develop-
  cell phone subscriptions in Afghanistan will reach 19 million by the end of 2011.      ment of competitive and transparent natural
     The growth of this industry has attracted the attention of insurgents, who have     resource bidding and tendering procedures,
                                                                                         and to build the regulatory and compliance
  tried to disrupt cell phone coverage. The U.S. Department of Defense noted that
                                                                                         capacity of the Afghan government in
  in the first two quarters this year, there were 52 attacks against cell phone towers
                                                                                         this sector.
  and infrastructure provided by the following companies:335
   • Mobile Telephone Networks-Afghanistan: 12                                           Source: World Bank, press release, “Government of
                                                                                         Afghanistan Signs $52 Million Grant with the World Bank
   • Afghan Wireless Communication Company: 16                                           Aimed at Transparently and Effectively Managing Its Untapped
                                                                                         Natural Resources,” 7/16/2011.
   • Etisalat: 2
   • Roshan: 11
   • Wasel: 1
   • Unknown: 10 (reporting did not specify)
     In 2011, the Department of Defense reported three ongoing efforts to
  support and maintain cellular communications networks in Afghanistan:
  (1) the International Security Assistance Force’s $68 million program—the
  Expeditionary Cellular Communications System—to provide 24/7 cellular
  coverage throughout Regional Commands - South and Southwest; (2) a $2 mil-
  lion Village Stability/Emergency Cellular System program under the Combined
  Forces Special Operations Component Command; and (3) a $13 million cellu-
  lar tower installation for Regional Command - East. The U.S. Embassy Kabul’s
  Public Affairs Section stated that it is in the process of contracting for seven
  additional 80-meter self-supporting cell phone towers.336




               REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2011        109
               Maintaining Borders
               A U.S. helicopter crew unloads medical supplies at the newly
               built Afghan Border Police Zone 1 Headquarters on June 4.
               The United States is working on 37 infrastructure projects
               to enhance the ability of the Afghan government to guard its
               borders. (U.S. Army photo, SGT Kim Browne)




110   SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
4   OTHER AGENCY
    OVERSIGHT




        111
TITLE OF THE SECTION




112    SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                               OTHER AGENCY OVERSIGHT




OTHER AGENCY OVERSIGHT
SIGAR’s enabling legislation requires it to keep the Secretary of State and the
Secretary of Defense fully informed about problems relating to the administration
of reconstruction programs. SIGAR coordinates its work with various inspectors
general and other audit agencies. Each quarter, SIGAR requests updates from
other agencies on completed and ongoing oversight activities. Their descriptions
appear as submitted, with changes only for consistency with other sections of this
report (acronyms and abbreviations; standardized capitalization, hyphenation,
punctuation, and preferred spellings; and third-person construction).
   These agencies are performing oversight activities in Afghanistan and provid-
ing results to SIGAR:
 • U.S. Department of Defense Office of Inspector General (DoD OIG)
 • U.S. Department of State Office of Inspector General (DoS OIG)
 • Government Accountability Office (GAO)
 • U.S. Army Audit Agency (USAAA)
 • U.S. Agency for International Development Office of Inspector General
    (USAID OIG)

COMPLETED OVERSIGHT ACTIVITIES
Table 4.1 lists the eight oversight projects related to reconstruction that the par-
ticipating agencies reported were completed this quarter.

TABLE 4.1


RECENTLY COMPLETED OVERSIGHT ACTIVITIES OF OTHER U.S. AGENCIES, AS OF JUNE 30, 2011
Agency        Report Number        Date Issued     Project Title
DoD OIG       D-2011-073           6/16/2011       Afghanistan National Army Equipment Maintenance Apprenticeship and Services Program Contract
DoD OIG       D-2011-063           5/6/2011        (U) Antiterrorism Programs for U.S. Forces at Kandahar Airfield, Bagram Airfield, Camp Eggers, and New Kabul Compound Need
                                                   Improvement
GAO           GAO-11-355           6/8/2011        Afghanistan: U.S. Efforts To Vet Non-U.S. Vendors Need Improvement
GAO           GAO-11-561           6/3/2011        Combating Terrorism: U.S. Government Should Improve Its Reporting on Terrorist Safe Havens
GAO           GAO-11-456           5/26/2011       Military Training: Actions Needed To Improve Planning and Coordination of Army and Marine Corps Language and Culture Training
GAO           GAO-11-580           4/25/2011       Contingency Contracting: Observations on Actions Needed To Address Systematic Challenges
USAID OIG F-306-11-003-P           6/19/2011       Audit of USAID/Afghanistan’s Support to the Electoral Process (STEP) and Support for Increased Electoral Participation in
                                                   Afghanistan (IEP) Programs
USAID OIG F-306-11-004-S 6/9/2011                  Review of USAID/Afghanistan’s Portion of the Embassy Air Program
Sources: DoD OIG, response to SIGAR data call, 6/24/2011; GAO, response to SIGAR data call, 6/29/2011; USAID OIG, response to SIGAR data call, 6/20/2011.




                   REPORT TO THE UNITED STATES CONGRESS                      I   JULY 30, 2011                      113
      OTHER AGENCY OVERSIGHT




U.S. Department of Defense Office of Inspector General
Afghanistan National Army Equipment Maintenance
Apprenticeship and Services Program Contract
(Report No. D-2011-073, Issued June 16, 2011)
The Kabul Regional Contracting Center - Afghanistan (KRCC-A), Defense
Contract Management Agency (DCMA), and the North Atlantic Treaty
Organization Training Mission - Afghanistan/Combined Security Transition
Command - Afghanistan (NTM-A/CSTC-A) took actions addressing whether
contractual requirements were met and adequate contractor surveillance was
conducted before or during the audit. Specifically, KRCC-A personnel denied
the contractor’s request for equitable adjustment for parts reimbursement, and
DCMA personnel denied the contractor’s proposal for additional warehouse
space. Additionally, in response to issues identified by the audit team, DCMA
personnel suspended most of the contractor’s procurement activities for Class IX
items because DoD OIG identified significant discrepancies in the contractor’s
Class IX inventory accountability records and directed the contractor to conduct
a 20% inventory of the Central Maintenance Facility because DoD OIG identified
inaccurate inventory records.
   NTM-A/CSTC-A officials stated they used the results of this audit to revise
the performance work statement of the Afghanistan - Technical Equipment
Maintenance Program (A-TEMP) contract, which was awarded on December
30, 2010, and replaced the Equipment Maintenance Apprenticeship and Services
(EMAS) Program contract. The revisions included the removal of Afghan
National Army (ANA) supply chain management as a contractor-provided func-
tion and instead turned that responsibility over to the ANA Logistical Command
with contractor advisor-mentor support. The A-TEMP contract also requires
the contractor to design a training program suited to the low literacy rates of
ANA personnel and establish Mobile Training Teams to deploy to training sites
as needed, instead of establishing apprentice programs at every site as required
under the EMAS contract.

(U) Antiterrorism Programs for U.S. Forces at Kandahar Airfield,
Bagram Airfield, Camp Eggers, and New Kabul Compound
Need Improvement
(Report No. D-2011-063, Issued May 6, 2011)
This report is classified.

U.S. Department of State Office of Inspector General–
Middle East Regional Office
The DoS OIG Middle East Regional Office reported completing no new audits
related to Afghanistan reconstruction this quarter.




  114                SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                      OTHER AGENCY OVERSIGHT




Government Accountability Office
During the last quarter, GAO issued four reports related to Afghanistan
reconstruction.

Afghanistan: U.S. Efforts To Vet Non-U.S. Vendors
Need Improvement
(Report No. GAO-11-355, Issued June 8, 2011)
While DoD’s U.S. Central Command (CENTCOM) has established a vetting cell
to vet non-U.S. vendors in Afghanistan to minimize the risk of insurgents or
criminal groups using contracts to fund their operations, its current approach for
selecting vendors to vet has gaps. For example, vendors with contracts below
$100,000 are not routinely vetted. Subcontractors are also not routinely vetted.
In January 2011, USAID created a process intended to vet non-U.S. implement-
ing partners in Afghanistan; however, this process may face similar limitations
as CENTCOM’s. The Department of State (DoS) had not developed a process
to vet contractor firms in Afghanistan. DoD and USAID share vetting informa-
tion informally, but without a formal mechanism to share vetting results the two
agencies cannot ensure that their current practices will endure. Further, as DoS
expands its use of local contractors, it will become imperative that it is part of
the data sharing with DoD and USAID. GAO recommended that DoD and USAID
make improvements to its vetting processes and information sharing and that
DoS assess the need for and possible options to vet non-U.S. vendors. DoD and
USAID concurred with GAO’s recommendations. DoS generally concurred.

Combating Terrorism: U.S. Government Should Improve Its
Reporting on Terrorist Safe Havens
(Report No. GAO-11-561, Issued June 3, 2011)
DoS identifies existing terrorist safe havens in its annual Country Reports on
Terrorism but does not assess them with the level of detail recommended by
Congress. For example, the August 2010 Country Report lists 13 countries as terror-
ist safe havens, including Afghanistan. However, none of the assessments in the DoS
report included information on the actions taken by countries identified as having
terrorist safe havens to prevent trafficking in weapons of mass destruction through
their territories. Further, the U.S. government has not fully addressed reporting
requirements to identify U.S. efforts to deny safe haven to terrorists. For example,
some DoD train-and-equip activities funded through the department’s Global
Train and Equip “Section 1206” and country-specific funding accounts, such as the
Afghanistan and Iraq Security Forces Funds, contribute to addressing terrorist safe
havens. However, these U.S. efforts are not identified in the August 2010 Country
Report on Terrorism. GAO recommends that DoS and the National Security Council
improve reporting on assessments of and U.S. efforts to address terrorist safe
havens. DoS concurred with the DoD OIG recommendation on assessments. DoS
partially concurred with the recommendation on U.S. efforts to address terrorist
safe havens, citing other reports it completes related to counter-terrorism.



             REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2011        115
      OTHER AGENCY OVERSIGHT




Military Training: Actions Needed To Improve Planning
and Coordination of Army and Marine Corps Language and
Culture Training
(Report No. GAO-11-456, Issued May 26, 2011)
The Army and Marine Corps developed service-specific language and cul-
ture strategies, but did not include some key elements to guide their training
approaches, such as assign responsibilities for program performance prior
to designing and implementing their training programs. Further, DoD com-
ponents identified varying language and culture training requirements for the
Army and Marine Corps. For example, in July 2010 the Army required that
all forces deploying to either Afghanistan or Iraq complete a four- to six-hour
online training program for language and culture. In September 2010, a senior
Marine Corps commander directed that ground units preparing for Afghanistan
deployments complete a two-day culture course. GAO recommends that the
Army and Marine Corps assign responsibilities for program performance and
identify training investments and metrics; that DoD establish a defined plan-
ning process with internal mechanisms, such as procedures and milestones,
to align training efforts; and that U.S. Central Command establish a process to
identify and synchronize training requirements. DoD generally agreed with the
recommendations.

Contingency Contracting: Observations on Actions Needed To
Address Systematic Challenges
(Report No. GAO-11-580, Issued April 25, 2011)
DoD faces longstanding and systemic challenges that hinder its ability to achieve
more successful contracting and acquisition outcomes. The issues encountered
with contracting in Iraq and Afghanistan are emblematic of these systemic chal-
lenges, though their significance and impact are heightened in a contingency
environment. DoD has announced new policies, guidance, and training initia-
tives. While DoD’s actions are steps in the right direction, DoD needs to
(1) strategically manage services acquisition, including defining desired outcomes;
(2) determine the appropriate mix, roles, and responsibilities of contractor, federal
civilian, and military personnel; (3) assess the effectiveness of efforts to address
prior weaknesses with specific contracting arrangements and incentives; (4) ensure
that its acquisition workforce is adequately sized, trained, and equipped; and
(5) fully integrate operational contract support throughout the department
through education and predeployment training. DoS and USAID face contracting
challenges similar to DoD’s, particularly with regard to planning for and having
insight into the roles performed by contractors. GAO has made multiple recom-
mendations to the agencies to address contracting and workforce challenges.
The agencies have generally agreed with the recommendations and have efforts
under way to implement them.




  116                SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                      OTHER AGENCY OVERSIGHT




U.S. Army Audit Agency
The U.S. Army Audit Agency reported completing no new audits related to
Afghanistan reconstruction this quarter.

U.S. Agency for International Development
Office of Inspector General
This quarter, USAID OIG issued two audits related to Afghan reconstruction.

Audit of USAID/Afghanistan’s Support to the Electoral Process
(STEP) and Support for Increased Electoral Participation in
Afghanistan (IEP) Programs
(Report No. F-306-11-003-P, Issued June 19, 2011)
USAID OIG conducted this audit to determine whether the IEP and STEP pro-
grams were achieving their main goal of strengthened competitive, inclusive,
and credible elections and political processes.
   The STEP program has performed well in achieving outputs—in particu-
lar, those dealing with civic education and outreach, training, and staffing of
the Independent Election Commission (IEC) and the Electoral Complaints
Commission (ECC). The program has helped increase the capacity of both
commissions to administer elections and has contributed to the credibility of
elections themselves, although evidence of progress toward achievement of
higher-level results is mixed.
   The IEP program has also performed well in achieving outputs, including
training tens of thousands of Afghans who participated in elections as political
party or coalition members and election observers. Furthermore, IEP imple-
mented civil and voter education programs that reached hundreds of thousands
of people. However, there is no persuasive evidence that these outputs have
influenced the achievement of higher-level results such as increased citizen
awareness of the electoral process or a stronger democratic political party
system.
   The audit report included a finding on the results of the STEP program, as
summarized above. It also discussed some longer-term issues that need to be
addressed to better ensure credible elections, including legal reforms to protect
the independence of the IEC and ECC, reform of the “single non-transferable
vote” system of representation, actions to make Afghanistan’s electoral system
more sustainable, and a more reliable voter registry. In addition, contractor
performance reviews for the STEP program were not prepared, a rural radio pro-
gram was not implemented, unreasonable security costs were charged to USAID,
a program implementer missed opportunities to consolidate support functions
to reduce expenses, and the implementer did not properly mark USAID-funded
publications.
   The audit report included nine recommendations to help address these issues,
and USAID/Afghanistan was in general agreement with the recommendations.




              REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2011    117
                                                OTHER AGENCY OVERSIGHT




                                       Review of USAID/Afghanistan’s Portion of the Embassy Air Program
                                       (Report No. F-306-11-004-S, Issued June 9, 2011)
                                       USAID OIG conducted this review to determine whether the USAID/Afghanistan-
                                       funded portion of the Embassy Air program was achieving its main goal of
                                       providing safe and reliable air service to enable USAID to supply critical
                                       transportation and freight services in support of Provincial Reconstruction
                                       Teams (PRTs) and other U.S. government development assistance programs in
                                       Afghanistan. The review found that USAID/Afghanistan’s portion of the Embassy
                                       Air program was providing safe and reliable air service in support of PRTs and
                                       other U.S. development assistance programs in Afghanistan. The review also
                                       found areas in which the Embassy Air program could be improved:
                                       • No-show passengers increased costs to the government.
                                       • The environmental requirements in the contract with Aircraft Charter
                                          Solutions Inc. are ambiguous.
                                       • Unapproved international travel by contractor employees led to questioned
                                          costs.
                                       • The contractor did not meet branding and marking requirements.
                                       • The contractor did not provide required terminal-to-aircraft transportation.
                                       • The contractor did not report required performance information to USAID.
                                           The report included eight recommendations to address these issues.

                                       ONGOING OVERSIGHT ACTIVITIES
                                       As of June 30, 2011, the participating agencies reported 42 ongoing oversight
                                       activities related to reconstruction in Afghanistan. The activities reported are
                                       listed in Table 4.2 and described in the following sections by agency.

TABLE 4.2


ONGOING OVERSIGHT ACTIVITIES OF OTHER U.S. AGENCIES, AS OF JUNE 30, 2011
Agency      Project Number          Date Initiated   Project Title
DoD OIG     D2011-D000JA-0240.000   6/15/2011        Management of Pharmaceuticals Within the Afghan National Security Forces Health System
DoD OIG     D2011-D00SPO-0234.000   5/20/2011        Assessment of U.S. and Coalition Plans To Train, Equip, and Field the Afghan Air Force
DoD OIG     D2011-D000AT-0222.000   4/29/2011        Development of Individual Equipment Requirements for the Afghan National Army
DoD OIG     D2011-D000AT-0221.000   4/29/2011        Accountability for Night Vision Devices Procured for the Afghan National Security Forces
DoD OIG     D2011-D000FD-0121.000   3/30/2011        Fees and Surcharges on Intragovernmental Orders Funded by Afghanistan Security Forces Fund
                                                     Appropriations
DoD OIG     D2011-D00SPO-0172.000   2/14/2011        Development of Afghan National Army Logistics Capability
DoD OIG     D2011-D000JO-0137.000   1/18/2011        Facilities Management Training Provided Under the National Operations and Maintenance Contracts in
                                                     Afghanistan
DoD OIG     D2011-D000AS-0153.000   1/11/2011        Pricing and Oversight of the Afghan National Army Air Corps Pilot and English Language Training Task
                                                     Order
DoD OIG     D2011-D000AS-0133.000   1/3/2011         Procurement of High-Mobility Multipurpose Wheeled Vehicles and Troop Enclosures for the Afghan
                                                     National Security Forces
DoD OIG     D2011-D000FR-0089.000   11/30/2010       Internal Controls Over Distribution and Reconciliation of Funds for the Afghanistan National Army Payroll
DoD OIG     D2011-D000JB-0068.000   11/17/2010       Requirements Development Process for Military Construction Projects in Afghanistan




                                          118                        SPECIAL INSPECTOR GENERAL           I   AFGHANISTAN RECONSTRUCTION
                               OTHER AGENCY OVERSIGHT




TABLE 4.2 (CONTINUED)


ONGOING OVERSIGHT ACTIVITIES OF OTHER U.S. AGENCIES, AS OF JUNE 30, 2011
Agency               Project Number                         Date Initiated       Project Title
DoD OIG              D2011-D000JA-0075.000                  11/2/2010            DoD Oversight of the Northern Distribution Network
DoD OIG              D2011-D000AS-0030.000                  10/1/2010            Management and Oversight for DoD Acquisition and Support of Non-Standard Rotary Wing Aircraft
DoD OIG/             D2011-D000JA-0009.000                  9/30/2010            Afghan National Police Training Program (joint audit)
DoS OIG              11AUD3001
DoD OIG              D2010-D000FL-0276.000                  9/2/2010             Controls Over the Reporting and Propriety of Commander’s Emergency Response Program Payments in
                                                                                 Afghanistan
DoD OIG              D2010-D000JA-0165.001                  6/21/2010            Implementation of Security Provisions of a U.S. Army Intelligence and Security Command Contract for
                                                                                 Linguist Support
DoD OIG              D2010-D000JO-0229.000                  6/14/2010            Construction of the Detention Facility in Parwan, Afghanistan
DoD OIG              D2009-D00SPO-0115.000                  12/17/2008           U.S. and Coalition Efforts To Develop the Medical Sustainment Capability of the Afghan National Security
                                                                                 Forces
DoS OIG/             11AUD3003                              10/2010              Afghanistan Civilian Uplift (joint audit)
SIGAR
DoS OIG-MERO         11-MERO-3013                           2/2011               Evaluation of the Bureau of International Narcotics and Law Enforcement Affairs’ Justice Sector Support
                                                                                 Program Assistance to the Attorney General’s Anti-Corruption Unit in Afghanistan
DoS OIG-MERO         11-MERO-3007                           12/2010              Limited-Scope Review of the Needs Assessments and Facilities Conditions for Newly Developed
                                                                                 Department of State Positions in Afghanistan
DoS OIG-MERO         11-MERO-3003                           10/2010              Review of the Bureau of International Narcotics and Law Enforcement Affairs’ Facility Operations and
                                                                                 Maintenance Support Contract with the Major Crimes Task Force in Afghanistan
DoS OIG-MERO         11-MERO-3004                           9/2010               Review of the Bureau of Population, Refugees, and Migration (PRM) Program Effectiveness To Reintegrate
                                                                                 and Resettle Afghan Refugees
GAO                  120974                                 4/1/2011             Review of Joint Report on Contracting in Iraq and Afghanistan
GAO                  120976                                 3/31/2011            State Contracting for Conflicted Countries
GAO                  351603                                 3/1/2011             Intelligence, Surveillance, and Reconnaissance (ISR) Collection and Tasking Management
GAO                  351617                                 3/1/2011             Biometrics, Last Tactical Mile
GAO                  320851                                 2/20/2011            U.S. and International Programs to Screen and Conduct Afghan Security Personnel and Recruits
GAO                  351616                                 2/20/2011            DoD Oversight of Private Security Contractors in Afghanistan
GAO                  351552                                 12/9/2010            Marine Corps Equipping Strategies To Reset Equipment
GAO                  320815                                 11/5/2010            Afghan Capacity Building To Manage Budget and Finances
GAO                  351525                                 8/26/2010            DoD Task Force for Business and Stability Operations
GAO                  351514                                 8/4/2010             Army Advise and Assist Brigades
GAO                  320794                                 7/21/2010            Accountability of U.S. Direct Assistance to Afghanistan
GAO                  320766                                 5/3/2010             U.S. Civilian Presence in Afghanistan
GAO                  351492                                 4/30/2010            Afghanistan Logistics Support
USAAA                A-2011-ALL-0342.000                    2Q/FY11              Commander’s Emergency Response Program-Afghanistan
USAID OIG            Not Provided                           3Q/FY11              Audit of Assistance to the Ministry of Public Health in Support of the Partnership Contracts for Health
                                                                                 Program
USAID OIG            Not Provided                           3Q/FY11              Review of Responses to Internal Audit Findings on the Local Governance and Community Development
                                                                                 (LGCD) Program
USAID OIG            Not Provided                           3Q/FY11              Audit of Internal Controls over the Separate Maintenance Allowance at USAID/Afghanistan
USAID OIG            Not provided                           2Q/FY11              Audit of USAID/Afghanistan’s Afghanistan Stabilization Initiative – Southern Region
USAID OIG            Not provided                           Not provided         Review of USAID/Afghanistan’s Afghan Civilian Assistance Program
Sources: DoD OIG, response to SIGAR data call, 6/24/2011; DoS OIG, response to SIGAR data call, 6/27/2011; GAO, response to SIGAR data call, 6/29/2011; GAO, response to SIGAR vetting,
7/12/2011; USAAA, response to SIGAR data call, 6/27/2011; USAID OIG, response to SIGAR data call, 6/20/2011.




                   REPORT TO THE UNITED STATES CONGRESS                      I   JULY 30, 2011                       119
      OTHER AGENCY OVERSIGHT




U.S. Department of Defense Office of Inspector General
DoD continues to face many challenges in executing its Overseas Contingency
Operations (OCO). The Department of Defense Office of Inspector General (DoD
OIG) has identified priorities based on those challenges and high risks and has
responded by expanding its coverage of OCO operations and its presence in
Southwest Asia. Matching DoD’s current Southwest Asia operational tempo and
focus, the DoD OIG primary oversight focus is operations in Afghanistan while
maintaining the necessary oversight in Iraq and its remaining operations.
   The DoD OIG–led Southwest Asia Joint Planning Group coordinates and
deconflicts federal and DoD OCO−related oversight activities. The Group held its
17th meeting in May 2011.
   DoD OIG’s ongoing Operation Enduring Freedom (OEF)–related oversight
addresses the safety of personnel with regard to construction efforts, force
protection programs for U.S. personnel, accountability of property, improper
payments, contract administration, distribution and reconciliation of funds
for the ANA payroll, oversight of the contract for training the Afghan police,
logistical distribution within Afghanistan, information operations, armoring
capabilities, and acquisition planning and controls over funding for the Afghan
National Security Forces (ANSF).
   For the third quarter of fiscal year (FY) 2011, DoD OIG had 40 ongoing
oversight activities and issued 7 reports that support OEF. Of those 40 ongo-
ing projects, 18 directly relate to reconstruction or security operations in
Afghanistan and are incorporated in this quarterly report. Of the 7 reports issued,
2 directly relate to reconstruction or security operations in Afghanistan as
defined by SIGAR.

Management of Pharmaceuticals Within the Afghan National
Security Forces Health System
(Project No. D2011-D000JA-0240.000, Initiated 6/15/2011)
DoD OIG is determining the effectiveness of pharmaceutical distribution within
the Afghan National Security Forces health care system. Specifically, DoD OIG
will evaluate the procurement, delivery, and inventory control processes for
pharmaceuticals at ANSF medical facilities and depots.

Assessment of U.S. and Coalition Plans To Train, Equip, and Field
the Afghan Air Force
(Project No. D2011-D00SPO-0234.000, Initiated 5/20/2011)
DoD OIG is determining whether U.S. government and coalition forces goals,
objectives, plans, and guidance to train, equip, and field a viable and sustainable
Afghan Air Force are prepared, issued, operative, and relevant.




  120                SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                      OTHER AGENCY OVERSIGHT




Development of Individual Equipment Requirements for the
Afghan National Army
(Project No. D2011-D000AT-0222.000, Initiated 4/29/2011)
DoD OIG is determining whether the development process for ANA individual
equipment requirements was adequate. Specifically, DoD OIG will determine the
adequacy of the acquisition, sustainment, and training requirements established
for individual equipment items for the ANA.

Accountability for Night Vision Devices Procured for the Afghan
National Security Forces
(Project No. D2011-D000AT-0221.000, Initiated 4/29/2011)
DoD OIG is evaluating the accountability for night vision devices and associated
spare parts procured for the ANSF.

Fees and Surcharges on Intragovernmental Orders Funded by
Afghanistan Security Forces Fund Appropriations
(Project No. D2011-D000FD-0121.000, Initiated March 30, 2011)
DoD OIG is determining what fees and surcharges DoD Components charge on
intragovernmental orders funded by Afghanistan Security Forces Fund appropri-
ations. DoD OIG will also evaluate whether the cost data exist to support those
charges.

Development of Afghan National Army Logistics Capability
(Project No. D2011-D00SPO-0172.000, Initiated February 14, 2011)
DoD OIG is determining whether planning and operational implementation of
efforts by U.S./coalition forces to train, advise, and assist in the development
of an enduring logistics sustainability capability for the ANA is effective. This
includes evaluating output/outcome in ANA logistical and operational organiza-
tions resulting from U.S./coalition involvement in developing Ministry of Defense
(MoD)/ANA logistics support processes. In addition, DoD OIG will determine
whether plans, training, preparation, and designated missions of International
Security Assistance Force (ISAF)/U.S. Forces - Afghanistan, NTM-A/CSTC-A, and
ISAF Joint Command to train, advise, and assist in the development of an endur-
ing logistics sustainability capability for the ANA are integrated across all levels
of U.S./coalition commands/staffs, as well as with the MoD, and address ANA
operational needs.

Facilities Management Training Provided Under the National
Operations and Maintenance Contracts in Afghanistan
(Project No. D2011-D000JO-0137.000, Initiated January 18, 2011)
DoD OIG is determining whether the vocational training provided under the
National Operations and Maintenance contracts is effective in developing the
infrastructure maintenance capabilities of the ANSF.




              REPORT TO THE UNITED STATES CONGRESS    I    JULY 30, 2011     121
      OTHER AGENCY OVERSIGHT




Pricing and Oversight of the Afghan National Army Air Corps Pilot
and English Language Training Task Order
(Project No. D2011-D000AS-0153.000, Initiated January 11, 2011)
DoD OIG is conducting the second in a series of audits relating to the Warfighter
Field Operations Customer Support (FOCUS) contract. In this second review,
DoD OIG is determining whether the U.S. Army Program Executive Office for
Simulation, Training, and Instrumentation obtained fair and reasonable prices
for the goods and services on the ANA Air Corps Pilot and English Language
Training task order and appropriately defined contractor surveillance and over-
sight processes and procedures for the task order.

Procurement of High-Mobility Multipurpose Wheeled Vehicles and
Troop Enclosures for the Afghan National Security Forces
(Project No. D2011-D000AS-0133.000, Initiated January 3, 2011)
DoD OIG is determining whether the program and contracting officials are effec-
tively and efficiently procuring high-mobility multipurpose wheeled vehicles and
troop enclosures.

Internal Controls Over Distribution and Reconciliation of Funds for
the Afghanistan National Army Payroll
(Project No. D2011-D000FR-0089.000, Initiated November 30, 2010)
DoD OIG is determining whether adequate controls are in place to ensure that
NTM-A/CSTC-A is distributing DoD funds accurately and timely to the Afghan
ministries for the ANA payroll. In addition, DoD OIG is determining whether
NTM-A/CSTC-A has implemented an adequate mentoring process to assist
Afghan ministries in providing accurate payments to ANA personnel.

Requirements Development Process for Military Construction
Projects in Afghanistan
(Project No. D2011-D000JB-0068.000, Initiated November 17, 2010)
DoD OIG is evaluating the requirements development process for military con-
struction projects in Afghanistan. Specifically, DoD OIG is determining whether
the requirements development process results in statements of work that clearly
define required results, has measurable outcomes, and meets DoD needs.

DoD Oversight of the Northern Distribution Network
(Project No. D2011-D000JA-0075.000, Initiated November 2, 2010)
DoD OIG is assessing DoD oversight of the Northern Distribution Network and
evaluating the ability of DoD to plan, coordinate, and execute sustainment opera-
tions for Afghanistan through the Northern Distribution Network.




  122                SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                      OTHER AGENCY OVERSIGHT




Management and Oversight for DoD Acquisition and Support of
Non-Standard Rotary Wing Aircraft
(Project No. D2011-D000AS-0030.000, Initiated October 1, 2010)
DoD OIG is determining whether DoD officials properly and effectively managed
the acquisition and support of non-standard rotary wing aircraft, such as the
Russian Mi-17 aircraft, to include those acquired using the Afghanistan Security
Forces Fund or any DoD-related requirements. Multiple projects may be initiated
under this objective.

Afghan National Police Training Program (joint audit)
(Project No. D2011-D000JA-0009.000 [DoS 11AUD3001], Initiated September 30, 2010)
DoD OIG and DoS OIG are performing this joint audit to meet an anticipated
requirement in the FY 2011 National Defense Authorization Act that will require
DoD OIG, in consultation with DoS OIG, to issue a report on the Afghan National
Police (ANP) Training Program. The audit is evaluating DoD and DoS efforts to
transfer contract administration for the ANP Program. Specifically, DoD OIG/
DOS OIG will assess the cost, performance measures, and planning efforts asso-
ciated with the transfer to ensure enhanced contract oversight, adequate funding
and support, and effective program management. The joint team also plans to
follow up on the joint DoD OIG Report No. D-2010-042 and DoS OIG Report
No. MERO-A-10-6, “Department of Defense Obligations and Expenditures of
Funds Provided to the Department of State for the Training and Mentoring of the
Afghan National Police,” February 9, 2010.

Controls Over the Reporting and Propriety of Commander’s
Emergency Response Program Payments in Afghanistan
(Project No. D2010-D000FL-0276.000, Initiated September 2, 2010)
DoD OIG is determining whether the internal controls over CERP payments
made to support operations in Afghanistan are adequate. Specifically, DoD OIG
will review the controls to ensure payments are proper and that complete, accu-
rate, and meaningful data is reported to those decision-makers responsible for
managing the CERP. This audit is the second in a series of audits that addresses
the internal controls over the CERP payments made to support operations in
Afghanistan.

Implementation of Security Provisions of a U.S. Army Intelligence
and Security Command Contract for Linguist Support
(Project No. D2010-D000JA-0165.001, Initiated June 21, 2010)
DoD OIG is determining whether the security provisions of a U.S. Army
Intelligence and Security Command contract for linguist support in Afghanistan
(W911W4-07-D-0010) were implemented effectively. This project is one in a
series of reviews regarding linguist support in Afghanistan. Project D2010-
D000JA-0165.000 addresses whether contract for linguist support in Afghanistan
(W911W4-07-D-0010) included appropriate security provisions.



              REPORT TO THE UNITED STATES CONGRESS    I   JULY 30, 2011       123
      OTHER AGENCY OVERSIGHT




Construction of the Detention Facility in Parwan, Afghanistan
(Project No. D2010-D000JO-0229.000, Initiated June 14, 2010)
DoD OIG is determining whether the U.S. Army Corps of Engineers (USACE)
and USFOR-A procured construction services and administered the construc-
tion contract for the Detention Facility in Parwan, Afghanistan, in accordance
with the Federal Acquisition Regulation and other applicable laws and regula-
tions. Specifically, DoD OIG will determine whether USACE properly monitored
contractor performance during construction of the Detention Facility in Parwan
and whether USACE has taken or should take recourse against the contractor
because of potential latent defects, negligence, or fraud.

U.S. and Coalition Efforts To Develop the Medical Sustainment
Capability of the Afghan National Security Forces
(Project No. D2009-D00SPO-0115.000, Initiated December, 17, 2008)
DoD OIG is determining whether U.S. government, coalition, and Afghan MoD
and MoI goals, objectives, plans, and guidance to develop and sustain the current
and projected ANSF health care system are issued and operative.

Department of State Office of Inspector General
Audit of the Afghan National Police Training Program (Joint Audit)
(Project No. 11AUD3001 [DoD D2011-D000JA-0009.000], Initiated September 30, 2010)
Objectives: Per an anticipated requirement in the FY 2011 National Defense
Authorization Act that will require DoD OIG, in consultation with DoS OIG, to
issue a report on the ANP training program, DoS OIG’s objective is to evaluate
DoD and DoS efforts to transfer contract administration for the ANP program.
Specifically, DoS OIG will assess the cost, performance measures, and plan-
ning efforts associated with the transfer to ensure enhanced contract oversight,
adequate funding and support, and effective program management. DoS OIG also
plans to follow up on the joint DoD OIG Report No. D-2010-042 and DoS OIG
Report No. MERO-A-10-6, “Department of Defense Obligations and Expenditures
of Funds Provided to the Department of State for the Training and Mentoring of
the Afghan National Police,” February 9, 2010.

Afghanistan Civilian Uplift (Joint Audit)
(Project No. 11AUD3003, Initiated October 2010)
Objective: The objective of this audit is to determine the costs of the civil-
ian uplift in Afghanistan, including how much has been spent to date (2009 to
present) and an estimate of how much it will cost to sustain the effort (pres-
ent through 2012). The work will focus on the costs associated with the hiring,
training, deployment, and necessary life and operational support of civilian uplift
personnel assigned to Afghanistan.




  124                SPECIAL INSPECTOR GENERAL    I   AFGHANISTAN RECONSTRUCTION
                      OTHER AGENCY OVERSIGHT




U.S. Department of State Office of Inspector General –
Middle East Regional Office
Evaluation of the Bureau of International Narcotics and Law
Enforcement Affairs’ Justice Sector Support Program Assistance
to the Attorney General’s Anti-Corruption Unit in Afghanistan
(Contract Evaluation)
(Project No. 11-MERO-3013, Initiated February 2011)
This evaluation will determine (1) the amount of funding DoS has obligated and
expended; (2) how DoS ensures that costs are properly allocated and supported;
(3) to what extent DoS’s anti-corruption mentoring and justice sector support
program assistance has achieved its objectives and the impediments; and (4) the
effectiveness of the U.S. Embassy Kabul in managing and overseeing the assis-
tance program.

Limited-Scope Review of the Needs Assessments and Facilities
Conditions for Newly Developed Department of State Positions in
Afghanistan (Program Evaluation)
(Project No. 11-MERO-3007, Initiated December 2010)
The primary objectives of this evaluation are to determine (1) the degree to
which DoS conducted needs assessments to identify, develop, and staff new
positions at the U.S. Embassy Kabul and its constituent posts; and (2) whether
available office facilities and housing or that already provided to staff filling these
new positions are adequate, safe, and secure.

Review of the Bureau of International Narcotics and Law
Enforcement Affairs’ Facility Operations and Maintenance Support
Contract with the Major Crimes Task Force in Afghanistan
(Contract Evaluation)
(Project No. 11-MERO-3003, Initiated October 2010)
The primary objectives of this evaluation are to determine (1) the requirements
and provisions of the contract; (2) the amount of funding DoS has obligated and
expended to provide facility operations and maintenance; (3) DynCorp’s con-
tract performance in providing facility operations and maintenance to the Major
Crimes Task Force at Camp Falcon; and (4) how DoS ensures that costs incurred
are properly allocated and supported.




             REPORT TO THE UNITED STATES CONGRESS     I   JULY 30, 2011         125
       OTHER AGENCY OVERSIGHT




Review of the Bureau of Population, Refugees, and Migration
(PRM) Program Effectiveness to Reintegrate and Resettle
Afghan Refugees (Program Evaluation)
(Project No. 11-MERO-3004, Initiated September 2010)
The objectives of this performance audit are to determine (1) the requirements
and provisions of agreements with the United Nations High Commissioner for
Refugees, the International Committee for the Red Cross, and non-governmental
organizations; (2) how assistance requirements were calculated, (3) whether
assistance reached intended targets, (3) if program performance measures were
established and achieved; and (4) the effectiveness of the U.S. Embassy Kabul
and Provincial Reconstruction Teams to manage and coordinate the humanitar-
ian response in Afghanistan.

Government Accountability Office
Review of Joint Report on Contracting in Iraq and Afghanistan
(Project No. 120974, Initiated April 1, 2011)
This review will focus on (1) assessing the data and data sources used by DoD,
DoS, and USAID to produce a joint report regarding contracts with performance
in Iraq or Afghanistan, associated personnel, and related matters; (2) reviewing
how DoD, DoS, and USAID are using the data and data sources used to develop
the joint report in managing, overseeing, and coordinating contracting in the
two countries; and (3) assessing the plans the departments and agency have
for strengthening or improving their common databases for tracking statutorily
required information on contracts and associated personnel.

State Contracting for Conflict Countries
(Project No. 120976, Initiated March 31, 2011)
This review will focus on assessing (1) the organizational alignment of DoS’s
acquisition functions with its missions and needs; (2) DoS’s acquisition work-
force, both in terms of number of personnel and their expertise; (3) DoS’s use
and management of contracts awarded and/or administered on its behalf by
other federal departments or agencies; (4) the statutory and regulatory authori-
ties available for use in conflict environments; and (5) the efforts planned or
underway to enhance the capacity of DoS’s acquisition workforce and reform its
acquisition practices and processes.




  126                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                       OTHER AGENCY OVERSIGHT




Intelligence, Surveillance, and Reconnaissance (ISR) Collection
and Tasking Management
(Project No. 351603, Initiated March 1, 2011)
This review will focus on (1) assessing the data and data sources used by DoD,
DoS, and USAID to produce a joint report regarding contracts with performance
in Iraq or Afghanistan, associated personnel, and related matters; (2) reviewing
how DoD, DoS, and USAID are using the data and data sources used to develop
the joint report in managing, overseeing, and coordinating contracting in the
two countries; and (3) assessing the plans the departments and agency have
for strengthening or improving their common databases for tracking statutorily
required information on contracts and associated personnel.

Biometrics, Last Tactical Mile
(Project No. 351617, Initiated March 1, 2011)
GAO will examine (1) the extent to which DoD biometrics policies and practices
are implemented in predeployment training and in theater, and the adequacy of
these policies/practices; (2) the extent to which DoD biometrics equipment is
meeting operational needs (e.g., communication, supply, and maintenance); and
(3) DoD efforts to achieve efficiencies pertaining to biometrics collection and
information management.

U.S. and International Programs To Screen and Conduct
Afghan Security Personnel and Recruits
(Project No. 320851, Initiated February 20, 2011)
This review will examine (1) To what extent are recruits and other ANA-ANP
personnel vetted or screened by the U.S. government for ties to criminal, terror-
ist, or insurgent forces? (2) What challenges to these efforts exist, if any, and how
have U.S. agencies addressed these challenges? (3) To what extent have DoD
and DoS modified screening procedures in response to attacks? (4) What, if any,
safeguards are in place to protect U.S. personnel training or working with ANA/
ANP forces?

DoD Oversight of Private Security Contractors in Afghanistan
(Project No. 351616, Initiated February 20, 2011)
GAO intends to examine to what extent (1) DoD has a process to determine if the
use of private security contractors (PSCs) in Afghanistan to meet specific mis-
sions is appropriate; (2) DoD has a process to ensure that PSCs in Afghanistan are
selecting personnel with appropriate backgrounds, training, and capabilities;
(3) DoD has established a process to ensure that private security prime contrac-
tors and subcontractors are performing their duties in Afghanistan; and (4) DoD
has begun to formulate plans to meet security requirements in Afghanistan with-
out the use of PSCs.




              REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2011        127
      OTHER AGENCY OVERSIGHT




Marine Corps Equipping Strategies To Reset Equipment
(Project No. 351552, Initiated December 9, 2010)
This review will focus on the extent to which (1) the Marine Corps has a strategy
in place to manage the reset of ground and aviation equipment returning from
Iraq and Afghanistan; (2) the Marine Corps’ strategy for resetting equipment
is aligned with the Marine Corps’ plan for force modernization; (3) the Marine
Corps is able to determine the total reset costs for equipment used in operations
in Iraq and Afghanistan; and (4) the Marine Corps’ budget request from FY 2009
to FY 2012 for equipment reset is consistent with budget guidance.

Afghan Capacity Building To Manage Budget and Finances
(Project No. 320815, Initiated November 5, 2010)
This review will focus on (1) identifying Afghanistan’s national budget (revenues,
expenditures) and budgetary shortfall; (2) U.S. efforts to build Afghan capacity to
manage and oversee the budget and build a sound financial management system,
and the extent to which these efforts are aligned with Afghan and international
community goals; and (3) the extent to which U.S. efforts improved the capacity
of the Government of the Islamic Republic of Afghanistan (GIRoA) to manage
and oversee its budget and develop a sound financial management system.

DoD Task Force for Business and Stability Operations
(Project No. 351525, Initiated August 26, 2010)
This review will focus on the extent to which (1) the mission of the Task Force
has changed since 2006 and whether DoD developed plans to institutionalize
the Task Force’s mission and expand its scope to other countries; (2) DoD has
evaluated the Task Force’s activities, including establishing goals and metrics
to measure outcomes; (3) the Task Force coordinates its activities with other
programs; and (4) the Task Force’s activities are similar or dissimilar to other
programs, and whether opportunities exist to achieve greater efficiencies among
programs.

Army Advise and Assist Brigades
(Project No. 351514, Initiated August 4, 2010)
The Army is augmenting certain brigade combat teams with additional leaders
to advise and assist Iraqi and Afghan security forces. This review will focus on
(1) the extent to which Army has defined the roles and missions of augmented
brigade combat teams; (2) the extent to which Army has defined the training and
resourcing requirements for augmented brigade combat teams, and the extent
to which the Army and DoD have assessed their use for security force assis-
tance; and (3) the extent to which Army has been able to fill the requirements
for augmented brigade combat teams and what impacts, if any, this is having on
reported Army readiness.




  128                 SPECIAL INSPECTOR GENERAL    I   AFGHANISTAN RECONSTRUCTION
                       OTHER AGENCY OVERSIGHT




Accountability of U.S. Direct Assistance to Afghanistan
(Project No. 320794, Initiated July 21, 2010)
This review will focus on the extent to which the United States has provided
direct assistance to the GIRoA, established key control elements to help ensure
financial accountability over direct assistance provided bilaterally to Afghan
ministries, and established key control elements to help ensure financial
accountability over direct assistance provided through multilateral trust funds to
Afghan ministries.

U.S. Civilian Presence in Afghanistan
(Project No. 320766, Initiated May 3, 2010)
This review will focus on the extent to which and the processes through which
U.S. agencies are prioritizing and fulfilling staffing requirements for the civilian
surge in Afghanistan, and the steps U.S. agencies have taken to prepare their
personnel for deployment.

Afghanistan Logistics Support
(Project No. 351492, Initiated April 30, 2010)
This review will focus on (1) the extent to which DoD has provided the person-
nel, equipment, and supplies needed to support operations in Afghanistan in
accordance with DoD’s established plans and timeline; (2) the factors, if any,
that have impacted DoD’s ability to provide the personnel, equipment, and sup-
plies needed to support operations in Afghanistan, and how DoD has addressed
these factors; and (3) the extent to which DoD has established a clear chain of
command for the transportation of personnel, supplies, and equipment into and
around Afghanistan.

U.S. Army Audit Agency
Commander’s Emergency Response Program - Afghanistan
(Project Code A-2011-ALL-0342.000, Initiated 2Q/FY11)
This audit will determine whether (1) the established project review and
approval processes for the Commander’s Emergency Response Program
(CERP) in Afghanistan promote selection of projects in compliance with its
stated goals of providing immediate benefit to the Afghan people and (2) the
process for generating CERP funding requirements was fully supported by the
approved project list.




              REPORT TO THE UNITED STATES CONGRESS      I   JULY 30, 2011      129
      OTHER AGENCY OVERSIGHT




U.S. Agency for International Development
Office of Inspector General
Audit of Assistance to the Ministry of Public Health in Support of
the Partnership Contracts for Health Program
(Initiated 3Q/FY11)
Objective: To determine whether the Ministry of Public Health, with USAID/
Afghanistan’s assistance, was implementing standardized packages of health
services that contribute to meeting Afghanistan’s national health objectives.

Review of Responses to Internal Audit Findings on the Local
Governance and Community Development (LGCD) Program
(Initiated 3Q/FY11)
Objective: To determine if selected costs charged to USAID are reasonable,
allowable, and allocable.

Audit of Internal Controls over the Separate Maintenance
Allowance at USAID/Afghanistan
(Initiated 3Q/FY11)
Objective: To determine whether USAID/Afghanistan has adopted appropriate
internal controls to prevent improper use of the separate maintenance allow-
ance benefit.

Audit of USAID/Afghanistan’s Afghanistan Stabilization Initiative–
Southern Region
(Initiated 2Q/FY11)
Objective: To determine if the USAID’s Afghanistan Stabilization Initiative–
Southern Region program is building confidence between communities and
the GIRoA.

Review of USAID/Afghanistan’s Afghan Civilian Assistance
Program
(Initiation date not provided)
Objective: To follow up on indications of waste and fraud reported by evaluators
performing a final evaluation of the Afghan Civilian Assistance Program.




  130                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                      OTHER AGENCY OVERSIGHT




INVESTIGATIONS
DoS OIG reported 10 open cases in Afghanistan for its Office of Investigations as
of June 30, 2011.

INSPECTIONS
DoS OIG Inspections issued one inspection report on Afghanistan this quarter.

Embassy Kabul Inspection Compliance Follow-up Review (CFR)
(Report No. ISP-C-11-53A, Issued June 23, 2011)
Follow up on compliance with recommendations made in DoS OIG/ISP inspec-
tion of the U.S. Embassy Kabul (ISP-I-10-32A, February 2010) to (a) close out
recommendations and/or (b) reissue recommendations that address conditions
that still exist.




              REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2011     131
      The Official Seal of SIGAR
      The Official Seal of SIGAR represents the coordination of efforts
      between the United States and Afghanistan to provide accountability
      and oversight of reconstruction activities. The phrase along the top
      side of the seal’s center is in Dari and means “SIGAR.” The phrase
      along the bottom side of the seal’s center is in Pashtu and has the
      same meaning.




132   SPECIAL INSPECTOR GENERAL     I   AFGHANISTAN RECONSTRUCTION
APPENDICES
AND ENDNOTES




       133
APPENDICES




APPENDIX A
CROSS-REFERENCE OF REPORT TO STATUTORY
REQUIREMENTS
This appendix cross-references the pages of this report to the quarterly reporting
and related requirements under SIGAR’s enabling legislation, the National Defense
Authorization Act for Fiscal Year 2008, P.L. No. 110-181, § 1229 (Table A.1).


TABLE A.1


CROSS-REFERENCE TO SIGAR QUARTERLY REPORTING REQUIREMENTS UNDER
P.L. NO. 110-181, § 1229
Public Law Section      SIGAR Enabling Language                           SIGAR Action                   Section
Supervision
Section 1229(e)(1)      The Inspector General shall report directly       Report to the Secretary of     All sections
                        to, and be under the general supervision          State and the Secretary of
                        of, the Secretary of State and the Secretary      Defense
                        of Defense
Duties
Section 1229(f)(1)      OVERSIGHT OF AFGHANISTAN                          Review appropriated/           All sections
                        RECONSTRUCTION.—                                  available funds
                        It shall be the duty of the Inspector General
                        to conduct, supervise, and coordinate             Review programs,
                        audits and investigations of the treatment,       operations, contracts using
                        handling, and expenditure of amounts              appropriated/
                        appropriated or otherwise made available          available funds
                        for the reconstruction of Afghanistan, and
                        of the programs, operations, and contracts
                        carried out utilizing such funds, including
                        subsections (A) through (G) below.
Section 1229(f)(1)(A)   The oversight and accounting of the obliga-       Review obligations and         SIGAR
                        tion and expenditure of such funds                expenditures of appropri-      Oversight
                                                                          ated/available funds
                                                                                                         Funding
Section 1229(f)(1)(B)   The monitoring and review of reconstruction       Review reconstruction          SIGAR
                        activities funded by such funds                   activities funded by appro-    Oversight
                                                                          priations and donations
Section 1229(f)(1)(C)   The monitoring and review of contracts            Review contracts using         Note 1
                        funded by such funds                              appropriated and available
                                                                          funds
Section 1229(f)(1)(D) The monitoring and review of the transfer           Review internal and external   Appendix B
                      of such funds and associated information            transfers of appropriated/
                      between and among departments, agen-                available funds
                      cies, and entities of the United States, and
                      private and nongovernmental entities
Section 1229(f)(1)(E)   The maintenance of records on the use of          Maintain audit records         SIGAR
                        such funds to facilitate future audits and                                       Oversight
                        investigations of the use of such fund[s]                                        Appendix C
                                                                                                         Appendix D




  134                      SPECIAL INSPECTOR GENERAL              I     AFGHANISTAN RECONSTRUCTION
                                                                              APPENDICES




TABLE A.1 (CONTINUED)


CROSS-REFERENCE TO SIGAR QUARTERLY REPORTING REQUIREMENTS UNDER
P.L. NO. 110-181, § 1229
Public Law Section      SIGAR Enabling Language                        SIGAR Action                  Section
Section 1229(f)(1)(F)   The monitoring and review of the effective-    Monitoring and review         Audits
                        ness of United States coordination with        as described
                        the Governments of Afghanistan and
                        other donor countries in the implementa-
                        tion of the Afghanistan Compact and the
                        Afghanistan National Development Strategy
Section 1229(f)(1)(G) The investigation of overpayments such as        Conduct and reporting of      Investigations
                      duplicate payments or duplicate billing and      investigations as described
                      any potential unethical or illegal actions of
                      Federal employees, contractors, or affiliated
                      entities, and the referral of such reports, as
                      necessary, to the Department of Justice to
                      ensure further investigations, prosecutions,
                      recovery of further funds, or other remedies.
Section 1229(f)(2)      OTHER DUTIES RELATED TO OVERSIGHT.—            Establish, maintain, and      All sections
                        The Inspector General shall establish,         oversee systems, proce-
                        maintain, and oversee such systems,            dures, and controls
                        procedures, and controls as the Inspector
                        General considers appropriate to discharge
                        the duties under paragraph (1)
Section 1229(f)(3)      DUTIES AND RESPONSIBILITIES UNDER              Duties as specified in        All sections
                        INSPECTOR GENERAL ACT OF 1978.—                Inspector General Act
                        In addition,. . .the Inspector General shall
                        also have the duties and responsibilities
                        of inspectors general under the Inspector
                        General Act of 1978
Section 1229(f)(4)      COORDINATION OF EFFORTS.—                      Coordination with the         Other Agency
                        The Inspector General shall coordinate with,   inspectors general of         Oversight
                        and receive the cooperation of, each of the    DoD, DoS, and USAID
                        following: (A) the Inspector General of the
                        Department of Defense, (B) the Inspector
                        General of the Department of State, and (C)
                        the Inspector General of the United States
                        Agency for International Development
Federal Support and Other Resources
Section 1229(h)(5)(A) ASSISTANCE FROM FEDERAL AGENCIES.—               Expect support as             All sections
                      Upon request of the Inspector General for        requested
                      information or assistance from any depart-
                      ment, agency, or other entity of the Federal
                      Government, the head of such entity shall,
                      insofar as is practicable and not in con-
                      travention of any existing law, furnish such
                      information or assistance to the Inspector
                      General, or an authorized designee




                  REPORT TO THE UNITED STATES CONGRESS                 I   JULY 30, 2011                  135
APPENDICES




TABLE A.1 (CONTINUED)


CROSS-REFERENCE TO SIGAR QUARTERLY REPORTING REQUIREMENTS UNDER
P.L. NO. 110-181, § 1229
Public Law Section      SIGAR Enabling Language                           SIGAR Action                  Section
Section 1229(h)(5)(B) REPORTING OF REFUSED ASSISTANCE.—                   None reported                 N/A
                      Whenever information or assistance
                      requested by the Inspector General is,
                      in the judgment of the Inspector General,
                      unreasonably refused or not provided, the
                      Inspector General shall report the circum-
                      stances to the Secretary of State or the
                      Secretary of Defense, as appropriate, and to
                      the appropriate congressional committees
                      without delay.
Reports
Section 1229(i)(1)      QUARTERLY REPORTS.—                               Report – 30 days after        All sections
                        Not later than 30 days after the end of each      the end of each calendar      Appendix B
                        fiscal-year quarter, the Inspector General        quarter
                        shall submit to the appropriate committees
                        of Congress a report summarizing, for the         Summarize activities of the
                        period of that quarter and, to the extent         inspector general
                        possible, the period from the end of such
                        quarter to the time of the submission of          Detailed statement of all
                        the report, the activities during such period     obligations, expenditures,
                        of the Inspector General and the activities       and revenues
                        under programs and operations funded
                        with amounts appropriated or otherwise
                        made available for the reconstruction of
                        Afghanistan. Each report shall include,
                        for the period covered by such report,
                        a detailed statement of all obligations,
                        expenditures, and revenues associated with
                        reconstruction and rehabilitation activities in
                        Afghanistan, including the following –
Section 1229(i)(1)(A)   Obligations and expenditures of appropri-         Obligations and expen-        Appendix B
                        ated/donated funds                                ditures of appropriated/
                                                                          donated funds
Section 1229(i)(1)(B)   A project-by-project and program-                 Project-by-project and        Funding
                        by-program accounting of the costs                program-by-program
                        incurred to date for the reconstruction of        accounting of costs. List     Note 1
                        Afghanistan, together with the estimate of        unexpended funds for each
                        the Department of Defense, the Department         project or program
                        of State, and the United States Agency for
                        International Development, as applicable,
                        of the costs to complete each project and
                        each program
Section 1229(i)(1)(C)   Revenues attributable to or consisting            Revenues, obligations, and    Funding
                        of funds provided by foreign nations or           expenditures of donor funds
                        international organizations to programs
                        and projects funded by any department or
                        agency of the United States Government,
                        and any obligations or expenditures of
                        such revenues




  136                      SPECIAL INSPECTOR GENERAL               I   AFGHANISTAN RECONSTRUCTION
                                                                                 APPENDICES




TABLE A.1 (CONTINUED)


CROSS-REFERENCE TO SIGAR QUARTERLY REPORTING REQUIREMENTS UNDER
P.L. NO. 110-181, § 1229
Public Law Section      SIGAR Enabling Language                           SIGAR Action                  Section
Section 1229(i)(1)(D)   Revenues attributable to or consisting of for-    Revenues, obligations, and    Funding
                        eign assets seized or frozen that contribute      expenditures of funds from
                        to programs and projects funded by any U.S.       seized or frozen assets
                        government department or agency, and any
                        obligations or expenditures of such revenues
Section 1229(i)(1)(E)   Operating expenses of agencies or entities        Operating expenses of         Funding
                        receiving amounts appropriated or otherwise       agencies or any organiza-
                        made available for the reconstruction of          tion receiving appropriated   Appendix B
                        Afghanistan                                       funds
Section 1229(i)(1)(F)   In the case of any contract, grant,               Describe contract details     Note 1
                        agreement, or other funding mechanism
                        described in paragraph (2)* —
                        (i) The amount of the contract or other fund-
                        ing mechanism;
                        (ii) A brief discussion of the scope of the
                        contract or other funding mechanism;
                        (iii) A discussion of how the department or
                        agency of the United States Government
                        involved in the contract, grant, agreement,
                        or other funding mechanism identified and
                        solicited offers from potential contractors
                        to perform the contract, grant, agreement,
                        or other funding mechanism, together with
                        a list of the potential individuals or entities
                        that were issued solicitations for the offers;
                        and
                        (iv) The justification and approval
                        documents on which was based the
                        determination to use procedures other than
                        procedures that provide for full and open
                        competition
Section 1229(i)(3)      PUBLIC AVAILABILITY.—                             Publish report                www.sigar.mil
                        The Inspector General shall publish on a          as directed
                        publically-available Internet website each                                      Dari and
                        report under paragraph (1) of this subsec-                                      Pashtu
                        tion in English and other languages that the                                    translation in
                        Inspector General determines are widely                                         process
                        used and understood in Afghanistan
Section 1229(i)(4)      FORM.—                                            Publish report                All sections
                        Each report required under this subsection        as directed
                        shall be submitted in unclassified form,
                        but may include a classified annex if the
                        Inspector General considers it necessary




                 REPORT TO THE UNITED STATES CONGRESS                     I   JULY 30, 2011                   137
                                                             APPENDICES



                                                             APPENDIX B
                                                             U.S. GOVERNMENT APPROPRIATED FUNDS ($ MILLIONS)
                                                             Table B.1 lists funds appropriated for Afghanistan reconstruction by program,
                                                             per year, as of June 30, 2011.

                                                             TABLE B.1


                                                              U.S. FUNDING SOURCES                                                     AGENCY            TOTAL
                                                              SECURITY
                                                                Afghanistan Security Forces Fund (ASFF)                                DoD             39,452.52
                                                                Train & Equip (DoD)                                                    DoD                440.00
                                                                Foreign Military Financing (FMF)                                       DoS              1,059.14
                                                                International Military Education & Training (IMET)                     DoS                  9.80
                                                                NDAA Section 1207 Transfer                                             Other                9.90
                                                              Total—Security                                                                          40,971.36
                                                              GOVERNANCE & DEVELOPMENT
                                                                Commander’s Emergency Response Program (CERP)                          DoD              3,039.00
                                                                Afghanistan Infrastructure Fund (AIF)                                  DoD                400.00
                                                                Task Force for Business and Stability Operations (TFBSO)               DoD                150.00
                                                                Economic Support Fund (ESF)                                            USAID           13,016.66
                                                                Development Assistance (DA)                                            USAID              885.47
                                                                Afghanistan Freedom Support Act (AFSA)                                 DoD                550.00
                                                                Child Survival & Health (CSH + GHAI)                                   USAID              554.32
                                                                Commodity Credit Corp (CCC)                                            USAID               31.66
                                                                Freedom Support Act (FSA)                                              USAID                5.00
                                                                USAID (other)                                                          USAID               34.27
                                                                Non-Proliferation, Anti-Terrorism, Demining & Related (NADR)           DoS                440.90
                                                                Provincial Reconstruction Team Advisors                                USDA                 5.70
                                                                Treasury Technical Assistance                                          Treasury             3.55
                                                              Total—Governance & Development                                                          19,116.55
                                                              COUNTER-NARCOTICS
                                                                International Narcotics Control & Law Enforcement (INCLE)              DoS              3,254.24
                                                                Drug Interdiction & Counter-Drug Activities (DoD CN)                   DoD              1,847.91
                                                                Drug Enforcement Administration (DEA)                                  DoJ                127.37
                                                              Total—Counter-Narcotics                                                                  5,229.52
                                                              HUMANITARIAN
                                                                P.L. 480 Title I                                                       USDA                 5.00
                                                                P.L. 480 Title II                                                      USAID              716.71
                                                                Disaster Assistance (IDA)                                              USAID              406.24
                                                                Transition Initiatives (TI)                                            USAID               33.37
                                                                Migration & Refugee Assistance (MRA)                                   DoS                664.69
                                                                Voluntary Peacekeeping (PKO)                                           DoS                 69.33
                                                                Emergency Refugee & Migration Assistance (ERMA)                        DoS                 25.20
                                                                Food for Progress                                                      USDA               109.49
Notes: Numbers affected by rounding. Updated data resulted
                                                                416(b) Food Aid                                                        USDA                95.18
in minor differences in appropriation amounts from figures      Food for Education                                                     USDA                50.49
reported last quarter.
                                                                Emerson Trust                                                          USDA                22.40
Sources: DoD, responses to SIGAR data call, 7/15/2011,
7/14/2011, 6/29/2011, 10/14/2009, and 10/1/2009;              Total—Humanitarian                                                                       2,198.10
DoS, responses to SIGAR data call, 7/13/2011, 7/8/2011,
and 4/14/2011; Treasury, response to SIGAR data call,         INTERNATIONAL AFFAIRS OPERATIONS
7/8/2011; OMB, responses to SIGAR data call, 7/19/2011         Oversight                                                                                  113.60
and 4/19/2010; USAID, responses to SIGAR data call,
7/13/2011, 10/15/2010, 1/15/2010, and 10/9/2009;               Other                                                                                    5,039.30
DoJ, response to SIGAR data call, 7/7/2009; USDA,
response to SIGAR data call, 4/2009; P.L. 112-10,
                                                              Total—International Affairs Operations                                                   5,152.90
4/15/2011; P.L. 111-212, 10/29/2010; P.L. 111-118,            TOTAL FUNDING                                                                           72,668.43
12/19/2009; FY 2010 Defense Explanatory Statement.




                                                               138                      SPECIAL INSPECTOR GENERAL              I   AFGHANISTAN RECONSTRUCTION
                                                         APPENDICES




FY 2002    FY 2003      FY 2004      FY 2005          FY 2006         FY 2007      FY 2008     FY 2009      FY 2010      FY 2011

    0.00        0.00         0.00       995.00         1,908.13         7,406.40    2,750.00     5,606.94     9,166.77    11,619.28
    0.00        0.00       150.00       290.00             0.00             0.00        0.00         0.00         0.00         0.00
   57.26      191.00       414.08       396.80             0.00             0.00        0.00         0.00         0.00         0.00
    0.20        0.30         0.60         0.80             0.80             1.10        1.60         1.40         1.50         1.50
    0.00        0.00         0.00         0.00             0.00             0.00        9.90         0.00         0.00         0.00
  57.46      191.30       564.68     1,682.60         1,908.93         7,407.50    2,761.50     5,608.34     9,168.27    11,620.78

    0.00        0.00        40.00       136.00           215.00           209.00      488.33       550.67     1,000.00       400.00
    0.00        0.00         0.00         0.00             0.00             0.00        0.00         0.00         0.00       400.00
    0.00        0.00         0.00         0.00             0.00             0.00        0.00         0.00         0.00       150.00
  117.51      239.29       893.87     1,280.56           473.39         1,210.71    1,399.51     2,088.32     3,346.00     1,967.51
   18.30       42.54       153.14       169.56           184.99           166.81      149.43         0.40         0.30         0.00
    0.00      165.00       135.00       250.00             0.00             0.00        0.00         0.00         0.00         0.00
    7.52       49.68        33.40        38.00            41.45           100.77       63.07        58.23        92.30        69.91
    7.48        1.33         0.00         0.00             0.00             0.00       10.77         4.22         4.22         3.64
    0.00        0.00         5.00         0.00             0.00             0.00        0.00         0.00         0.00         0.00
    0.00        0.50         5.00         0.00             0.00             0.00       22.32         3.55         2.90         0.00
   44.00       34.70        66.90        38.20            18.20            36.60       26.60        48.60        57.80        69.30
    0.00        0.00         0.00         0.00             0.00             0.00        0.00         5.70         0.00         0.00
    0.00        1.00         0.06         0.95             0.19             0.13        0.75         0.47         0.00         0.00
 194.81      534.04     1,332.37     1,913.27           933.22         1,724.02    2,160.78     2,760.16     4,503.52     3,060.36

   60.00       0.00        220.00      709.28            232.65          251.74      307.57       484.00       589.00        400.00
    0.00       0.00         71.80      224.54            108.05          290.97      192.81       235.06       391.11        333.57
    0.58       2.87          3.72       16.77             23.66           20.38       40.59        18.80         0.00          0.00
  60.58        2.87       295.52      950.59            364.36          563.09      540.97       737.86       980.11        733.57

    0.00        5.00         0.00        0.00              0.00            0.00        0.00         0.00         0.00          0.00
  159.50       46.10        49.20       56.60             60.00           60.00      177.00        65.41        27.40         15.50
  197.09       85.77        11.16        4.22              0.04            0.03       17.01        27.01        29.92         33.99
    8.07       11.69        11.22        1.60              0.00            0.00        0.00         0.20         0.42          0.17
  135.47       61.50        63.30       47.10             36.00           53.80       44.25        76.79        81.48         65.00
   23.93        9.90        20.00       15.50              0.00            0.00        0.00         0.00         0.00          0.00
   25.00        0.00         0.00        0.00              0.00            0.00        0.00         0.20         0.00          0.00
    0.00        4.96         9.08       30.10             23.24            9.47       20.55        12.09         0.00          0.00
   46.46       14.14        34.58        0.00              0.00            0.00        0.00         0.00         0.00          0.00
    0.00        9.27         6.12       10.02             25.08            0.00        0.00         0.00         0.00          0.00
    0.00        0.00         0.00        0.00              0.00            0.00       22.40         0.00         0.00          0.00
 595.52      248.33       204.66      165.14            144.36          123.30      281.21       181.70       139.22        114.66

    0.00        0.00         0.00        0.00              0.00            2.50       14.30         25.20        34.40        37.20
  155.60       35.30       207.60      136.10            131.90          207.80      434.40      1,060.70     1,761.70       908.20
 155.60       35.30       207.60      136.10            131.90          210.30      448.70      1,085.90     1,796.10       945.40
1,063.97   1,011.84     2,604.83     4,847.70         3,482.77        10,028.21    6,193.16    10,373.96    16,587.22    16,474.75




           REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2011                139
APPENDICES




APPENDIX C
SIGAR AUDITS
Completed Audits
During this reporting period, SIGAR completed five audits and a special report to
the Congress, as listed in Table C.1.
TABLE C.1

COMPLETED SIGAR AUDITS AS OF JULY 30, 2011
Report Identifier    Report Title                                                                     Date Issued
SIGAR Audit 11-11    USAID’s Kabul Community Development Program Largely Met the Agreement’s               7/2011
                     Terms, but Progress Toward Long-Term Goals Needs To Be Better Tracked
SIGAR Audit 11-12    U.S. Agencies Have Provided Training and Support to Afghanistan’s Major               7/2011
                     Crimes Task Force, but Funding and Reimbursement Issues Need To
                     Be Addressed
SIGAR Audit 11-13    Limited Interagency Coordination and Insufficient Controls over U.S. Funds in         7/2011
                     Afghanistan Hamper U.S. Efforts To Develop the Afghan Financial Sector and
                     Safeguard U.S. Cash
SIGAR Audit 11-14    The World Bank and the Afghan Government Have Established Mechanisms To               7/2011
                     Monitor and Account for Funds Contributed to the Afghanistan Reconstruction
                     Trust Fund, but Some Limitations and Challenges Should Be Addressed
SIGAR Audit 11-15    Weaknesses in the USACE Defense Base Act Insurance Program Led to as                  7/2011
                     Much as $58.5 Million in Refunds Not Returned to the U.S. Government and
                     Other Problems
SIGAR Audit 11-ISP   Analysis of Recommendations Concerning Contracting in Afghanistan, as                 7/2011
                     Mandated by Section 1219 of the Fiscal Year 2011 NDAA (Special Report
                     to Congress)




New Audits
During this reporting period, SIGAR initiated four new audits, as listed in Table C.2.

TABLE C.2


NEW SIGAR AUDITS AS OF JULY 30, 2011
Audit Identifier     Project Title                                                                   Date Initiated
SIGAR Audit-49A      U.S. Army Corps of Engineers Operations and Maintenance Contracts with ITT            7/2011
                     Corporation for Afghan National Security Forces Facilities
SIGAR Audit-48A      Reliability of Funding and Contract Data Maintained by the U.S. Central               7/2011
                     Command Joint Theater Support Contracting Command (C-JTSCC) on Prime
                     Vendors for Major Reconstruction Contracts in Afghanistan
SIGAR Audit-47A      USAID’s Contracts in Support of the Afghanistan Stabilization Initiative              5/2011
SIGAR Audit-46A      USAID’s Cooperative Agreement in Support of an Agriculture Program                    5/2011




  140                    SPECIAL INSPECTOR GENERAL               I   AFGHANISTAN RECONSTRUCTION
                                                                                 APPENDICES




Ongoing Audits
SIGAR has 10 audits in progress, as listed in Table C.3.
TABLE C.3

ONGOING SIGAR AUDITS AS OF JULY 30, 2011
Audit Identifier    Project Title                                                                     Date Initiated
SIGAR 045A          Private Security Support Services (II)                                              4/25/2011
SIGAR 044A          USAID’s Financial Audit Coverage of Costs Incurred Under Contracts, Cooperative     3/30/2011
                    Agreements, and Grants for Afghanistan Reconstruction
SIGAR 043A          Implementation of the Afghan First Initiative for Contracting                       2/24/2011
SIGAR 041A          USAID Contracts for Local Governance and Community Development Projects             1/13/2011
SIGAR 040A          Construction at the Afghan National Security University                              1/3/2011
SIGAR 039A          Construction at the Kabul Military Training Center                                11/30/2010
SIGAR 031A          Accountability for ANSF Vehicles                                                  11/10/2010
SIGAR 035A          U.S. Assistance To Develop Afghanistan’s Capacity in the Agriculture Sector       10/15/2010
SIGAR 034A          Costs and Sustainability of the U.S. Civilian Uplift in Afghanistan               10/14/2010
SIGAR 017A          Private Security Support Services (I)                                               6/14/2010




Forensic Audits
SIGAR has three forensic audits in progress, as listed in Table C.4.

TABLE C.4


SIGAR FORENSIC AUDITS AS OF JULY 30, 2011
Audit Identifier    Project Title                                                                     Date Initiated
SIGAR 027A          Forensic Review of DoS Transaction Data Related to Afghanistan Reconstruction       6/24/2010
SIGAR 026A          Forensic Review of USAID Transaction Data Related to Afghanistan Reconstruction     6/24/2010
SIGAR 022A          Forensic Review of DoD Transaction Data Related to Afghanistan Reconstruction       2/25/2010




                   REPORT TO THE UNITED STATES CONGRESS                   I   JULY 30, 2011                141
                                                              APPENDICES




FIGURE D.1

SIGAR INVESTIGATIONS: NEW INVESTIGATIONS,
                                                              APPENDIX D
APRIL 1–JUNE 30, 2011                                         SIGAR INVESTIGATIONS AND HOTLINE
                          Total: 29                           SIGAR Investigations
                                                              This quarter, SIGAR opened 29 new investigations and closed 15, bringing the
                                                              total number of open investigations to 89. Of those new investigations, most
                      Procurement/                            involved procurement/contract fraud and corruption, as shown in Figure D.1.
                      Contract Fraud
                      10                                      Of the 15 closed investigations, 4 resulted in legal action, including 2 that were
              Other                                           referred for suspension and debarment, as shown in Figure D.2.
              5
                                                              FIGURE D.2
                      Public Corruption/
                      Bribery
                      14                                      SIGAR INVESTIGATIONS: CLOSED INVESTIGATIONS, APRIL 1–JUNE 30, 2011
                                                                                                                                             Total: 15
Note: “Other” includes theft of government property,
suspension and debarment matters, and civil investigations.
                                                                           Unsubstantiated                                                                                                     6
Source: SIGAR Investigations Directorate, 7/1/2011.
                                                                Lack of Prosecutorial Merit                                                                                  5
                                                              Suspension and Debarment                                           2
                                                                                             a
                                                                    Closed Pending Arrest                        1
                                                              Closed Pending Adjustmentb                         1

                                                                                                 0                              2                           4                              6

                                                              a. Closed pending the arrest of an Afghan citizen by Afghan authorities.
                                                              b. Closed pending equitable adjustment with the government.
                                                              Source: SIGAR Investigations Directorate, 7/1/2011.



                                                              SIGAR Hotline
FIGURE D.3                                                    Of the 71 Hotline complaints received this quarter, most were received by e-mail
                                                              or telephone, as shown in Figure D.3. The status of these complaints is shown
SOURCE OF SIGAR HOTLINE COMPLAINTS,
APRIL 1–JUNE 30, 2011                                         in Figure D.4. Since its inception in 2009, the SIGAR Hotline has received and
                                                              processed 637 complaints.
                                                              FIGURE D.4
                          Total: 71
                                                              STATUS OF SIGAR HOTLINE COMPLAINTS: APRIL 1–JUNE 30, 2011
                                                                                                                                         Total: 71
                            E-mail
                            63
                                                                      Closed                                                                                                                    29
                                                                 Evaluationa                                                                         16
                                                              Under Review                                                                 14
                                                               Referred (In)                             6
                                                              Referred (Out)                             6
   Written (not e-mail)                     Phone                                                    5                10                    15            20                25                     30
                     1                      7
                                                              a. The SIGAR Hotline Complaint Management System pushes Hotline complaints directly to agents, who have 30 days to conduct
                                                              preliminary investigative work and report to the Hotline with appropriate information and guidance for administrative tracking.
Source: SIGAR Investigations Directorate, 7/1/2011.
                                                              Source: SIGAR Investigations Directorate, 7/11/2011.




                                                                 142                             SPECIAL INSPECTOR GENERAL                   I   AFGHANISTAN RECONSTRUCTION
                                                                   APPENDICES




APPENDIX E
ABBREVIATIONS AND ACRONYMS

ACRONYM OR
ABBREVIATION        DEFINITION
ABP                 Afghan Border Police
ACD                 Afghan Customs Department
ACSS                Afghanistan Civil Service Support
ACT                 Accountability and Transparency Project
ACU                 Anti-Corruption Unit
ADB                 Asian Development Bank
AFCEE               Air Force Center for Engineering and the Environment (U.S.)
AGO                 Attorney General’s Office
AIF                 Afghanistan Infrastructure Fund
AIU                 Air Interdiction Unit
ALP                 Afghan Local Police
ANA                 Afghan National Army
ANCOP               Afghan National Civil Order Police
ANDS                Afghanistan National Development Strategy
ANP                 Afghan National Police
ANP CID             ANP Criminal Investigative Division
ANSF                Afghan National Security Forces
APAP                Afghanistan Parliamentary Assistance Program
APPF                Afghan Public Protection Force
APRP                Afghan Peace and Reintegration Program
AREU                Afghanistan Research and Evaluation Unit
ARP                 Afghanistan Reintegration Program (U.S.)
ARTF                Afghanistan Reconstruction Trust Fund
ASFF                Afghanistan Security Forces Fund
ASI                 Afghanistan Stabilization Initiative
ASIU                Afghan Shafafiyat Investigative Unit
ASOP                Afghanistan Social Outreach Program (U.S.)
ASYCUDA             Automated System for Customs Data
AUAF                American University of Afghanistan
AUP                 Afghan Uniform Police
AVIPA               Afghanistan Vouchers for Increased Production in Agriculture
C-JTSCC             CENTCOM Joint Theater Support Contract Command
CAO                 Control and Audit Office (Afghan)
CDP-K               Community Development Program Kabul
CEFMS               Corps of Engineers Financial Management System
CENTCOM             Central Command (U.S.)
CERP                Commander’s Emergency Response Program
CJITF               Combined Joint Interagency Task Force
CM                  Capability Milestone




          REPORT TO THE UNITED STATES CONGRESS              I   JULY 30, 2011      143
APPENDICES




ACRONYM OR
ABBREVIATION       DEFINITION
CNPA               Counter-Narcotics Police - Afghanistan
CPC                criminal procedure code
CPD                Central Prison Directorate (Afghan)
CSSP               Correctional System Support Program
CSTC-A             Combined Security Transition Command - Afghanistan
CUAT               Commander’s Unit Assessment Tool
DAB                Da Afghanistan Bank
DBA                Defense Base Act
DCC                District Community Council
DEA                Drug Enforcement Administration (U.S.)
DFAS               Defense Finance and Accounting Service (U.S.)
DHS                Department of Homeland Security (U.S.)
DHS-ICE            DHS Immigration and Customs Enforcement
DoD                Department of Defense (U.S.)
DoD CN             Department of Defense Drug Interdiction and Counter-Drug Activities fund (U.S)
DoD OIG            Department of Defense Office of Inspector General
DoJ                Department of Justice (U.S.)
DoS                Department of State (U.S.)
DoS OIG            DoS Office of Inspector General
DSCA               Defense Security Cooperation Agency
DST                District Support Team
ECF                Extended Credit Facility
EFT                electronic funds transfer
ESF                Economic Support Fund
EVAW               Elimination of Violence Against Women law
FAIDA              Financial Access for Investing in the Development of Afghanistan
FBI                Federal Bureau of Investigation (U.S)
FMS                Foreign Military Sales
GAO                Government Accountability Office (U.S.)
GIRoA              Government of the Islamic Republic of Afghanistan
HOOAC              High Office of Oversight for Anti-Corruption (Afghan)
ICCTF              International Contract Corruption Task Force
IDEA-NEW           Incentives Driving Economic Alternatives for North, East, and West
IDLG               Independent Directorate of Local Governance (Afghan)
IDP                internally displaced person
IEC                Independent Election Commission (Afghan)
IED                improvised explosive device
IHR                Integration and Human Rights (NTM-A)
IJC                International Security Assistance Force Joint Command
IMF                International Monetary Fund
INCLE              International Narcotics Control and Law Enforcement (U.S)
INL                Bureau of International Narcotics and Law Enforcement Affairs (U.S.)
IRIN               Integrated Regional Information Network




  144          SPECIAL INSPECTOR GENERAL             I   AFGHANISTAN RECONSTRUCTION
                                                                         APPENDICES




ACRONYM OR
ABBREVIATION              DEFINITION
ISAF                      International Security Assistance Force
JCMB                      Joint Coordination and Monitoring Board
JSSP                      Justice Sector Support Program
JSU                       Judicial Security Unit
LOTFA                     Law and Order Trust Fund for Afghanistan
MCTF                      Major Crimes Task Force (Afghan)
MEC                       Monitoring and Evaluation Committee
MEW                       Ministry of Energy and Water (Afghan)
MoD                       Ministry of Defense (Afghan)
MoF                       Ministry of Finance (Afghan)
MoI                       Ministry of Interior (Afghan)
MoJ                       Ministry of Justice (Afghan)
MoWA                      Ministry of Women’s Affairs (Afghan)
NDAA                      National Defense Appropriations Act
NGO                       non-governmental organization
NMAA                      National Military Academy of Afghanistan
NTM-A                     NATO Training Mission - Afghanistan
O&M                       operations and maintenance
OCS                       Officer Candidate School
PFM review                Public Financial Management and Public Internal Financial Control review
PM/WRA                    Bureau of Political-Military Affairs/Office of Weapons Removal and Abatement
PRT                       Provincial Reconstruction Team
PSC                       private security contractor
RC Window                 Recurrent Cost Window
RLS                       Rule of Law and Stabilization program
RLS-F                     Rule of Law and Stabilization - Formal program
RLS-I                     Rule of Law and Stabilization - Informal program
SY                        solar year
TAPI pipeline             Turkmenistan-Afghanistan-Pakistan-India pipeline
TFBSO                     Task Force for Business and Stability Operations in Afghanistan
Treasury                  Department of the Treasury (U.S.)
UNAMA                     UN Assistance Mission in Afghanistan
UNCTAD                    UN Conference on Trade and Development
UNDP                      UN Development Programme
UNHCR                     UN High Commissioner for Refugees
USAAA                     U.S. Army Audit Agency
USACE                     U.S. Army Corps of Engineers
USAID                     U.S. Agency for International Development
USAID OIG                 USAID Office of Inspector General
USDA                      U.S. Department of Agriculture
USFOR-A                   U.S. Forces - Afghanistan
USGS                      U.S. Geological Survey
USIP                      U.S. Institute of Peace
WHCA                      War Hazards Compensation Act




                REPORT TO THE UNITED STATES CONGRESS              I   JULY 30, 2011                  145
                                                           ENDNOTES




1.    U.S. Senate, Ryan C. Crocker, Testimony Before the Senate Foreign Relations Committee, 6/8/2011.
2.    UN Secretary-General, “The Situation in Afghanistan and Its Implications for International Peace and Security,” 6/23/2011; U.S. Senate, Ryan C.
      Crocker, Testimony Before the Senate Foreign Relations Committee, 6/8/2011.
3.    U.S. Senate, Ryan C. Crocker, Testimony Before the Senate Foreign Relations Committee, 6/8/2011.
4.    U.S. Senate, Ryan C. Crocker, response to questions during a hearing before the Senate Foreign Relations Committee, 6/8/2011.
5.    U.S. Senate, “Evaluating U.S. Foreign Assistance to Afghanistan,” A Majority Staff Report Prepared for the Use of the Committee on Foreign
      Relations, United States Senate, One Hundred Twelfth Congress, 6/8/2011, p. 2.
6.    U.S. Senate, “Evaluating U.S. Foreign Assistance to Afghanistan,” A Majority Staff Report Prepared for the Use of the Committee on Foreign
      Relations, United States Senate, One Hundred Twelfth Congress, 6/8/2011, p. 3.
7.    U.S. Senate, “Evaluating U.S. Foreign Assistance to Afghanistan,” A Majority Staff Report Prepared for the Use of the Committee on Foreign
      Relations, United States Senate, One Hundred Twelfth Congress, 6/8/2011.
8.    U.S. Senate, Secretary of State Hillary Rodham Clinton, Testimony to the Senate Foreign Relations Committee, 6/23/2011.
9.    U.S. Senate, Secretary of State Hillary Rodham Clinton, Testimony to the Senate Foreign Relations Committee, 6/23/2011.
10.   P.L. 111-32, “Supplemental Appropriations Act 2009,” 6/24/2009.
11.   DoD, response to SIGAR vetting, 7/20/2009.
12.   See Appendix B of this report.
13.   DoD, response to SIGAR data call, 7/14/2011.
14.   DoD, responses to SIGAR data call, 7/14/2011 and 4/15/2011.
15.   DoD, response to SIGAR data call, 7/14/2011.
16.   DoD, response to SIGAR data call, 7/14/2011.
17.   DoD, responses to SIGAR data call, 7/14/2011 and 4/15/2011.
18.   DoD, response to SIGAR data call, 7/14/2011.
19.   DoD, Financial Management Regulation, “Commander’s Emergency Response Program: Vol. 12, Ch. 27,” 1/2009, p. 27-3.
20.   DoD, response to SIGAR vetting, 4/21/2010.
21.   U.S. Senate Committee on Armed Services, press release, “Senate Passes Ike Skelton National Defense Authorization Act for Fiscal Year 2011,”
      12/22/2010.
22.   DoD, response to SIGAR data call, 7/15/2011.
23.   DoD, responses to SIGAR data call, 7/15/2011 and 4/15/2011.
24.   DoD, response to SIGAR data call, 7/18/2011; P.L. 112-10, 4/15/2011.
25.   DoD, “Drug Interdiction and Counter-Drug Activities, Defense FY 2009 Supplemental Request Drug Interdiction and Counterdrug Activities,”
      accessed 4/13/2010.
26.   DoD, “Drug Interdiction and Counter-Drug Activities, Defense FY 2009 Supplemental Request Drug Interdiction and Counterdrug Activities,”
      accessed 4/13/2010.
27.   DoD, responses to SIGAR data call, 6/29/2011 and 4/14/2011.
28.   OMB, response to SIGAR vetting, 7/16/2009.
29.   P.L. 112-10, 4/15/2011.
30.   DoS, response to SIGAR data call, 7/12/2011.
31.   See Appendix B of this report.
32.   USAID, response to SIGAR data call, 7/13/2011.
33.   USAID, responses to SIGAR data call, 7/13/2011 and 4/14/2011.
34.   DoS, response to SIGAR data call, 10/13/2009.
35.   P.L. 112-10, 4/15/2011.
36.   DoS, response to SIGAR data call, 7/12/2011.
37.   See Appendix B of this report.
38.   DoS, response to SIGAR data call, 7/13/2011.
39.   DoS, responses to SIGAR data call, 7/13/2011 and 4/12/2011.
40.   SIGAR, “Quarterly Report to the U.S. Congress,” 7/30/2010, p. 51.
41.   World Bank, “ARTF: Administrator’s Report on Financial Status as of June 21, 2011,” p. 4.
42.   World Bank, “ARTF: Administrator’s Report on Financial Status as of June 21, 2011,” p. 1.
43.   World Bank, “Quarterly Country Update: Afghanistan,” 4/2011, p. 16.
44.   World Bank, “ARTF: Administrator’s Report on Financial Status as of June 21, 2011,” p. 6.
45.   World Bank, “ARTF: Administrator’s Report on Financial Status as of June 21, 2011,” p. 6; World Bank, “Quarterly Country Update:
      Afghanistan,” 4/2011, p. 16.
46.   World Bank, “ARTF: Administrator’s Report on Financial Status as of June 21, 2011,” p. 6.




                                                    146                   SPECIAL INSPECTOR GENERAL       I   AFGHANISTAN RECONSTRUCTION
                                                           ENDNOTES




47.   World Bank, “ARTF: Administrator’s Report on Financial Status as of June 21, 2011,” p. 6.
48.   EC, “Afghanistan: State of Play, January 2011,” 3/31/2011, p. 7.
49.   SIGAR analysis of UNDP’s quarterly and annual LOTFA reports, 7/22/2011.
50.   UNDP, “LOTFA Phase VI Quarterly Progress Report Q1/2011,” pp. 1, 26, accessed 6/22/2011.
51.   SIGAR analysis of UNDP’s quarterly and annual LOTFA reports, 7/22/2011.
52.   DoD, response to SIGAR data call, 7/14/2011.
53.   UN Secretary-General, “The Situation in Afghanistan and Its Implications for International Peace and Security,” 6/23/2011, p. 12.
54.   CENTCOM, response to SIGAR data call, 7/1/2011.
55.   CENTCOM, response to SIGAR data call, 7/1/2011.
56.   CENTCOM, response to SIGAR data call, 7/1/2011.
57.   OSD, response to SIGAR data call, 7/6/2011.
58.   NTM-A, “MoD/GS Assessment ACG-AD Jan–Mar 2011,” p. 3.
59.   NTM-A, “MoD/GS Assessment ACG-AD Jan–Mar 2011,” pp. 2, 4–5.
60.   NTM-A, “MoI Development: CM Projections,” 6/26/2011, p. 1.
61.   DoD, response to SIGAR data call, 7/7/2011.
62.   UNAMA, “Worrying Spike in Civilian Deaths,” 6/17/2011, accessed 6/20/2011; UN, “Afghanistan: UN Urges Greater Civilian Protection after
      Bloodiest Month,” 6/11/2011, accessed 6/27/2011.
63.   UN Secretary-General, “The Situation in Afghanistan and Its Implications for International Peace and Security,” 6/23/2011, p. 12.
64.   U.S. Senate, Ryan C. Crocker, Testimony Before the Senate Foreign Relations Committee, 6/8/2011.
65.   OSD, response to SIGAR data call, 7/6/2011.
66.   OSD, response to SIGAR data call, 7/6/2011; UN Secretary-General, “The Situation in Afghanistan and Its Implications for International Peace
      and Security,” 9/14/2010, p. 5.
67.   OSD, response to SIGAR data call, 7/6/2011.
68.   CENTCOM, “Contractor Support of U.S. Operations in the USCENTCOM Area of Responsibility, Iraq, and Afghanistan,” 4/6/2011, accessed
      7/10/2011; CENTCOM, “Contractor Support of U.S. Operations in the USCENTCOM Area of Responsibility, Iraq, and Afghanistan,” 5/2010,
      accessed 7/10/2011.
69.   SIGAR, “Quarterly Report to the United States Congress,” 4/30/2011, pp. 55–56.
70.   DoD, “Report on Progress Toward Security and Stability in Afghanistan,” 4/2011, pp. 63–64.
71.   DoD, “Report on Progress Toward Security and Stability in Afghanistan,” 4/2011, pp. 63–64.
72.   DoD, response to SIGAR data call, 7/14/2011.
73.   GAO, “Afghanistan Security: Afghan Army Growing, but Additional Trainers Needed; Long-term Costs Not Determined,” GAO-11-66, 1/27/2011,
      pp. 6–7.
74.   DoD, response to SIGAR data call, 7/19/2011.
75.   SIGAR, Audit-11-6, “Inadequate Planning for ANSF Facilities Increases Risk for $12.3 Billion Program,” 1/2011, p. 2.
76.   ISAF-IJC, ANA PERSTAT, 4/2011.
77.   CENTCOM, response to SIGAR data call, 7/1/2011.
78.   DoD, response to SIGAR data call, 7/14/2011.
79.   CENTCOM, response to SIGAR data call, 7/1/2011.
80.   CENTCOM, responses to SIGAR data call, 4/1/2011 and 7/1/2011.
81.   CENTCOM, response to SIGAR data call, 7/1/2011.
82.   CENTCOM, response to SIGAR data call, 7/1/2011.
83.   CENTCOM, response to SIGAR data call, 7/1/2011.
84.   CENTCOM, response to SIGAR data call, 7/1/2011.
85.   CENTCOM, response to SIGAR data call, 7/1/2011.
86.   DoD, response to SIGAR data call, 7/14/2011.
87.   CENTCOM, response to SIGAR data call, 7/1/2011.
88.   DoD, response to SIGAR data call, 7/14/2011.
89.   CENTCOM, response to SIGAR data call, 7/1/2011.
90.   GAO, “Afghanistan Security: Afghan Army Growing, but Additional Trainers Needed; Long-term Costs Not Determined,” GAO-11-66, 1/27/2011, p. 8.
91.   CENTCOM, response to SIGAR data call, 7/1/2011.
92.   CENTCOM, response to SIGAR data call, 7/1/2011.
93.   NTM-A, “MoD/GS Assessment ACG-AD Jan–Mar 2011,” p. 6.
94.   DoD, “Report on Progress Toward Security and Stability in Afghanistan,” 4/2011, pp. 14–15.
95.   Federal Business Opportunities, “Solicitation Number: W91B4M-11-R-0021,” 6/15/2011, accessed 6/15/2011.




             REPORT TO THE UNITED STATES CONGRESS          I   JULY 30, 2011              147
                                                          ENDNOTES




96.    DoD, response to SIGAR data call, 7/14/2011.
97.    ISAF-IJC, ANP PERSTAT, 6/2011.
98.    CENTCOM, response to SIGAR data call, 7/1/2011.
99.    CENTCOM, response to SIGAR data call, 7/1/2011.
100.   UNDP, “LOTFA Phase VI Quarterly Progress Report Q1/2011,” pp. 1, 26, accessed 6/22/2011; UNDP, “LOTFA Phase V Annual Progress Report
       2010,” p. 31; SIGAR analysis of UNDP’s quarterly and annual LOTFA reports, 7/22/2011.
101.   UNDP, “LOTFA Phase VI Quarterly Progress Report Q1/2011,” p. 23, accessed 6/28/2011.
102.   UNDP, “LOTFA Phase VI Quarterly Progress Report Q1/2011,” p. 23, accessed 6/28/2011.
103.   UNDP, “LOTFA Phase VI Quarterly Progress Report Q1/2011,” p. 23, accessed 6/28/2011.
104.   OSD, response to SIGAR data call, 4/3/2011.
105.   OSD, response to SIGAR data call, 7/6/2011.
106.   OSD, response to SIGAR data call, 7/6/2011.
107.   OSD, response to SIGAR data call, 7/6/2011.
108.   DoD, response to SIGAR data call, 7/14/2011.
109.   CENTCOM, response to SIGAR data call, 7/1/2011.
110.   CENTCOM, response to SIGAR data call, 7/1/2011.
111.   CENTCOM, response to SIGAR data call, 7/1/2011.
112.   CENTCOM, response to SIGAR data call, 1/4/2011; SIGAR, “Quarterly Report to the United States Congress,” 1/30/2011, p. 61.
113.   CENTCOM, response to SIGAR data call, 7/1/2011.
114.   CENTCOM, response to SIGAR data call, 7/1/2011.
115.   UNAMA, “Arming the Afghan Police with Literacy,” 6/14/2011, accessed 6/20/2011.
116.   CENTCOM, response to SIGAR data call, 7/1/2011.
117.   DoD, response to SIGAR data call, 7/14/2011.
118.   CENTCOM, response to SIGAR data call, 7/1/2011.
119.   DoD, response to SIGAR data call, 7/14/2011.
120.   CENTCOM, response to SIGAR data call, 7/1/2011.
121.   CENTCOM, response to SIGAR data call, 7/1/2011.
122.   CENTCOM, response to SIGAR data call, 7/1/2011.
123.   CENTCOM, response to SIGAR data call, 7/1/2011.
124.   CENTCOM, response to SIGAR data call, 7/1/2011.
125.   White House, “Remarks by the President on the Way Forward in Afghanistan,” 6/22/2011.
126.   DoS, PM/WRA, response to SIGAR data call, 7/5/2011.
127.   DoS, PM/WRA, response to SIGAR data call, 7/5/2011.
128.   DoS, PM/WRA, response to SIGAR data call, 7/5/2011.
129.   See Appendix B of this report.
130.   OSD, response to SIGAR data call, 7/6/2011.
131.   OSD, response to SIGAR data call, 7/6/2011.
132.   CENTCOM, response to SIGAR data call, 7/1/2011.
133.   CENTCOM, response to SIGAR data call, 7/1/2011.
134.   OSD, response to SIGAR data call, 7/6/2011.
135.   OSD, response to SIGAR data call, 7/6/2011.
136.   UN Secretary-General, “The Situation in Afghanistan and Its Implications for International Peace and Security,” 6/23/2011, p. 12.
137.   See Appendix B of this report.
138.   DoS, response to SIGAR data call, 7/1/2011.
139.   DoS, response to SIGAR data call, 7/1/2011.
140.   UN Security Council, “In Move Designed to Keep Pace with Evolving Security Situation in Afghanistan, Defeat Terrorism, Security Council
       Splits Al-Qaida, Taliban Sanctions Regime,” 6/17/2011; UNAMA, “Security Council Votes To Separate Al-Qaida and Taliban Sanctions List,”
       6/17/2011.
141.   DoS, “Remarks of U.S. Secretary of State Hillary Rodham Clinton to National Conference of Editorial Writers,” 5/4/2011.
142.   DoS, response to SIGAR data call, 7/1/2011.
143.   DoS, response to SIGAR data call, 7/1/2011.
144.   ISAF, “ISAF Reintegration Guide,” 11/22/2010.
145.   DoS, response to SIGAR data call, 7/1/2011.
146.   DoD, “DoD News Briefing with Maj. Gen. Jones via Teleconference from Afghanistan,” 5/19/2011.




                                                   148                  SPECIAL INSPECTOR GENERAL      I   AFGHANISTAN RECONSTRUCTION
                                                           ENDNOTES




147.   DoS, response to SIGAR data call, 7/1/2011.
148.   DoS, response to SIGAR data call, 7/1/2011; DoD, response to SIGAR data call, 6/30/2011.
149.   DoS, response to SIGAR data call, 7/1/2011.
150.   DoD, “DoD News Briefing with Maj. Gen. Jones via Teleconference from Afghanistan,” 5/19/2011.
151.   DoD, “DoD News Briefing with Maj. Gen. Jones via Teleconference from Afghanistan,” 5/19/2011.
152.   DoD, “DoD News Briefing with Maj. Gen. Jones via Teleconference from Afghanistan,” 5/19/2011.
153.   DoS, response to SIGAR data call, 7/1/2011.
154.   DoD, “DoD News Briefing with Maj. Gen. Jones via Teleconference from Afghanistan,” 5/19/2011.
155.   DoD, “DoD News Briefing with Maj. Gen. Jones via Teleconference from Afghanistan,” 5/19/2011.
156.   DoD, “DoD News Briefing with Maj. Gen. Jones via Teleconference from Afghanistan,” 5/19/2011.
157.   DoD, “DoD News Briefing with Maj. Gen. Jones via Teleconference from Afghanistan,” 5/19/2011.
158.   DoD, response to SIGAR data call, 6/30/2011.
159.   DoD, “DoD News Briefing with Maj. Gen. Jones via Teleconference from Afghanistan,” 5/19/2011.
160.   DoD, response to SIGAR data call, 6/30/2011.
161.   DoS, response to SIGAR data call, 7/1/2011.
162.   DoD, response to SIGAR data call, 6/30/2011.
163.   DoD, “DoD News Briefing with Maj. Gen. Jones via Teleconference from Afghanistan,” 5/19/2011.
164.   DoS, response to SIGAR data call, 7/1/2011.
165.   DoS, response to SIGAR data call, 7/1/2011.
166.   DoS, response to SIGAR data call, 7/1/2011.
167.   DoS, response to SIGAR data call, 7/1/2011; GIRoA, “Afghanistan APRP: Programme Document,” 7/2010.
168.   DoS, response to SIGAR data call, 7/1/2011.
169.   DoS, response to SIGAR data call, 7/1/2011.
170.   DoS, “Remarks by Chargé d’Affaires E. Anthony Wayne at the Trilateral Meeting of the United States, Afghanistan, and Pakistan,” 5/24/2011.
171.   DoD, “Report on Progress Toward Security and Stability in Afghanistan,” 4/29/2011.
172.   UN Secretary-General, “The Situation in Afghanistan and Its Implications for International Peace and Security,” 6/23/2011, pp. 9–10.
173.   DoS, response to SIGAR data call, 7/1/2011.
174.   Wolesi Jirga, “Wolesi Jirga Approves the National Budget,” 5/1/2011.
175.   Ministry of Finance, “1390 National Budget,” 5/2011; Treasury, response to SIGAR data call, 4/5/2011.
176.   Wolesi Jirga, “Wolesi Jirga Approves the National Budget,” 5/1/2011,
177.   Ministry of Finance, “1390 National Budget,” 5/2011.
178.   Wolesi Jirga, “Wolesi Jirga Approves the National Budget,” 5/1/2011.
179.   DoS, response to SIGAR data call, 7/1/2011.
180.   USAID, response to SIGAR data call, 7/4/2011.
181.   USAID, response to SIGAR data call, 7/4/2011.
182.   USAID, response to SIGAR data call, 7/4/2011.
183.   USAID, response to SIGAR data call, 7/4/2011.
184.   USAID, response to SIGAR data call, 7/4/2011.
185.   AREU, “Local Governance in Afghanistan, A View from the Ground,” 6/2011.
186.   USIP, “Promoting Stability and Resolving Provincial Disputes in Afghanistan: USIP’s Dispute Councils Program,” 6/10/2011.
187.   AREU, “Local Governance in Afghanistan, A View from the Ground,” 6/2011.
188.   DoS, response to SIGAR data call, 7/1/2011.
189.   DoS, response to SIGAR data call, 7/1/2011.
190.   DoS, response to SIGAR data call, 7/1/2011.
191.   DoS, response to SIGAR data call, 7/1/2011.
192.   DoS, response to SIGAR data call, 7/1/2011.
193.   DoS, response to SIGAR data call, 7/1/2011.
194.   DoS, response to SIGAR data call, 7/1/2011.
195.   DoS, response to SIGAR data call, 7/1/2011.
196.   DoS, response to SIGAR data call, 7/1/2011.
197.   DoS, response to SIGAR data call, 7/1/2011.
198.   DoS, response to SIGAR data call, 7/1/2011.
199.   DoS, response to SIGAR data call, 7/1/2011.
200.   DoS, response to SIGAR data call, 7/1/2011.




              REPORT TO THE UNITED STATES CONGRESS          I   JULY 30, 2011              149
                                                         ENDNOTES




201. DoS, response to SIGAR data call, 7/1/2011.
202. DoS, response to SIGAR data call, 7/1/2011; DoS, “Remarks by U.S. Ambassador Karl W. Eikenberry at the Signing of a Memorandum of
     Understanding in Support of The District Delivery Program,” 4/10/2010.
203. DoS, response to SIGAR data call, 7/1/2011.
204. USAID, response to SIGAR data call, 7/4/2011.
205. USAID, response to SIGAR data call, 7/4/2011.
206. USAID, response to SIGAR data call, 7/4/2011.
207. USAID, response to SIGAR data call, 7/4/2011.
208. USAID, response to SIGAR data call, 7/4/2011.
209. USAID, response to SIGAR data call, 7/4/2011.
210. USAID, response to SIGAR data call, 7/4/2011.
211. USAID, response to SIGAR data call, 7/4/2011.
212. USAID, response to SIGAR data call, 7/4/2011.
213. DoS, response to SIGAR data call, 7/1/2011.
214. AREU, “Local Governance in Afghanistan,” 6/2011, p. 4.
215. AREU, “Local Governance in Afghanistan, A View from the Ground,” 6/2011.
216. DoS/INL, response to SIGAR data call, 7/8/2011.
217. DoS/INL, response to SIGAR data call, 7/8/2011.
218. DoS/INL, response to SIGAR data call, 7/8/2011.
219. DoS/INL, response to SIGAR data call, 7/8/2011.
220. DoS/INL, response to SIGAR data call, 7/8/2011.
221. DoS, response to SIGAR data call, 7/1/2011.
222. DoS, response to SIGAR data call, 7/1/2011.
223. DoS, response to SIGAR data call, 7/1/2011.
224. UN Secretary-General, “The Situation in Afghanistan and Its Implications for International Peace and Security,” 6/23/2011, p. 6.
225. DoS/INL, response to SIGAR data call, 7/8/2011; GAO, “Afghanistan Security: U.S. Programs to Further Reform Ministry of Interior and
     National Police Challenged by Lack of Military Personnel and Afghan Cooperation,” 3/9/2009.
226. USAID, response to SIGAR data call, 7/4/2011.
227. USAID, response to SIGAR data call, 7/4/2011.
228. USAID, response to SIGAR data call, 7/4/2011.
229. USAID, response to SIGAR data call, 7/4/2011.
230. USAID, response to SIGAR data call, 7/4/2011.
231. DoS/INL, response to SIGAR data call, 7/8/2011.
232. DoS/INL, response to SIGAR data call, 7/8/2011.
233. DoS/INL, response to SIGAR data call, 7/8/2011; DoS/INL, response to SIGAR vetting, 7/18/2011.
234. DoS/INL, response to SIGAR data call, 7/8/2011.
235. DoS/INL, response to SIGAR vetting, 7/18/2011.
236. DoS/INL, response to SIGAR vetting, 7/18/2011.
237. AREU, “Local Governance in Afghanistan, A View from the Ground,” 6/2011.
238. Transparency International UK, “Corruption Threatens the Success of the International Mission in Afghanistan,” 5/2011.
239. Transparency International UK, “Corruption Threatens the Success of the International Mission in Afghanistan,” 5/2011.
240. UNAMA, “Joint Independent Committee Convenes To Combat Corruption,” 5/11/2011.
241. DoS, response to SIGAR data call, 7/1/2011.
242. DoS, response to SIGAR data call, 7/1/2011; Afghanistan Investment Support Agency, “Message from the President of Afghanistan,”
     accessed 7/14/2011.
243. DoS, response to SIGAR data call, 7/1/2011.
244. DoS, response to SIGAR data call, 7/1/2011.
245. DoS, response to SIGAR data call, 7/1/2011.
246. DoS, response to SIGAR data call, 7/1/2011.
247. DoS, response to SIGAR data call, 7/1/2011.
248. DoS, response to SIGAR data call, 7/1/2011.
249. DoS, response to SIGAR data call, 7/1/201; USAID, response to SIGAR data call, 7/4/2011.
250. DoS, response to SIGAR data call, 7/1/2011; USAID, response to SIGAR data call, 7/4/2011.
251. UN Secretary-General, “The Situation in Afghanistan and Its Implications for International Peace and Security,” 6/23/2011, p. 7.




                                                  150                  SPECIAL INSPECTOR GENERAL       I   AFGHANISTAN RECONSTRUCTION
                                                        ENDNOTES




252. DoS/INL, response to SIGAR vetting, 7/18/2011.
253. World Bank, “Study Reveals Vulnerability of IDPs Living in Afghan Cities and Urges a Comprehensive Approach to Support Durable Solutions,”
     6/1/2011.
254. World Bank, “Study Reveals Vulnerability of IDPs Living in Afghan Cities and Urges a Comprehensive Approach to Support Durable Solutions,”
     6/1/2011.
255. World Bank, “Study Reveals Vulnerability of IDPs Living in Afghan Cities and Urges a Comprehensive Approach to Support Durable Solutions,”
     6/1/2011.
256. World Bank, “Study Reveals Vulnerability of IDPs Living in Afghan Cities and Urges a Comprehensive Approach to Support Durable Solutions,”
     6/1/2011.
257. UNAMA, “UN, Government, and Partners Assist Thousands of Refugees Returning Home,” 4/24/2011.
258. UNAMA, “Virginity-Related Penalties ‘Extremely Unfair,’ Activists Say,” 4/26/2011.
259. UNAMA, “Virginity-Related Penalties ‘Extremely Unfair,’ Activists Say,” 4/26/2011.
260. UNAMA, “Virginity-Related Penalties ‘Extremely Unfair,’ Activists Say,” 4/26/2011.
261. UN Secretary-General, “The Situation in Afghanistan and Its Implications for International Peace and Security,” 6/23/2011, p. 6.
262. DoS, response to SIGAR data call, 7/1/2011.
263. GIRoA MoF, “1390 National Budget Draft Statement,” pp. 2, 12.
264. DoS, response to SIGAR data call, 7/1/2011.
265. World Bank, “June 2011 Economic Outlook for Afghanistan,” 6/2011.
266. GIRoA, MoF, “1390 National Budget Draft Statement,” pp. 2, 12.
267. World Bank, “June 2011 Economic Outlook for Afghanistan,” 6/2011.
268. World Bank, “June 2011 Economic Outlook for Afghanistan,” 6/2011.
269. GIRoA, ACD, “Annual Review of Tariff, External Trade and Revenue, Year 1389,” p. ii.
270. GIRoA, ACD, “Annual Review of Tariff, External Trade and Revenue, Year 1389,” p. ii.
271. DoS, U.S. Embassy Kabul, “Total Customs Revenue, SY 1388–1389.”
272. DoS, response to SIGAR data call, 7/7/2011.
273. GIRoA, ACD, “Annual Review of Tariff, External Trade and Revenue, Year 1389,” p. 7.
274. GIRoA, ACD, “Annual Review of Tariff, External Trade and Revenue, Year 1389,” pp. 24, 28, 29.
275. GIRoA, ACD, “Annual Review of Tariff, External Trade and Revenue, Year 1389,” p. 13.
276. USAID, press release, “USAID To Provide Direct Assistance to Afghan Ministries for the People of Afghanistan,” 6/21/2011.
277. USAID, response to SIGAR data call, 7/19/2011.
278. Treasury, response to SIGAR data call, 6/29/2011.
279. Treasury, responses to SIGAR data call, 7/11/2011 and 6/29/2011.
280. Treasury, response to SIGAR data call, 7/11/2011.
281. SIGAR, “Quarterly Report to the Congress,” 4/30/2011, pp. 50–51.
282. AP, “IMF Stops Payment to Afghanistan Due to Lax Financial Oversight,” 6/17/2011; Reuters, “Exclusive: Afghan Cash Crisis Looms: Millions
     Withheld Over Bank,” 6/17/2011.
283. SIGAR, “Quarterly Report to the Congress,” 4/30/2011, pp. 100–101.
284. CIMIC, “Afghanistan Review,” 6/1/2011, p. 1.
285. DoS, response to SIGAR data call, 7/6/2011.
286. DoS, response to SIGAR data call, 7/6/2011; Radio Free Europe/Radio Liberty, “Interview: Afghan Central Bank Chief Quits Post, Cites
     Imminent Dangers,” 6/27/2011.
287. DoS, response to SIGAR data call, 6/29/2011.
288. GIRoA, MoF, press release, 6/19/2011.
289. DoS, response to SIGAR data call, 7/1/2011.
290. Wall Street Journal, “Afghan Lawmakers Seek Audit of Second Bank,” 7/12/2011.
291. SIGAR, “Quarterly Report to the Congress,” 4/30/2011, p. 101.
292. CIMIC, “Afghanistan Review,” 6/1/2011, p. 1; The Guardian, “Afghanistan Facing Insolvency Within a Month, Say Officials,” 6/17/2011.
293. USAID, press release, “USAID Launches New Project To Strengthen the Afghan Financial Sector,” 5/17/2011.
294. USAID, “Fact Sheet: Financial Access for Investing in the Development of Afghanistan (FAIDA),” 4/2011.
295. USAID, “Fact Sheet: Financial Access for Investing in the Development of Afghanistan (FAIDA),” 4/2011.
296. USAID, response to SIGAR data call, 7/4/2011.
297. SIGAR, “Quarterly Report to the Congress,” 1/30/2011, p. 99; SIGAR, “Quarterly Report to the Congress,” 4/30/2011, p. 109.
298. CIMIC, “Afghanistan Review,” 5/25/2011.
299. DoS, U.S. Embassy Kabul, “Statement on the Afghanistan-Pakistan Transit Trade Agreement,” 6/13/2011.




             REPORT TO THE UNITED STATES CONGRESS        I   JULY 30, 2011             151
                                                         ENDNOTES




300. DoS, U.S. Embassy Kabul, “Statement on the Afghanistan-Pakistan Transit Trade Agreement,” 6/13/2011.
301. CIMIC, “Afghanistan Review,” 6/29/2011, p. 1; Tolo News, “Pakistan has Stopped 60 Afghan-bound Trucks at Torkham Border Gate,” Afghan
     Chamber of Commerce and Industries Said on Saturday,” 6/25/2011.
302. CIMIC, “Afghanistan Review,” 6/8/2011, p. 1.
303. CIMIC, “Afghanistan Review,” 5/11/2011; Asia Pulse, “Afghanistan Urges Tajikistan to Review Cargo Transit Tariffs,” 4/20/2011.
304. CIMIC, “Afghanistan Review,” 5/11/2011.
305. USAID, FEWS-NET, “Afghanistan Price Bulletin,” 5/2011, p. 1.
306. USDA/FAS, “Commodity Intelligence Report,” 5/11/2011, p. 1.
307. USDA/FAS, “Commodity Intelligence Report,” 5/11/2011, pp. 1–2; USAID, FEWS-NET, “Food Security Outlook Update,” 3/2011, p. 1.
308. USDA/FAS, “Commodity Intelligence Report,” 5/11/2011, p. 3.
309. Reuters, “India To Give Afghanistan 250,000 Tons of Wheat—Government,” 6/3/2011; USAID, response to SIGAR data call, 7/16/2011.
310. USDA/FAS, “2011 Grain and Feed Annual: Afghanistan,” Grain Report #AF 2011-04, 5/15/2011, p. 3.
311. USAID, response to SIGAR data call, 7/16/2011.
312. DoS, response to SIGAR data call, 7/16/2011; DoS, response to SIGAR data call, 7/7/2011.
313. PepsiCo, “PepsiCo Signs with Alokazay as Exclusive Bottling Partner for Afghanistan,” 4/20/2011.
314. USAID, press release, “American University of Afghanistan Holds First Commencement,” 5/26/2011.
315. DoS, U.S. Embassy Kabul, “U.S. Embassy Honor Returning Afghan Scholars,” 5/23/2011; Purdue University, Purdue/USAID Afghan Merit
     Scholar Program, accessed 7/12/2011.
316. DoS, U.S. Embassy Kabul, “U.S. Embassy Honor Returning Afghan Scholars,” 5/23/2011; DoS, response to SIGAR data call, 7/18/2011.
317. DoS, U.S. Embassy Kabul, press release, “Tunnel Repairs Will Improve Safety for Thousands of Travelers,” 6/15/2011.
318. DoS, U.S. Embassy Kabul, press release, “Tunnel Repairs Will Improve Safety for Thousands of Travelers,” 6/15/2011.
319. USAID, response to SIGAR data call, 7/18/2011; USAID response to vetting, 7/18/2011.
320. DoS, U.S. Embassy Kabul, “Ambassador Eikenberry Remarks at Northern Fertilizer Power Plant,” 6/12/2011.
321. USAID, response to SIGAR data call, 7/18/2011; DoS, response to SIGAR data call, 7/1/2011.
322. ISAF, Regional Command South, press release, “Improvements to Kajaki Dan Power Potential in Southern Afghanistan, 7/14/2011.
323. DoS, U.S. Embassy Kabul, “Ambassador Eikenberry Remarks at Northern Fertilizer Power Plant,” 6/12/2011.
324. DoS, response to SIGAR data call, 7/1/2011.
325. USAID, response to SIGAR data call, 7/18/2011. ;SIGAR, Audit 10-4, “Afghanistan Energy Supply Has Increased but an Updated Master Plan is
     Needed and Delays and Sustainability Concerns Remain,” 1/15/2010, p. ii.
326. ADB, Project 43497: Power Sector Master Plan, 4/13/2011 update; ADB, “Islamic Republic of Afghanistan: Power Sector Master Plan,” 11/2010,
     p. 2; USAID, response to SIGAR data call, 7/18/2011.
327. GIRoA, MoM, “Afghanistan’s Ministry of Mines Unveils New Geological Data Center,” 6/5/2011.
328. GIRoA, MoM, “Afghanistan’s Ministry of Mines Unveils New Geological Data Center,” 6/5/2011.
329. Fortune, “J.P. Morgan’s Hunt for Afghan Gold,” 5/11/2011; DoD, TFBSO, response to SIGAR data call, 7/11/2011.
330. CIMIC, “Afghanistan Review,” 5/25/2011, p. 1; GIRoA, MoM, “Hajigak Iron Deposit Introduced to Interested Investors,” 5/23/2011.
331. GIRoA, MoM, “Request for Expression of Interest for Hajigak Iron Deposit,” 9/1/2010.
332. CIMIC, “Afghanistan Review,” 5/25/2011, p. 1.
333. SIGAR, “Quarterly Report to the Congress,” 10/30/2010, p. 106.
334. GIRoA, MoM, “Third International Conference on Afghan Marbles Takes Place in Herat,” 6/11/2011; USAID, press release, “New Marble-
     Processing Facility Inaugurated at Marble Conference Opening,” 5/25/2011.
335. DoD, response to SIGAR data call, 7/4/2011.
336. DoD, response to SIGAR data call, 7/4/2011; DoS, response to SIGAR data call, 7/4/2011.




                                                  152                  SPECIAL INSPECTOR GENERAL      I   AFGHANISTAN RECONSTRUCTION
Cover Captions (clockwise from left):
Skilled Afghan workers help complete a micro-
hydropower plant in the village of Daste Riwat, har-
nessing the power of the Panjshir River. The facility
is one of 150 power plants that the U.S. Army Corps
of Engineers is building in 7 provinces, using CERP
funds. The last unit is scheduled to be completed
in Parwan province this quarter. (ISAF photo,
MSgt Michael O’Connor)
An Afghan child receives care from a U.S. medic
during a Village Medical Operations Program clinic
in Uruzgan province on May 28. U.S. Special Opera-
tions Forces collaborated with a coalition Female
Treatment Team, Afghan commandos, and local
physicians to provide medical services and build
partnerships. (U.S. Army photo, SSgt Kaily Brown)
Afghan road workers upgrade the main route
through the Panjshir River Valley on May 21.
Supported by U.S. funds, the project will help the
GIRoA achieve its goal of improving transportation
corridors that link Afghan communities with internal
and external markets. (ISAF photo,
MSgt Michael O’Connor)

ANA trainees learn squad attack skills during
basic training at the Regional Military Training
Center on May 10 in Kandahar. This quarter, more
than 26,000 ANA personnel graduated from train-
ing programs funded by the Afghanistan Security
Forces Fund—an increase of more than 4,400              Afghan women plant seeds in pots at a nursery in Zabul province on May 8. This quarter,
since last quarter. (U.S. Air Force photo,                 USAID distributed thousands of packages of seeds and fertilizer to Afghan farmers
TSgt Adrienne Brammer)                                          to help increase agricultural output. (ISAF photo, SSgt Brian Ferguson)
                                                                                                          SIGAR
SIGAR
SPECIAL INSPECTOR GENERAL                                                                                                        Special Inspector General for   JULY 30




                                 SIGAR | QUARTERLY REPORT TO THE UNITED STATES CONGRESS | JULY 30, 2011
FOR AFGHANISTAN RECONSTRUCTION
                                                                                                                                 Afghanistan Reconstruction       2011
400 Army Navy Drive
Arlington, VA 22202-4704




                                 3                                                                        QUARTERLY REPORT TO THE UNITED STATES CONGRESS
